federal Trade commission | Performance and Accountability Report
About this RePoRt
The federal Trade commission’s (fTc) fiscal year (fy) 2011 Performance and accountability report (Par)
provides the results of the agency’s program and financial performance and demonstrates to the Congress, the
President, and the public the FTC’s commitment to its mission and accountability over the resources entrusted to it.

This report, available at www.ftc.gov/par, includes information that satisfies the reporting requirements contained
in the following legislation:




                                                                                                                                                                         Introduction
     • federal managers’ financial integrity act of 1982
     • Government Performance and results act of 1993
     • Government management reform act of 1994
     • reports consolidation act of 2000
     • accountability of Tax dollars act of 2002
     • improper Payments information act of 2002
     • GPra modernization act of 2010


The performance and financial information contained in this report is summarized in a “Summary of Financial and
Performance Information” report available at www.ftc.gov/par by February 2012.


     Certificate of Excellence


                                                                                                                       CERTIFICATE OF
                            CERTIFICATE OF                                                                             EXCELLENCE IN
                            EXCELLENCE IN                                                                             ACCOUNTABILITY
                           ACCOUNTABILITY                                                                               REPORTING                                   ®



                              REPORTING                                                     ®                             BEST-IN-CLASS AWARD

                                                                                                                                     Presented to the


                                                    Presented to the
                                                                                                                             Federal Trade
                                                                                                                             Commission
                                    Federal Trade
                                    Commission
                                                                                                                             In recognition for Providing the

                                                                                                                          Most Effective Management’s
                                                                                                                           Discussion and Analysis
                                                                                                                    in your FY10 Performance and Accountability Report
                               In recognition of your outstanding efforts
                                   preparing FTC’s Performance and
                             Accountability Report for the fiscal year ended
                                          September 30, 2010.
                                                                                                                                John H. Hummel, CGFM
                                                                                                                                Chair, Certificate of Excellence
                                                                                                                                in Accountability Reporting Board
                                A Certificate of Excellence in Accountability Reporting is presented
                                    by AGA to federal government agencies whose Annual
                                Financial Reports achieve the highest standards demonstrating
                                           accountability and communicating results.

                                                                                                                                Relmond P. Van Daniker, DBA, CPA
                                                                                                                                Executive Director, AGA




              The FTC received the Association of Government Accountants’ Certificate of
                                                        John H. Hummel, CGFM
                                                        Chair, Certificate of Excellence
                                                        in Accountability Reporting Board


              Excellence in Accountability Reporting for its FY 2010 PAR and a Best-In-Class
              award for Most Effective Management’s Discussion and Analysis.
                                                        Relmond P. Van Daniker, DBA, CPA
                                                        Executive Director, AGA




                                                                                                 fiscal year 2011                                                            I
               H
               This report includes four major sections plus supplemental information.


                                                 1. Management’s discussion and Analysis section
                                                     The management’s discussion and analysis (md&a) section provides
                                                     an overview of the FTC’s mission and organization, an overview of
                                                     key performance measures and efficiency measures, mission challenges,
                                                     financial highlights, and management assurances on internal controls,
Introduction




                                                     financial systems, and compliance with laws and regulations.



                                                 2. Performance section
                                                     The Performance section explains the fTc’s performance relative to
                                                     its strategic goals and objectives, and includes an overview of how the
                                                     performance data are verified and validated.




                                                 3. Financial section
                                                     The Financial Section provides financial details, including the
                                                     independent auditor’s report and audited financial statements with
                                                     accompanying notes.




                                                 4. other Accompanying information section
                                                     The other accompanying information section provides management
                                                     and performance challenges identified by the Inspector General along
                                                     with the Chairman’s response and a summary of financial statement
                                                     audit and management assurances.




                                                 5. Appendices
                                                     appendix a lists the acronyms used throughout this report; appendix B
                                                     provides contact information and acknowledgements. Appendix C lists
                                                     useful links for references.




  II                            Federal Trade Commission | Performance and Accountability Report
T
H                                                      Trade Commission Act, Telemarketing Sales Rule, Identity
                                                       Theft Act, Fair Credit Reporting Act, and Clayton Act.
The federal government created the Bureau of
Corporations in 1903. In 1914, President Woodrow       Profile
Wilson signed the Federal Trade Commission Act into
law, and the Bureau of Corporations became the FTC.         • The agency is headquartered in Washington,
                                                              DC, and operates with seven regions across the
L                                                             United States.




                                                                                                                  Introduction
                                                            • The agency had over 1,100 full-time equivalent
                                                              employees at the end of FY 2011.
                                                            • Total new budget authority for FY 2011 was
                                                              $292 million.




         DiD You Know?
         Consumers are affected every day by the FTC’s activities. For example, consumers
         receive fewer telemarketing calls, obtain free credit reports, receive less spam, receive
         identity theft victim assistance, access truthful information about health and weight-
         loss products, pay lower prescription drug prices thanks to the availability of generic
         drugs, and enjoy competitive prices for goods as a result of merger reviews and
         actions taken by the FTC.

                •	   The agency manages the National Do Not Call (DNC) Registry, which
                     gives consumers the opportunity to limit telemarketing calls. At the end
                     of the fiscal year, there were more than 208 million active registrations
                     on the DNC Registry.

                •	   In FY 2011, the FTC took action against mergers likely to harm
                     competition in markets with a total of $22.7 billion in sales. The agency’s
                     efforts to maintain aggressive competition among sellers benefit
                     consumers through lower prices, higher quality products and services,
                     additional choice, and greater innovation.

                •	   The FTC shares the more than 16.1 million consumer fraud, identity theft,
                     financial, and DNC Registry complaints it has collected during the past
                     five years with more than 2,000 law enforcement partner agencies
                     worldwide via the secure Consumer Sentinel Network website.




                                               fiscal year 2011                                                     III
               MessAge FRoM
               the ChAiRMAn
                                                                                                          Jon Leibowitz
                                                                                                          Chairman




               The Federal Trade Commission is a small agency with        “PaY-for-DelaY” PharmaCeutiCal
               a big mission: protecting consumers and maintaining        settlements:
Introduction




               competition. This past year, the troubled economy
                                                                          Anticompetitive “pay-for-delay” patent settlements
               has made our mission more critical than ever, as we
                                                                          between brand-name drug companies and their generic
               combat deceptive, unfair, and anticompetitive conduct
                                                                          competitors delay the availability of lower cost generic
               that tilts the marketplace against consumers and honest
                                                                          drugs by 17 months on average, costing consumers an
               businesses. Our law enforcement actions and policy
                                                                          estimated $3.5 billion a year. The FTC has continued
               initiatives have focused on key sectors of our economy,
                                                                          efforts to end this harmful practice by challenging these
               from high tech to health care, financial services to
                                                                          agreements in court and supporting legislation to restrict
               online commerce.
                                                                          them. This is an important part of the agency’s overall
                                                                          effort to promote competition in health care goods and
               Again this year, our staff has demonstrated remarkable
                                                                          services, to help improve quality and reduce the costs.
               talent, dedication, and creativity and produced tangible
               results for American consumers. This Performance
               and Accountability Report for Fiscal Year 2011 shows       high-teCh ComPetition anD innovation:
               how we managed our resources, highlights our major         Technology markets are critically important to our
               accomplishments, and outlines our plans to address the     economy, job creation, and business innovation. The
               challenges ahead.                                          FTC’s antitrust investigations increasingly involve high-
                                                                          tech industries. The FTC challenges anticompetitive
               FY 2011 PERFORMANCE HIGHLIGHTS                             conduct and mergers, while also considering the realities
                                                                          of the fast-moving technology marketplace in selecting
               “last Dollar” frauDs:
                                                                          targets.
               Stopping scammers who prey on financially distressed
               consumers remains the fTc’s top consumer protection
                                                                          Consumer PrivaCY anD “Do not traCK”:
               priority. During the past year, the agency has taken
               action against some of the worst abusers trying to         In December 2010, the FTC staff issued a preliminary
               pick the last dollar out of the pockets of struggling      privacy report, promoting “privacy by design,”
               consumers with false promises of jobs, debt relief,        transparency, consumer choice, and business innovation.
               mortgage modification, and health insurance. The           The report can help inform policymakers, including
               FTC has also partnered with other agencies to review       the Congress, as they develop solutions, policies, and
               questionable practices of mortgage servicers including     potential laws governing privacy. It also encourages
               “robo-signing.”                                            industry to develop self-regulatory guidelines and best
                                                                          practices. One suggestion: implementation of a “Do
                                                                          Not Track” mechanism, so consumers can control the
                                                                          collection of data about their online searching and
                                                                          browsing, an idea with growing industry support.




  IV                              Federal Trade Commission | Performance and Accountability Report
O     the fTc either disbursed to consumers or credited the
      U.S. Treasury amounts that total nearly 90 percent our
      FY 2011 appropriation -- a tremendous return on the
      taxpayers’ investment.


      future Challenges
      The Reports Consolidation Act of 2000 requires the
      inspector General (iG) to determine key management
      and performance challenges facing the agency, and




                                                                 Introduction
      to assess our progress in addressing them. In 2011,
      the fTc management continues to face challenges in
      protection of personally identifiable and non-public
      information, information technology security, and the
      use of case management to target the most significant
      potential consumer protection and competition
      problems. Agency management agrees that these are
      critical challenges, and with the IG’s assessment of
      our progress, as discussed in the Other Accompanying
      Information Section of this report (see p. 134).

      As we look ahead, my fellow Commissioners, the FTC’s
      staff, and I will continue to work with our partners and
      colleagues in the Congress, industry, and domestic and
      international law enforcement to protect American
      consumers and promote competition necessary to a
      recovering economy.




      Jon Leibowitz
      November 15, 2011




fiscal year 2011                                                    V
               MANAGEMENT
Introduction




               PerformanCe seCtion ............................................................................................................... 35
               Introduction to Performance ........................................................................................................................ 36
                           Relationship of Outputs to Outcomes ............................................................................................ 36
                           Verification and Validation of Performance Data ........................................................................... 37
                           Performance Measure Summary Tables.......................................................................................... 38
               Strategic Goal #1: Protect Consumers .......................................................................................................... 47
               Strategic Goal #2: Maintain Competition.................................................................................................... 68
               Strategic Goal #3: Advance Performance ..................................................................................................... 92




  VI                               Federal Trade Commission | Performance and Accountability Report
FINAN




                     Introduction
OTHER




A




  fiscal year 2011    VII
Management’s Discussion & Analysis




       VIII                          Federal Trade Commission | Performance and Accountability Report
Management’s Discussion & Analysis




                                     1
                                     fiscal year 2011
                                     Mission And                                                T


                                     oRgAnizAtion
                                     The work of the Federal Trade Commission (FTC) is
                                     critical to protecting and strengthening free and open
                                     markets and promoting informed consumer choice,
                                     both in the United States (U.S.) and around the world.
                                     The fTc performs its mission through the use of a
                                     variety of tools, including law enforcement, rulemaking,
Management’s Discussion & Analysis




                                     research, studies on marketplace trends and legal
                                     developments, and consumer and business education.

                                     the FtC’s Vision
                                     A U.S. economy characterized by vigorous competition
                                     among producers and consumer access to accurate
                                     information, yielding high-quality products at low
                                     prices and encouraging efficiency, innovation, and
                                     consumer choice.




       2                                                Federal Trade Commission | Performance and Accountability Report
Each year, more people around the globe have come to        practices.” Since then, the FTC also has been directed to
understand that the competition among independent           administer a wide variety of other consumer protection
businesses is good for consumers, the businesses            laws and regulations, including the Telemarketing Sales
themselves, and the economy. Competitive markets            Rule, the Identity Theft Act, and the Equal Credit
yield lower prices and better quality goods and services,   Opportunity Act.
and a vigorous marketplace provides the incentive and
opportunity for the development of new ideas and            our organization
innovative products and services. Many of the
                                                            The fTc is an independent agency that reports to the
laws governing competition also are administered
                                                            Congress on its actions. These actions include pursuing
by the FTC.
                                                            vigorous and effective law enforcement; advancing




                                                                                                                        Management’s Discussion & Analysis
                                                            consumers’ interests by sharing its expertise with
The fTc has a long tradition of maintaining a
                                                            federal and state legislatures and U.S. and international
competitive marketplace for both consumers and
                                                            government agencies; developing policy and research
businesses. When the FTC was created in 1914, its
                                                            tools through hearings, workshops, and conferences;
purpose was to prevent unfair methods of competition
                                                            and creating practical and plain-language educational
in commerce as part of the battle to “bust the trusts.”
                                                            programs for consumers and businesses in a global
Over the years, the Congress passed additional laws
                                                            marketplace with constantly changing technologies.
giving the agency greater authority over anticompetitive
practices. In 1938, the Congress passed a broad
prohibition against “unfair and deceptive acts or




                                                                   T




         methods of competition;” to give definition to that general prohibition; to use a number of
         quasi-judicial powers to enforce that prohibition; and to enforce the Clayton Act. The FTC
         Act was later amended to prohibit unfair or deceptive acts or practices. The FTC currently
         has enforcement and administrative responsibilities under 46 laws. For a description of,
         and further information on, each law see www.ftc.gov/ogc/stats.shtm.




                                                    fiscal year 2011                                                              3
Management’s Discussion & Analysis




                                     The FTC Commission, as of September 30, 2011: (left to right) Edith Ramirez, Commissioner; William
                                     E. Kovacic, Commissioner; Jon Leibowitz, Chairman; J. Thomas Rosch, Commissioner; Julie Brill,
                                     Commissioner.



                                     The fTc is headed by a commission composed of               The FTC’s mission is carried out by three bureaus:
                                     five commissioners, nominated by the President and          the Bureau of Consumer Protection, the Bureau of
                                     confirmed by the Senate, each serving a seven-year          Competition, and the Bureau of Economics. Work
                                     term. The President chooses one commissioner to act         is aided by offices, including the Office of General
                                     as Chairman. No more than three commissioners can           Counsel, the Office of Inspector General, the Office
                                     be from the same political party. Jon Leibowitz was         of International Affairs, the Office of the Executive
                                     designated to serve as chairman of the fTc on march         Director, and seven regions.
                                     2, 2009, by President Barack H. Obama. Leibowitz was
                                     previously sworn in as a commissioner on September
                                     3, 2004, following his nomination by the President and
                                     confirmation by the U.S. Senate. At the end of the fiscal
                                     year, the commissioners were Julie Brill, William E.
                                     Kovacic, Edith Ramirez, and J. Thomas Rosch.




       4                                                Federal Trade Commission | Performance and Accountability Report
  Federal trade Commission organization Chart

           Commissioner             Commissioner          Chairman            Commissioner             Commissioner
           Edith Ramirez              Julie Brill       Jon Leibowitz       William E. Kovacic¹       J. Thomas Rosch
                                                           -----------
                                                        Chief of Staff
                                                        Joni Lupovitz



                                  Office of
                            Congressional Relations




                                                                                                                         Management’s Discussion & Analysis
                               Jeanne Bumpus
                                                                                    Office of
                                                                            Administrative Law Judges*
                                                                              D. Michael Chappell
                            Office of Public Affairs
                              Cecelia Prewett
                                                                                     Office of
                                                                                 Inspector General*
                                                                                    John Seeba
                                    Office of
                                Policy Planning
                               Susan S. DeSanti
                                                                                  Office of Equal
                                                                             Employment Opportunity
                                                                              Kevin Williams (Acting)
                                    Office of
                              International Affairs
                              Randolph W. Tritell




                             Office of the Secretary
                                 Donald S. Clark




            Office of the             Bureau of           Office of the         Bureau of                 Bureau of
          General Counsel        Consumer Protection   Executive Director      Competition               Economics
           Willard K. Tom           David Vladeck      Eileen Harrington    Richard Feinstein           Joseph Farrell




                                                           Regions




*An independent organization within the FTC
1
 Commissioner Kovacic left office on October 3, 2011




                                                       fiscal year 2011                                                            5
                                     The agency is headquartered in Washington, DC, and operates with seven regions
                                     across the U.S. The graphic below illustrates the locations of the FTC regions.
Management’s Discussion & Analysis




                                     Our People
                                     The FTC’s workforce is its greatest asset. The agency’s workforce consists of over 1,100 civil
                                     service employees dedicated to addressing the major concerns of American consumers. The
                                     chart below shows workforce composition by category.


                                          FTC’S WORKFORCE COMPOSITION




                                                                                                                        Attorneys; 583

                                                      Other*; 426




                                                    Senior Management; 45


                                                                       Economists; 76




       6                                                Federal Trade Commission | Performance and Accountability Report
PeRFoRMAnCe                                                  strategic and Performance
                                                             Planning Framework
oVeRView                                                     PERFORMANCE MEASuREMENT
This section explains the fTc’s strategic and                METHOdOLOGY
performance planning framework and summarizes the
key performance measures and efficiency measures             The FY 2011 performance planning framework
reported in the Performance Section. The Performance         originates from the fTc’s fys 2009 to 2014 strategic
section contains details of program performance              Plan, available at www.FTC.gov/opp/gpra/spfy09fy14.
results, trend data by fiscal year, resources, strategies,   pdf and is supported by the FTC’s Performance Plan,




                                                                                                                         Management’s Discussion & Analysis
factors affecting performance, and the procedures            available at http://www.ftc.gov/opp/gpra/2012_
used to verify and validate the performance data. The        performance_plan.pdf.
financial data and performance results described in
this report enable the FTC to administer its programs,       The fTc began operating under this updated strategic
gauge their success, and make adjustments necessary to       plan in FY 2010. The FTC’s work is structured around
improve program quality for the public. The steps the        three strategic goals and 13 objectives. Performance
fTc has taken to ensure the performance information          measures are used to gauge the fTc’s success for each
it reports is complete, accurate, and consistent are         objective. The table below describes each element in the
described in the Performance Section: Verification and       performance framework.
Validation of Performance Data.




                                                             Statements of long-term aims outlined in the Strategic
  Strategic Goals                                            Plan, which define how the agency carries out its
                                                             mission.


                                                             Statements of how the FTC plans to achieve the
  Objectives                                                 strategic goals.



                                                             Indicators used to gauge success in reaching strategic
  Performance Measures                                       objectives.


                                                             Measures that best indicate whether agency activities
  Key Measures                                               are achieving the desired outcome associated with the
                                                             related objective.


                                                             Expressions of desired performance levels or specific
  Targets                                                    desired results targeted for a given fiscal year. Targets
                                                             are expressed in quantifiable terms.




                                                     fiscal year 2011                                                              7
                                      STraTeGic GOalS
                                                                                      ObjecTiveS
                                      (Numbers shown in millons.)

                                                                                      Identify fraud, deception, and unfair practices that cause the
                                                                                      greatest consumer injury.


                                       PrOTecT cONSuMerS                              Stop fraud, deception, unfairness, and other unlawful practices
                                                                                      through law enforcement.
                                       Prevent fraud, deception, and unfair
                                       business practices in the marketplace.
                                                                                      Prevent consumer injury through education.
Management’s Discussion & Analysis




                                       gross Costs:                        $169
                                       less earned revenue:                ($14)      Enhance consumer protection through research, reports,
                                       net Costs:                          $155       rulemaking, and advocacy.

                                                                                      Protect American consumers in the global marketplace by
                                                                                      providing sound policy and technical input to foreign governments
                                                                                      and international organizations to promote sound consumer policy.

                                                                                      Take action against anticompetitive mergers and practices that
                                       MaiNTaiN cOMPeTiTiON                           may cause significant consumer injury.

                                       Prevent anticompetitive mergers and other
                                       anticompetitive business practices in the      Prevent consumer injury through education.
                                       marketplace.
                                                                                      Enhance consumer benefit through research, reports, and advocacy.
                                       gross Costs:                        $129
                                       less earned revenue:                ($92)
                                                                                      Protect American consumers in the global marketplace by
                                       net Costs:                           $37       providing sound policy recommendations and technical advice to
                                                                                      foreign governments and international organizations to promote
                                                                                      sound competition policy.


                                       advaNce PerfOrMaNce                            Provide effective human resources management.
                                       Advance the FTC’s performance
                                       through organizational, individual, and
                                                                                      Provide effective infrastructure and security management.
                                       management excellence.
                                       Goal 3’s costs are distributed to Goal 1 and
                                                                                      Provide effective information resources management.
                                       Goal 2 predominately by Goal 1’s and Goal
                                       2’s FTE usage, except for those non-pay
                                       costs that are clearly attributable to a
                                                                                      Provide effective financial and acquisition management.
                                       specific goal.



                                     Key Performance Measures and efficiency Measures overview
                                     The fTc has established performance measures for            The following table summarizes actual performance
                                     assessing program performance against strategic goals       during fy 2011 against established targets for all of the
                                     and objectives. Of the 40 measures, 16 are considered       FTC’s key performance and efficiency measures and
                                     “key” measures because they best indicate whether           provides a synopsis of related highlights. The table also
                                     agency activities are achieving the desired outcome         includes actual results from the past two fiscal years. The
                                     associated with the related objective. Additionally,        FTC met or exceeded 15 of the 16 key measures and
                                     four performance measures are considered efficiency         four of the four efficiency measures.
                                     measures because they are either ratios of outcomes to
                                     inputs or they capture administrative timeliness.
                                     For each measure, the FTC has established a
                                     performance target.
       8                                                 Federal Trade Commission | Performance and Accountability Report
 leGeNd fOr uPcOMiNG TableS

✔      Signifies that the target is met or exceeded


✖      Signifies that the target is not met




S




                                                                                                                          Management’s Discussion & Analysis
Objective 1.1 identify fraud, deception, and unfair practices that cause the greatest
consumer injury
Key measure 1.1.2 the percentage of the ftC’s consumer protection law enforcement actions that target
the subject of consumer complaints to the ftC. (output measure)



                         Target
                                            65.0%           PerfOrMaNce HiGHliGHTS
                                          of actions        In December 2010, the FTC took legal action against a
      2011                                                  far-reaching Internet enterprise involving 61 corporations,
                                              80.4%         known as iWorks, that allegedly lured consumers into
                         actual                             “trial” memberships for bogus government-grant and
                                               ✔            money-making schemes, and then repeatedly charged
                                                            them monthly fees, causing more than $274 million in
                                              95.9%         consumer injury. The FTC’s complaint alleges that this
     2010                actual                             scheme has caused more than 500,000 consumers to
                                               ✔            seek chargebacks – reversals of charges to their credit
                                                            cards or debits to their bank accounts.
                                              79.0%
     2009                actual
                                               ✔




                                                      fiscal year 2011                                                              9
                                     Objective 1.2: Stop fraud, deception, unfairness, and other unlawful practices
                                     through law
                                     Key measure 1.2.1 the percentage of all cases filed by the ftC that were successfully resolved through
                                     litigation, a settlement, or issuance of a default judgment. (outcome measure)



                                                                                        PerfOrMaNce HiGHliGHTS
                                                                       75.0–85.0% of    The FTC finalized an order in January 2011 settling charges
                                                           Target
                                                                           cases        that The Dannon Company, Inc. exaggerated the health
                                                                                        benefits of its Activia yogurt and DanActive dairy drink,
Management’s Discussion & Analysis




                                                                                        two popular products that contain beneficial bacteria
                                          2011
                                                                                        known as probiotics. Under the proposed administrative
                                                                                        settlement announced in December, Dannon agreed to
                                                                          100.0%
                                                           actual                       stop claiming that Activia relieves temporary irregularity,
                                                                            ✔           unless the representation is non-misleading and the ad
                                                                                        conveys that eating three servings a day is required to
                                                                                        obtain the benefit, or unless Dannon has competent and
                                                                                        reliable scientific evidence that the benefit can be achieved
                                                                                        from eating less than three servings a day. Dannon also
                                                                           99.2%
                                          2010             actual                       agreed to stop claiming that DanActive or any yogurt,
                                                                            ✔           dairy drink, or probiotic food helps people avoid catching
                                                                                        colds or the flu, unless the claim is approved by the Food
                                                                                        and Drug Administration (FDA). Although companies
                                                                                        usually do not need FDA approval of their health claims
                                                                                        to comply with the FTC Act, the FTC determined in this
                                          2009             actual           N/A         case that requiring such approval will give Dannon clearer
                                                                                        guidance going forward and help ensure that the company
                                                                                        complies with the order.




                                     Performance measure 1.2.3: the percentage of redress cases in which the ftC distributes redress dollars
                                     designated for distribution to consumers within six months (efficiency measure)


                                                                                        PerfOrMaNce HiGHliGHTS
                                                                         90.0% of
                                                           Target                       The agency returns funds to victims of fraud and scams
                                                                          cases
                                                                                        following the successful prosecution of defendants
                                                                                        that result in court-ordered judgments or settlements.
                                          2011                                          For example, the FTC is mailing 450,177 refund checks
                                                                          100.0%        worth almost $108 million to homeowners who were
                                                           actual                       allegedly overcharged by Countrywide Home Loans,
                                                                            ✔           Inc. As part of the FTC’s efforts to protect financially
                                                                                        distressed homeowners, the FTC reached a settlement
                                                                                        with Countrywide last year over allegations that the
                                                                           96.0%        company collected excessive fees from borrowers who
                                          2010             actual                       were struggling to keep their homes. The settlement order
                                                                            ✔           required Countrywide, which is now owned by Bank of
                                                                                        America, to pay $108 million to be used for refunds and
                                                                                        barred the company from taking advantage of borrowers
                                                                                        who have fallen behind on their payments.
                                          2009             actual           N/A




       10                                            Federal Trade Commission | Performance and Accountability Report
Objective 1.3: Prevent consumer injury through education
Key measure 1.3.2 Customer satisfaction rate with an ftC consumer education website or microsite.
(outcome measure)


                                  Exceed average        PerfOrMaNce HiGHliGHTS
                                 citizen satisfaction   The FTC used the American Customer Satisfaction
                    Target      rate as published in    Index (ACSI) to measure how satisfied visitors to
                                 the E-Government       OnGuardOnline.gov are. Over 100 federal agencies
                                 Satisfaction Index.    use this survey to measure customer satisfaction. In
    2011                                                FY 2011, OnGuardOnline.gov maintained an overall




                                                                                                                    Management’s Discussion & Analysis
                                                        customer satisfaction score of 81, well above the
                                     Exceeded           benchmark score for government websites (74). The
                    actual                              survey also allows the FTC to measure key website
                                         ✔              elements such as navigation, site information, look
                                                        and feel, site performance and functionality. The
                                                        OnGuardOnline.gov score for each of these elements
                                                        was above the national benchmark for satisfaction.
                                     Exceeded           In addition, 73% of respondents said the site helped
    2010            actual                              them do what they wanted and 56% said they learned
                                         ✔              something on the site that would change their online
                                                        behavior in the future, a strong indication that the site
                                                        is an effective and helpful tool for consumers.



   2009             actual              N/A




Objective 1.4: enhance consumer protection through research, reports, rulemaking,
and advocacy
Key measure 1.4.4 the percentage of proposed administrative Procedure act (aPa) rulemakings,
conducted solely by the ftC, completed within nine months of receipt of final comments in the final
notice of Proposed rulemaking. (efficiency measure)


                                     75.0% of           PerfOrMaNce HiGHliGHTS
                   Target
                                   rulemakings          In December 2010, the FTC issued the Mortgage
                                                        Assistance Relief Services Rule, which, as of January 31,
    2011                                                2011, bans mortgage relief companies from collecting
                                      83.3%             fees until homeowners have received and accepted
                   actual
                                        ✔               a written offer of mortgage relief from their lender
                                                        or servicer. The Rule also requires mortgage relief
                                                        companies to make certain disclosures and prohibits
                                      100.0%
                                                        them from making false or misleading claims.
    2010           actual
                                        ✔

   2009            actual              N/A




                                               fiscal year 2011                                                           11
                                     Objective 1.5: Protect american consumers in the global marketplace by providing
                                     sound policy and technical input to foreign governments and international
                                     organizations to promote sound consumer policy
                                     Key measure 1.5.1 Policy advice provided to foreign consumer protection and privacy agencies, directly and
                                     through international organizations, through substantive consultations, written submissions, or comments.
                                     (output measure)


                                                                                         PerfOrMaNce HiGHliGHTS
                                                         Target       40 policy inputs
                                                                                         Enhanced engagement with new and developing foreign
Management’s Discussion & Analysis




                                                                                         consumer protection and privacy agencies, as well as
                                         2011                                            participation in additional international organizations that
                                                                            52           are now working on consumer protection and privacy
                                                         actual                          issues, has resulted in an increased demand for the
                                                                            ✔            FTC’s policy advice. In FY 2011, the FTC provided policy
                                                                                         advice over 50 instances through consultations, written
                                                                            64           submissions, or comments.
                                         2010            actual
                                                                            ✔

                                         2009            actual             N/A




       12                                            Federal Trade Commission | Performance and Accountability Report
ST

Objective 2.1: Take action against anticompetitive mergers and practices that may
cause significant consumer injury
Key measure 2.1.1 actions to maintain competition, including litigated victories, consent orders,
abandoned transaction remedies, restructured transaction remedies, or fix-it-first transaction remedies
in a significant percentage of substantial merger and nonmerger investigations. (outcome measure)

                                   40.0–60.0%      PerfOrMaNce HiGHliGHTS




                                                                                                                       Management’s Discussion & Analysis
                     Target       of substantial   The FTC obtained a positive result in 14 of the 44
                                  investigations   significant merger and nonmerger investigations it
     2011                                          concluded during FY 2011.
                                      31.8%
                     actual                        On the merger side this includes successful second
                                       ✖           request or compulsory process investigations in matters
                                                   involving crucial pharmaceuticals (Hikma Pharmaceuticals
                                                   / Baxter International, Grifols / Talecris), acute care
                                     40.0%1        psychiatric hospitals and dialysis clinics (Universal Health
     2010            actual
                                       ✔           Services / Psychiatric Solutions and DaVita / DSI Renal),
                                                   specialized nuclear pharmacies (Cardinal Health, Inc. / Bio
                                                   Tech Pharmacy, Inc.), manufacturing of industrial goods
                                                   (Keystone / Compagnie de Saint-Gobain), and outlet
                                                   shopping centers (Simon Property Group / Prime Outlets).
                                                   In addition, during FY 2011, the Commission issued
                                                   two administrative complaints challenging hospital
                                                   mergers it had reason to believe were anticompetitive.
                                                   However, since these matters are still pending before
                                                   an Administrative Law Judge, they are excluded from
                                                   this measure, even though they represent a significant
                                                   investment of agency resources.
    2009             actual           N/A
                                                   On the nonmerger side, the FTC took action to protect
                                                   consumers from price fixing by physicians, issuing
                                                   an order prohibiting an association representing 900
                                                   physicians in the Amarillo, TX area from fixing the prices it
                                                   charges insurance providers.
                                                   1
                                                    This is a correction to results reported in the FY 2010 PAR.
                                                   The results should have been based on 23 out of 58 cases, or 40%.
                                                   The FY 2010 PAR reports actuals on 22 of 57 cases, or 39%.




                                               fiscal year 2011                                                              13
                                     Performance measure 2.1.4 Consumer savings of at least six times the amount of ftC resources allocated
                                     to the merger program. (efficiency measure)

                                                                                      PerfOrMaNce HiGHliGHTS
                                                         Target         600.0%
                                                                                      During FY 2011, the agency saved consumers approximately
                                          2011                                        14 times the amount of resources devoted to the merger
                                                                        1,417.3%      program, as calculated using the five-year average
                                                         actual                       consumer savings obtained under Performance Measure
                                                                           ✔          2.1.2 ($531.5 million) divided into the amount of resources
                                                                                      used on the merger program.
                                                                        1,670.0%
Management’s Discussion & Analysis




                                         2010            actual
                                                                           ✔
                                                                        2,132.0%
                                         2009            actual
                                                                           ✔


                                     Performance measure 2.1.7 Consumer savings of at least four times the amount of ftC resources allocated
                                     to the nonmerger program. (efficiency measure)

                                                                                       PerfOrMaNce HiGHliGHTS
                                                          Target         400.0%
                                                                                       During FY 2011, the agency saved consumers approximately
                                                                                       19 times the amount of resources it devoted to the nonmerger
                                          2011                                         enforcement program, as calculated using the five-year
                                                                         1,917.7%      average consumer savings obtained under Performance
                                                          actual
                                                                           ✔           Measure 2.1.5 ($444.9 million) divided into the amount of
                                                                                       resources used on the nonmerger program. This result
                                                                                       is largely attributable to the consumer savings from one
                                                                        2,418.0%       particular case in FY 2010 that involved Intel Corporation.
                                          2010            actual
                                                                           ✔

                                                                        1,035.0%
                                          2009            actual
                                                                           ✔




       14                                            Federal Trade Commission | Performance and Accountability Report
Objective 2.2: Prevent consumer injury through education
Key measure 2.2.1 Competition resources accessed via the ftC’s website. (output measure)



                                                        PerfOrMaNce HiGHliGHTS
                   Target         10.0 million hits     The FTC continued to develop competition
                                                        related content to better serve the interest of its
    2011                                                stakeholders, whether they are individual consumers,
                                                        affected businesses, researchers, or practitioners
                                        22.6            and policy makers. During FY 2011, the FTC’s online
                   actual




                                                                                                                  Management’s Discussion & Analysis
                                         ✔              competition resources registered nearly 23 million
                                                        hits from external sources. These resources include
                                                        pages that relate to individual investigations (such as
                                        21.5            complaints, orders, comments, and press releases),
    2010           actual                               policy and research oriented content (such as
                                         ✔              reports, policy guides and fact sheets, workshop
                                                        or conference web pages, the online competition
                                                        enforcement database, advocacy filings, and amicus
                                        11.9            briefs), and business and consumer education
   2009            actual                               material.
                                         ✔



Objective 2.3: enhance consumer benefit through research, reports, and advocacy
Key measure 2.3.1 workshops, seminars, conferences, and hearings convened or cosponsored that involve
significant competition-related issues. (output measure)


                                   4 workshops,         PerfOrMaNce HiGHliGHTS
                   Target      seminars, conferences,   The FTC devotes resources to the organization of
                                   and hearings         workshops, conferences, and hearings to foster an
    2011                                                environment of discussion and analysis of the hot-
                                                        topic issues that relate to competition. Of particular
                                          4             note, during FY 2011, the FTC convened two
                   actual                               workshops on the legal issues raised by Accountable
                                         ✔
                                                        Care Organizations (ACOs). The first workshop
                                                        addressed and solicited public comments on the
                                                        various ACO models being considered by health care
                                          6
    2010           actual                               providers, while the second workshop was designed
                                         ✔              to seek input on the Proposed Statement of Antitrust
                                                        Enforcement Policy, which discusses how the federal
                                                        antitrust agencies will enforce U.S. antitrust laws
                                         8              when competing health care providers create new
   2009            actual                               ACOs under the Affordable Care Act of 2010.
                                         ✔




                                               fiscal year 2011                                                         15
                                     Key measure 2.3.2 reports and studies issued on key competition-related topics. (output measure)



                                                                                      PerfOrMaNce HiGHliGHTS
                                                                      8 reports and
                                                         Target                       Studying and issuing reports on the nation’s crucial
                                                                         studies
                                                                                      economic sectors is a key component of the FTC’s
                                          2011                                        competition related strategic objective. During FY 2011, the
                                                                                      agency issued a final report on authorized generic drugs
                                                                            11        showing how when pharmaceutical companies introduce an
                                                         actual
                                                                           ✔          authorized generic version of their brand-name drug, it can
                                                                                      reduce both retail and wholesale drug prices.
Management’s Discussion & Analysis




                                                                                      In addition, the FTC issued a Bureau of Economics staff
                                                                            9         report examining trends in the petroleum industry and
                                         2010            actual
                                                                           ✔          how they have affected gasoline prices between 2005 and
                                                                                      early 2011. The report concludes that while a broad range
                                                                                      of factors influence the price of gasoline, worldwide crude
                                                                           20         oil prices continue to be the main driver of what Americans
                                         2009            actual                       pay at the pump.
                                                                           ✔


                                     Key measure 2.3.3 advocacy comments and amicus briefs on competition issues filed with entities
                                     including federal and state legislatures, agencies or courts. (output measure)


                                                                                      PerfOrMaNce HiGHliGHTS
                                                                      6 comments
                                                         Target                       In FY 2011, the FTC and staff filed advocacy comments on
                                                                       and briefs
                                                                                      a wide range of competition issues including, for example,
                                          2011                                        cooperative agreements among health care providers,
                                                                                      pharmacy benefit plans, the sale of optical goods, health
                                                                           16         care provider scope of practice, and electricity competition
                                                         actual
                                                                           ✔          issues. The FTC also filed an amicus brief in the U.S. Court
                                                                                      of Appeals for the Third Circuit, arguing that pay-for-delay
                                                                                      settlements should be treated as presumptively unlawful
                                                                           17         under the antitrust laws.
                                         2010            actual
                                                                           ✔


                                         2009            actual           N/A




       16                                            Federal Trade Commission | Performance and Accountability Report
Objective 2.4: Protect american consumers in the global marketplace by providing
sound policy recommendations and technical advice to foreign governments and
international organizations to promote sound competition policy
Key measure 2.4.1 Policy advice provided to foreign competition agencies, directly and through
international organizations, through substantive consultations, written submissions, or comments.
(output measure)

                                                    PerfOrMaNce HiGHliGHTS
                  Target      40 policy inputs
                                                    The FTC’s policy advice continues to grow as a result of the




                                                                                                                    Management’s Discussion & Analysis
                                                    increasing number of jurisdictions enforcing competition
    2011                                            laws, the FTC’s participation in international organizations,
                                     112            and the FTC’s growing engagement with key jurisdictions
                  actual
                                     ✔              such as China, India, Mexico, and Brazil. In FY 2011, the FTC
                                                    provided policy advice to foreign competition agencies
                                                    in over 100 instances through consultations, written
                                     76             submissions, or comments.
    2010          actual
                                     ✔

   2009           actual            N/A




ST
Objective 3.1: Provide effective human resources management
Key measure 3.1.2 the extent employees think the organization has the talent necessary to achieve
organizational goals. (outcome measure)


                                 Exceed the          PerfOrMaNce HiGHliGHTS
                             government-wide         The Federal Human Capital Survey includes 84 questions
                           results on the Federal    that measure how effectively agencies manage their
                 Target
                              Human Capital          workforces. The FTC was at least five points higher
                              Survey’s Talent        than the government-wide average on 59 of the 84
                            Management Index         questions, and did not fall more than five points below
   2011                                              the government-wide average on any question. In Talent
                                                     Management, the government-wide results were 60% and
                                                     the FTC received 70%, which is second place compared to
                                 Exceeded
                 actual                              37 other departments and agencies with more than 1,000
                                    ✔                full-time employees.




                                 Exceeded
   2010          actual
                                    ✔




   2009          actual            N/A




                                                 fiscal year 2011                                                         17
                                     Objective 3.2: Provide effective infrastructure and security management
                                     Key measure 3.2.1 a favorable Continuity of operations (CooP) rating. (output measure)

                                                                                       PerfOrMaNce HiGHliGHTS
                                                     Target         75.0% rating       The agency’s COOP efforts establish a viable, tested
                                                                                       infrastructure to sustain agency operations and provide
                                        2011                                           a safe and secure environment for staff during an
                                                                                       emergency. In FY 2011, the FTC’s received a grade of 75%
                                                                       75.0%
                                                     actual                            for the “Eagle Horizon” COOP program. While this grade
                                                                        ✔              meets the target, the result is lower than last year’s result.
Management’s Discussion & Analysis




                                                                                       The difference is primarily due to challenges the agency
                                                                                       encountered trying to meet a new program requirement
                                                                       85.0%           to move network processes to an offsite computer facility.
                                        2010         actual                            This disaster recovery related effort is intended to ensure
                                                                        ✔
                                                                                       the agency’s continued support of the American consumer
                                                                                       despite the availability of a specific building. To address this
                                                                                       requirement, the agency will continue to look at possible
                                        2009         actual             N/A            cloud computing options that will meet disaster recovery
                                                                                       needs specific to the FTC.


                                     Key measure 3.2.2 availability of information technology systems. (outcome measure)


                                                                                       PerfOrMaNce HiGHliGHTS
                                                                   98.50% system
                                                     Target                            Ensuring that the agency has optimal information
                                                                     availability
                                                                                       technology infrastructure operations and performance is
                                                                                       key to meeting the agency’s business goals. To monitor
                                        2011                                           the reliability and availability of information technology
                                                                      99.82%           services, the agency tracks unplanned outage periods
                                                     actual                            of almost 30 critical services including enterprise-wide
                                                                        ✔              custom applications and systems, BlackBerry servers,
                                                                                       Internet/Intranet, email, and telecommunications. In FY
                                                                                       2011, this information technology services pool averaged
                                                                      99.77%2          99.82% availability, exceeding the target.
                                        2010         actual
                                                                        ✔

                                                                                       2
                                                                                        This is a correction to results reported in the FY 2010 PAR, which
                                        2009         actual             N/A
                                                                                       showed the results for the final quarter of the fiscal year, or 99.86%,
                                                                                       and not cumulative results.




       18                                            Federal Trade Commission | Performance and Accountability Report
 Objective 3.3: Provide effective information resources management
 Key measure 3.3.1 the percentage of Commission-approved documents in ongoing and newly initiated the
 ftC proceedings available via the internet within 15 days of becoming part of the public record.
 (output measure)

                                                         PerfOrMaNce HiGHliGHTS
                   Target          75.0% rating          Making public documents easily available on the
                                                         public FTC website in a timely manner increases public
     2011                                                awareness of the FTC’s activities. Examples of public
                                                         documents approved by the FTC and placed on the




                                                                                                                      Management’s Discussion & Analysis
                                      82.0%              website include (1) complaints and FTC opinions and
                   actual
                                        ✔                orders filed in adjudicative proceedings; (2) Federal
                                                         Register notices in rulemaking, guide issuance, consent
                                                         agreement, and other proceedings in which the FTC
                                                         solicits public comments; (3) reports by the FTC and its
                                      93.8%              staff; (4) advocacy filings; (5) final consent orders and
     2010          actual
                                        ✔                accompanying complaints; and (6) FTC complaints, briefs,
                                                         and proposed orders filed in federal court litigation.
                                                         In FY 2011, the agency posted 82% of documents tracked
                                                         under this measure on the FTC’s public website within 15
    2009           actual              N/A               days of becoming part of the public record.




 Objective 3.4: Provide effective financial and acquisition management
 Key measure 3.4.2 the percentage of Bureaus/offices that establish and maintain an effective, risk-based
 internal control environment. (outcome measure)


                                                         PerfOrMaNce HiGHliGHTS
                   Target            100.0%
                                                         The Statements of Assurance submitted by the agency’s
     2011                                                major components provide the basis for measuring the
                                     100.0%              effectiveness of the agency’s risk-based internal control
                   actual                                environment. Based on these Statements of Assurance
                                        ✔                and two additional internal reviews conducted in
                                                         accordance with the agency’s Internal Control Review Plan,
                                                         100% of the major components establish and maintain an
     2010          actual              N/A               effective, risk-based internal control environment.



    2009           actual              N/A




Performance Measures summary
The Performance measure summary Table in the               are not available for one. Based on these results, the
Performance section of this report shows actual            FTC has made significant progress toward reaching
results for all performance measures and shows unit        its objectives, as fully described in the Performance
of measure. Of the 40 total performance measures, 27       Section.
were exceeded, 8 were met, 4 were not met, and results




                                                  fiscal year 2011                                                          19
                                     AgenCy Mission ChAllenges
                                     The fTc stands prepared to face the challenges of            PROTECTING CONSuMERS IN A
                                     today’s marketplace as a champion for consumers              TROuBLEd ECONOMY:
                                     and competition. As a small law enforcement agency
                                     with a broad mandate, many of the FTC’s challenges           As more consumers face financial challenges, fraud
                                     are defined by the conditions of the marketplace, and        operators have seized upon new schemes to take
                                     thus are ever changing. For example, as consumers            advantage of those most affected by the economic
                                     and businesses encounter difficulties with financial         downturn. The FTC targets illegal practices in the
Management’s Discussion & Analysis




                                     scams, deceptive or fraudulent advertising, online           financial services arena, especially schemes directed at
                                     privacy and data security, and anticompetitive business      financially distressed consumers. The FTC will continue
                                     practices in the technology, health care and other           to use the tools and legalauthorities available to it to
                                     industries, the FTC steps forward to protect consumers       protect consumers in the financial services marketplace.
                                     and maintain competition. Agency management has              Agency law enforcement actions will target deceptive,
                                     identified significant mission challenges in Strategic       unfair, and other illegal practices involving mortgage
                                     Goal 1 (Protect consumers) and strategic Goal 2              advertising, servicing, lending, and other financial
                                     (Maintain Competition). Management’s identification          services. These practices can have severe consequences
                                     was performed separately from the Inspector General’s        for consumers, including unanticipated high-cost
                                     (iG) assessment of management and performance                mortgages, ruined credit histories, and loss of their
                                     challenges (see the other accompanying information           homes. The FTC will work to combat financial frauds
                                     Section). However, because management concurs with           by targeting foreclosure “rescue” and loan modification
                                     the IG assessment, certain aspects of the challenges         scams; enforcing debt relief services amendments
                                     described below are also addressed by the IG. Agency         to the Telemarketing Sales Rule; enforcing the new
                                     mission challenges are presented below as they relate        Mortgage Assistance Relief Services Rule (which
                                     to the agency’s strategic goals. A reference to the          protects struggling homeowners from mortgage relief
                                     most applicable strategic objectives is also provided        scams) and the new rule banning deceptive mortgage
                                     so that readers may refer to descriptions of related         advertising practices; and targeting payday lenders, credit
                                     performance targets and actual results listed by objective   repair outfits, and other non-traditional creditors that
                                     within the Performance Section.                              are violating statutes the FTC enforces. The agency
                                                                                                  also will fight deceptive and abusive debt collection
                                     strategic goal 1: Protect                                    practices. In addition, the FTC will continue to gather
                                     Consumers: Prevent Fraud,                                    information on the consumer protection issues related
                                                                                                  to buying or leasing motor vehicles. Further, the FTC
                                     deception, and unfair business                               will coordinate with the Consumer Financial Protection
                                     Practices in the Marketplace                                 Bureau to ensure that consumers are protected in the
                                     Under the Protect Consumers goal, the FTC will               financial marketplace and to avoid any duplicative
                                     continue to give priority to addressing the following        efforts between the agencies. The FTC also will work
                                     challenges: protecting consumers in a troubled               to protect vulnerable consumers from deceptive work-
                                     economy, protecting consumer privacy and improving           at-home, get-rich-quick, and related schemes, including
                                     data security, stopping harmful uses of technology,          promises of non-existent jobs and promotion of phony
                                     promoting compliance in new media, protecting                government grants. The FTC will continue to respond
                                     vulnerable Americans from fraud, combating identity          to growing challenges in these arenas. (Objectives 1.1,
                                     theft, targeting deceptive advertising affecting             1.2, 1.3, and 1.4)
                                     consumers’ health, protecting children in the marketplace,
                                     and evaluating environmental marketing claims.




       20                                                Federal Trade Commission | Performance and Accountability Report
PROTECTING CONSuMER PRIVACY ANd                              PROMOTING COMPLIANCE IN
IMPROVING dATA SECuRITY:                                     NEW MEdIA:
The FTC will continue to take a leading role in efforts      As new media open new avenues for companies to
to protect consumers from unfair, deceptive, or other        communicate with consumers, the FTC’s challenge is to
illegal practices related to their privacy. The agency       promote compliance. The agency will conduct outreach
will stop unfair and deceptive consumer privacy and          to businesses that engage in social network, mobile, and
security practices through law enforcement, and              affiliate marketing, stressing that existing advertising
promote stronger privacy protections through policy          principles apply to new media and methods of




                                                                                                                          Management’s Discussion & Analysis
initiatives. Most notably, the FTC will issue a final        marketing. The FTC will also monitor the marketplace
report on protecting consumer privacy. The FTC               and initiate investigations where appropriate.
will also participate in interagency groups, provide         (Objectives 1.1, 1.2, 1.3, and 1.4)
technical assistance to Congress on draft legislation, and
participate in international privacy events. The National    PROTECTING VuLNERABLE AMERICANS
do not call (dnc) registry puts consumers in charge          FROM FRAud:
of the telemarketing calls they receive at home. The
fTc created the registry to make it easier and more          frauds such as those offering health insurance or
efficient for consumers to stop unwanted telemarketing       income opportunities through jobs, investment,
calls. Though most entities covered by the DNC Rule          government grants, or other scams continue to affect
comply, the FTC has received millions of complaints          the poor and underserved communities, and the FTC
alleging DNC violations, and the FTC’s challenge is          will continue to combat such frauds. It also will combat
to ensure that consumers who register their numbers          fraud targeting seniors, and examine ways to better
are protected from receiving unwanted telemarketing          assist older victims. (Objectives 1.1, 1.2, 1.3, and 1.4)
calls, including “robocalls” that deliver prerecorded
telemarketing messages, by vigorously enforcing the          COMBATING IdENTITY THEFT:
DNC Rule. (Objectives 1.1, 1.2, 1.3, and 1.4)                Identity theft exacts a heavy financial and emotional toll
                                                             from its victims, and the FTC will continue to assist the
STOPPING HARMFuL uSES                                        millions of Americans who are victimized each year.
OF TECHNOLOGY:                                               The agency will publicize its victim assistance guide for
Technology provides countless benefits to consumers,         pro-bono attorneys, train local law enforcement to spot
including choice, convenience, and increased access          and prosecute identity theft, and update educational
to goods, services, and information. It also enables,        materials to address new and emerging issues, such as
however, new vehicles for fraudulent, deceptive, and         medical and children’s identity theft. (Objectives 1.1,
unfair practices in the marketplace. If consumers are        1.2, 1.3, and 1.4)
not adequately protected, not only can they suffer
economic injury, but they may lose confidence in these       TARGETING dECEPTIVE AdVERTISING
new technologies. To respond to these challenges,            AFFECTING CONSuMERS’ HEALTH:
the FTC will examine malware and spyware threats
                                                             consumers can fall prey to fraudulent health advertising
to mobile devices, promote technologies to protect
                                                             when they are desperate for help. The FTC, therefore,
consumers online, and target online and mobile threats
                                                             will continue to challenge deceptive advertising of
for enforcement, including mobile spam, deceptive and
                                                             health products. The agency will focus on disease
unfair apps, and malware distributed through social
                                                             prevention and treatment claims; claims aimed at
networks. (Objectives 1.1, 1.2, 1.3, and 1.4)
                                                             baby boomers, seniors, and the uninsured; and claims
                                                             exploiting emerging health threats. (Objectives 1.1, 1.2,
                                                             1.3, and 1.4)



                                                    fiscal year 2011                                                            21
                                                                                                  T
Management’s Discussion & Analysis




                                                                                               others with taking more than $40 million
                                          from consumers by falsely claiming that their products and services would help consumers
                                          start their own Internet businesses. The agency also filed a complaint against National Sales
                                          Group, alleging that the defendants deceived consumers into paying for their employment
                                          goods and services by creating a false impression that they were hiring workers themselves,
                                          or were recruiters affiliated with potential employers. The FTC alleged that these defendants
                                          caused nearly $8 million in consumer injury. In February 2011, the FTC obtained orders against Ivy
                                          Capital and National Sales Group that temporarily halted the unlawful practices, froze assets, and
                                          appointed receivers to take control of the corporate defendants.
                                          For more information, visit www.ftc.gov/opa/2011/03/emptypromises.shtm.



                                     PROTECTING CHILdREN:                                       the U.S. Department of Agriculture issued for public
                                                                                                comment a proposed set of voluntary principles that
                                     The FTC will continue to protect children and teens        can be used by industry as a guide for marketing food
                                     from deceptive and unfair practices, as well as continue   to children. The agencies will consider comments
                                     to monitor and encourage self-regulatory efforts           submitted by interested parties as they further develop
                                     regarding advertising to children and teens. The agency    and refine final recommendations as required by the
                                     recently proposed amendments to the children’s online      Congress. Also, the FTC will issue a report in late 2011
                                     Privacy Protection Act (COPPA) Rule, which requires        or early 2012, following up on its 2008 report to the
                                     website operators to obtain verifiable parental consent    Congress, regarding industry expenditures and activities
                                     before collecting personal information from children       to market food to children and adolescents. In the
                                     under 13 years old. Agency staff is assessing business     alcohol advertising arena, the FTC plans to propose
                                     practices involving new technologies, including mobile     improvements to self-regulatory standards, continue the
                                     applications, to determine whether they are conducted      We Don’t Serve Teens campaign, bring enforcement
                                     in accordance with the COPPA rule. At the direction of     actions targeting unfair or deceptive practices, and
                                     Congress, the FTC, the Food and Drug Administration,       issue another report to the Congress on self-regulation.
                                     the Centers for Disease Control and Prevention, and        Further, the agency will monitor the marketing of




       22                                               Federal Trade Commission | Performance and Accountability Report
violent entertainment to children and the ability of           technology sectors, and energy industries. The agency will
teens under age 17 to purchase age-restricted violent          also work on promoting sound competition policy at the
products. (Objectives 1.1, 1.2, 1.3, and 1.4)                  international level and advocating for competition before
                                                               the U.S. courts, legislatures, and government agencies.
EVALuATING ENVIRONMENTAL
MARKETING CLAIMS:                                              PROMOTING COMPETITION ANd
                                                               PREVENTING ANTICOMPETITIVE
Green claims, such as claims for carbon reduction,
                                                               ACTIVITY IN THE HEALTH CARE ANd
landfill reduction, and sustainable materials and
                                                               PHARMACEuTICAL INduSTRIES:
packaging, have increased in popularity. These claims




                                                                                                                            Management’s Discussion & Analysis
can provide extremely useful information to consumers;         The rapidly rising cost of health care, which continues
however, the complexity of the issues involved creates         to account for an increasingly significant share of the
the potential for confusing, misleading, and fraudulent        gross domestic product, is a matter of concern for
claims. In October 2010, the FTC proposed revisions            consumers, employers, insurers, and the nation as a
to the “FTC Guides for the Use of Environmental                whole. To ensure that consumers receive the benefits of
Marketing Claims,” commonly known as the Green                 competition in health care, the FTC has made antitrust
Guides. The FTC is considering public comments on              enforcement in this area a priority. Pay-for-delay patent
the proposed changes and will decide which changes             settlement agreements between brand and generic drug
to make final. The agency also will bring cases and law        manufacturers to delay generic competition are causing
enforcement sweeps to address deceptive environmental          consumers significant harm because they deprive
marketing claims, working where possible with state and        consumers of access to lower cost generic drugs.
local partners. (Objectives 1.1, 1.2, 1.3, and 1.4)            According to FTC economists, these anticompetitive
                                                               deals, unless stopped, will cost consumers $35 billion
SERVING HISPANIC ANd AFRICAN-                                  over ten years. When appropriate, the FTC investigates
AMERICAN POPuLATIONS:                                          and challenges anticompetitive patent settlements
                                                               between brand and generic companies and supports
The FTC has conducted fraud surveys showing that
                                                               legislation to eliminate this problem. The agency also
Hispanic and African-American consumers are more
                                                               addresses rising prescription drug prices by monitoring
likely to be victims of fraud than other demographic
                                                               and, when appropriate, challenging pharmaceutical and
groups. The FTC will continue to aggressively combat
                                                               medical device company mergers. In addition, the FTC
consumer fraud against Hispanic and African-American
                                                               stops anticompetitive agreements between physicians
consumers. The agency will tailor its consumer
                                                               and hospital service organizations and monitors hospital
education messages to different groups, and focus and
                                                               and other mergers that may raise the cost of health
strengthen its strategic partnerships. (Objectives 1.1, 1.2,
                                                               care. The agency engages in efforts to educate health
1.3, and 1.4)
                                                               care providers about antitrust law to prevent groups
                                                               of providers from creating and exercising market
strategic goal 2: Maintain
                                                               power, which undermines efforts to improve quality
Competition: Prevent                                           and control costs. The FTC focuses these education
Anticompetitive Mergers and                                    efforts so that misunderstandings about the law do not
other Anticompetitive business                                 deter potentially beneficial collaborations among health
Practices in the Marketplace                                   care competitors. The Affordable Care Act of 2010
                                                               encourages healthcare providers to create integrated
Under the Maintain Competition goal, the FTC will              health care delivery systems called accountable care
continue to give priority to the challenges of promoting       Organizations to improve the quality of care and lower
competition and preventing anticompetitive activity            health care costs. The FTC and the Antitrust Division
in the health care and pharmaceutical industries, high         of the department of Justice recently issued guidelines




                                                      fiscal year 2011                                                            23
                                     explaining how the agencies would enforce the antitrust    Acc
                                     laws with regard to ACOs so that the antitrust laws will
                                     not be perceived as a barrier to bona fide collaboration
                                     to improve healthcare and reduce costs. The agencies
                                     will continue to evaluate competitive concerns about
                                     ACO formation and conduct, and take any enforcement
                                     action necessary to protect consumers. (Objectives 2.1,
                                     2.2, and 2.3)

                                     PROMOTING COMPETITION ANd
Management’s Discussion & Analysis




                                     PREVENTING ANTICOMPETITIVE
                                     BuSINESS PRACTICES IN HIGH
                                     TECHNOLOGY SECTORS:
                                     The continuing importance of technology is a crucial
                                     marketplace challenge that is placing greater demands
                                     on antitrust enforcement. The FTC’s antitrust




                                         In the first workshop, co-hosted by the Federal Trade Commission, the Centers for Medicare
                                         and Medicaid Services (CMS) and the Department of Health and Human Services’ Office of
                                         Inspector General, the agencies involved addressed and solicited public comments on the legal
                                         issues raised by various ACO models being considered by health care providers, while in the
                                         second workshop. To learn more, visit www.ftc.gov/opp/workshops/aco/index.shtml.

                                         In May 2011, the Federal Trade Commission held a second workshop seeking input on the
                                         Proposed Statement of Antitrust Enforcement Policy, which discusses how the federal antitrust
                                         agencies will enforce U.S. antitrust laws when competing health care providers create new
                                         ACOs under the Affordable Care Act of 2010. To learn more, visit
                                         www.ftc.gov/opp/workshops/aco2/index.shtml.




       24                                               Federal Trade Commission | Performance and Accountability Report
PROMOTING COMPETITION ANd                                     AdVOCACY ANd COMPETITION POLICY:
PREVENTING ANTICOMPETITIVE
                                                              As part of its mission, the FTC promotes sound
ACTIVITY IN ENERGY INduSTRIES:
                                                              competition policy through advocacy and policy
The price of gasoline and other energy sources
                                                              initiatives. In June 2011, the Commission hosted a
continues to be a great concern for consumers,
                                                              workshop addressing legal and policy issues relating
businesses, and governments. The agency addresses
                                                              to intellectual property rights in the context of
this concern by closely monitoring gasoline markets
                                                              industry standard setting activities. This followed
and moving quickly to address any anticompetitive
                                                              the commission’s march 2011 issuance of a report
merger or nonmerger activity. Through its review of
                                                              recommending improvements to two areas of patent
HSR merger filings and investigation of non-reportable




                                                                                                                        Management’s Discussion & Analysis
                                                              law: policies affecting how well a patent gives notice
transactions, the FTC protects consumers in these
                                                              of what technology is protected and remedies for
markets. The FTC also continuously examines price
                                                              patent infringement. In addition, the FTC advises
movements and other activity through its Gasoline and
                                                              other government agencies on competition policy. For
diesel Price monitoring Project to identify any conduct
                                                              example, in FY 2011, the FTC submitted eight advocacy
that may not reflect purely competitive decisions based
                                                              comments addressing state legislative proposals on
on the forces of supply and demand. In FY 2011, the
                                                              health care related issues ranging from restricting
FTC issued a new report on the factors that influence
                                                              services that non-physician health care specialists
the prices that American consumers pay for gas. This
                                                              may provide, to creating antitrust law exemptions for
report, which is an update of two earlier reports on the
                                                              certain types of health care collaborations among
energy industry, shows that the price of oil is still the
                                                              providers. Finally, the FTC promotes convergence
most important factor. The FTC uses its enforcement
                                                              toward sound consumer welfare based competition
authority to search for anticompetitive nonmerger
                                                              enforcement and policy internationally, both through
activity such as illegal agreements among competitors,
                                                              multilateral organizations such as the international
monopolization, and other anticompetitive activities.
                                                              Competition Network and the Organization for
To prepare and support agency staff in meeting these
                                                              economic cooperation and development and through
challenges, the FTC devotes considerable resources
                                                              bilateral engagement with its enforcement counterparts.
to monitoring and studying energy markets—often in
                                                              (Objectives 2.2, 2.3, and 2.4)
response to congressionally mandated requirements—
thus developing the professional expertise and body
of knowledge needed to address emerging concerns.
The FTC continues to investigate whether certain oil
producers, refiners, transporters, marketers, physical or
financial traders, or others (1) have engaged in practices,
including manipulation, that have lessened or may lessen
competition in the production, refining, transportation,
distribution, or wholesale supply of crude oil or
petroleum products; or (2) have provided false or
misleading information related to the wholesale price of
crude oil or petroleum products to a federal department
or agency. Such actions could violate Section 5 of the
FTC Act, the Commission’s Prohibition of Energy
Market Manipulation Rule, or Section 811 or Section
812 of the energy independence and security act of
2007. (Objectives 2.1 and 2.3)




                                                     fiscal year 2011                                                         25
                                                                        During FY 2011, the SAT updated guidance for
                                     ma                                 program managers to use in completing self-
                                                                        assessments of the processes and controls within their
                                                                        areas of responsibility. Senior managers throughout the
                                                                        agency completed self-assessments that disclosed no
                                                                        significant control weaknesses. The SAT evaluated the
                                                                        results of the managers’ assessments and concurred
                                                                        that no material weaknesses or nonconformances were
                                                                        identified. The results of these evaluations and other
                                                                        information—such as independent audits or reviews
Management’s Discussion & Analysis




                                                                        performed by the Office of Inspector General (OIG)
                                                                        and the Government Accountability Office (GAO)
                                                                        (e.g., Federal Information Security Management Act
                                                                        [FISMA] review), independent audits of service
                                                                        providers’ operations and financial systems (e.g., reviews
                                                                        conducted in accordance with Statement on Standards
                                                                        for Attestation Engagements (SSAE) No. 16), internal
                                                                        analyses, and other relevant evaluations and control
                                                                        assessments—were considered by the SAT and the
                                                                        agency head in determining whether there are any
                                                                        management control deficiencies or nonconformances
                                                                        that must be disclosed in the annual assurance statement.

                                                                        In FY 2011, the FTC continued to follow its Internal
                                                                        Control Review Plan established in FY 2010 to conduct
                                                                        internal control reviews of agency bureaus and offices
                                                                        at least once every three years. The objective of the
                                                                        reviews is to assist management in identifying high-
                                                                        risk areas and implement appropriate risk management
                                                                        strategies where necessary. Two additional reviews
                                                                        were conducted this year. The Chairman’s assurance
                                                                        statement that follows is supported by the processes
                                                                        and reviews described above, which were carried out in
                                                                        FY 2011. Management assurances tables appear in the
                                                                        Other Accompanying Information Section.




       26                            Federal Trade Commission | Performance and Accountability Report
CHAIRMAN’S FMFIA STATEMENT OF ASSuRANCE




                                                 Management’s Discussion & Analysis




                              fiscal year 2011         27
                                     SuMMARY OF MATERIAL WEAKNESSES                                Debt
                                     ANd NONCONFORMANCES
                                     as noted in the chairman’s fmfia statement of
                                     Assurance, the FTC has no material weaknesses or
                                     nonconformances to report for FY 2011. No new
                                     material weaknesses or significant nonconformances
                                     were identified for the past five years, nor were there
                                     any existing unresolved weaknesses requiring
                                     corrective action.
Management’s Discussion & Analysis




                                     FEdERAL INFORMATION SECuRITY
                                     MANAGEMENT ACT (FISMA)
                                     As mandated by FISMA, the agency continues to
                                     maintain an information security program to manage
                                     information technology national institute of standards
                                     and Technology (NIST) requirements. Continuous
                                     monitoring is one of many approaches that the fTc
                                     employs to protect agency information systems and the
                                     data that is collected, stored, and transmitted during the
                                     course of business. The Office of the Chief Information
                                     Officer (OCIO) has strengthened its continuous
                                     monitoring program by participating
                                     in the following Comprehensive National
                                     Cybersecurity Initiatives:

                                          • Trusted Internet Connection. The FTC has
                                            contracted with a Managed Trusted Internet
                                            Protocol service provider to reduce external
                                            access points, establish baseline security
                                            capabilities, and validate agency adherence to
                                            those security capabilities.
                                          • EINSTEIN 2. The FTC participates in the
                                            department of Homeland security einsTein
                                            2 program that deploys signature-based sensors
                                            capable of inspecting Internet traffic entering
                                            federal systems for unauthorized accesses and
                                            malicious content.
                                     Additionally, the OCIO has created a robust, repeatable
                                     change control process that uses automated tools to
                                     audit, monitor, and report changes made to critical the
                                     FTC information systems. Furthermore, the FTC has
                                     performed a certification and accreditation on its new
                                     Data Center, and has authorized that facility to operate as
                                     required by NIST.




       28                                                Federal Trade Commission | Performance and Accountability Report
f
I

                                                                       Federal Accounting Standards Advisory Board (FASAB).
                                                                       For the 15th straight year, the FTC is proud to have
                                                                       received an unqualified (clean) opinion on our Audited
                                                                       financial statements. The chart below presents a




                                                                                                                                     Management’s Discussion & Analysis
                                                                       snapshot of the changes in key financial statement line
                                                                       items that occurred during FY 2011 and is followed by
                                                                       an explanation of the more significant fluctuations in
                                                                       each of FTC’s financial statements.




Differences between amounts presented in this section and the financial statements are due to rounding.

                                                                                                                        Percentage
 CONDENSED BALANCE SHEET (Dollars shown in thousands)                                  FY 2011            FY 2010
                                                                                                                         Change
   Assets:
             Fund Balance with Treasury                                                  $ 112,225          $ 109,486           3%
             Cash and Other Monetary Assets                                                 44,944             21,473         109%
             Investments                                                                     35,443          199,105          -82%
             Accounts Receivable, Net                                                        11,400           48,260          -76%
             General Property & Equipment, Net                                               19,371           18,060            7%
   Total Assets                                                                          $ 223,383          $396,384          -44%
   Liabilities:
             Accrued Redress Receivables Due to Claimants                                  $11,229           $ 38,170         -71%
             Redress Collected not yet Disbursed                                             84,190          180,526          -53%
             Divestiture Fund Due                                                                  -          45,523         -100%
             Accounts Payable and Other                                                      34,768           44,515          -22%
   Total Liabilities                                                                     $ 130,187          $308,734          -58%
   Net Position:
             Cumulative Results of Operations-Other Funds                                    93,196           87,650            6%
   Total Net Position                                                                     $ 93,196          $ 87,650            6%
   Total Liabilities and Net Position                                                    $ 223,383         $ 396,384          -44%


                                                                                                                        Percentage
                             COST SUMMARY                                              FY 2011            FY 2010
                                                                                                                         Change
             Gross Cost                                                                  $ 298,649          $ 275,100           9%
             Less: Earned Revenue                                                         (106,217)          (87,980)          21%
   Net Cost of Operations                                                                $ 192,432          $ 187,120          -3%


                                                             fiscal year 2011                                                              29
                                     Financial Analysis

                                     assets.
                                     The FTC’s Balance Sheet shows total assets of $223              receivable, net decreased by $37 million due to a $12
                                     million at the end of FY 2011, a decrease of $173 million       million collection of a civil penalty receivable, $9 million
                                     or 44 percent compared to total assets of $396 million          collected from sale of assets against a redress judgment
                                     in FY 2010. The overall decrease is primarily attributable      receivable and increased write-offs and allowances of net
                                     to distributing a majority of $108 million from one             receivable balances existing at the end of FY 2010.
                                     significant redress case previously collected near the latter
Management’s Discussion & Analysis




                                     part of FY 2010. In addition, during FY 2011 $45 million        General property & equipment, net increased due to the
                                     in funds were returned to defendants, which had been            several internal use software developments and purchases
                                     previously held in a divestiture fund.                          being placed in service during FY 2011.

                                     Cash and other monetary assets increased by $23 million,
                                     due primarily to the remaining funds awaiting distribution
                                     related to the $108 million judgment case. Accounts




                                           ASSETS BY TYPE (Dollars shown in millions)



                                                                                                           Accounts receivable, net, $11



                                                                                                5%                        Cash and other monetary
                                                                                                                          assets, $45



                                                                                                       20%
                                            Fund balance with
                                            treasury, $112
                                                                                50%
                                                                                                               9%           General Property and
                                                                                                                            equipment, net, $19

                                                                                                     16%

                                                                                                                         Investments, $36




       30                                                 Federal Trade Commission | Performance and Accountability Report
L                                                  Divestiture fund due decreased from $45 million in FY
                                                   2010 to $0 in fy 2011 due to the return of funds to
                                                   defendants in FY 2011.

                                                   redress collected not yet disbursed is the liability offset
                                                   to collections made on redress cases. The primary
                                                   cause for the decrease of $97 million is the distribution
                                                   of funds from the $108 million judgment previously
                                                   mentioned.




                                                                                                                 Management’s Discussion & Analysis
                                                   accounts payable and other decreased by $10 million in
                                                   FY 2011, primarily due to the related collection of the
                                                   civil penalty receivable that existed at FY 2010 year-end.
                                                   This collection was disgorged to Treasury, thus reducing
                                                   the liability balance.




LIABILITIES BY TYPE (Dollars shown in millions)




                                                                          Accounts Payable and
                                                                          Other, $35


  Redress collected not                              27%
  yet disbursed, $84


                                    65%

                                                               8%
                                                                                Accrued redress
                                                                                receivables due to
                                                                                claimants, $11




                                            fiscal year 2011                                                           31
                                     N                                                     R
Management’s Discussion & Analysis




                                     FY 2011 NET COSTS BY STRATEGIC GOAL
                                     (Dollars shown in thousands)


                                                                                       Strategic Goal 1         Strategic Goal 2
                                                                                    Protect Consumers      Maintain Competition         Total

                                       Gross Costs                                            $ 169,334                   $129,315   $ 298,649
                                       Less: Earned Revenue                                     (14,223)                  (91,984)   (106,217)
                                       Net Cost of Operations                                 $ 155,101                   $ 37,331   $ 192,432




       32                                              Federal Trade Commission | Performance and Accountability Report
BuDgetarY resourCes.                                     compares to offsetting collections of $88 million and
The statement of Budgetary resources (sBr) provides      general fund appropriations of $205 million, comprising
information on budgetary resources made available        30 and 70 percent of new budget authority, respectively,
to the agency and the status of these resources at the   in FY 2010.
end of the fiscal year. New budgetary authority (total
budgetary resources excluding unobligated balances       The SBR includes distributed offsetting receipts, which
brought forward and prior year recoveries) was $292      are the non-entity and non-budgetary funds recorded in
million in FY 2011, a decrease of $1 million or less     the FTC’s miscellaneous receipt account. These receipts
than one percent from the $293 million received in       are composed of disgorgements to the Treasury from
                                                         undistributed funds from the redress program and




                                                                                                                      Management’s Discussion & Analysis
FY 2010. Except for a small rescission in FY 2011, the
appropriation for the FTC in FY 2011 was the same as     court-appointed receivers. Distributed offsetting receipts
FY 2010.                                                 were $13 million in FY 2011, compared to $7 million in
                                                         FY 2010.
In FY 2011, spending authority derived from offsetting
collections totaled $106 million ($91 million for Hsr
fees, $14 million for DNC Registry and $1 million
from reimbursable agreements) and general fund
appropriations totaled $186 million, comprising 36 and
64 percent of new budget authority, respectively. This




    NEW BUDGET AUTHORITY FOR FY 2011 (Dollars shown in millions)




                                                                              General fund
                                                                              appropriations, $186

         Spending authority
         from offsetting
         collections, $106               36%




                                                            64%




                                                 fiscal year 2011                                                           33
                                     L


                                                                                              the same books and records. These statements should
                                                                                              be read with the understanding that they are for a
                                                                                              component of the U.S. government, a sovereign entity.
                                                                                              one implication is that unfunded liabilities cannot be
                                                                                              liquidated without legislation that provides resources to
                                                                                              do so.
Management’s Discussion & Analysis




                                                                                              Financial Management indicators
                                                                                              The following table shows standard indicators
                                                                                              developed by the Chief Financial Officers Council
                                                                                              and used by the OMB to monitor agencies’ financial
                                                                                              management practices.



                                       fiNaNcial MaNaGeMeNT iNdicaTOrS fOr fY 2011

                                      debT MaNaGeMeNT

                                      Debt Transferred to Treasury                            100%



                                      fuNdS MaNaGeMeNT

                                      Fund Balance with Treasury (identifies the difference   100% reconciled
                                      between the fund balance reported in Treasury reports
                                      and the agency fund balance with Treasury recorded
                                      in its general ledger on a net basis)


                                      PaYMeNT MaNaGeMeNT

                                     Percentage Invoices Paid on Time (per Prompt             97%
                                     Payment Act)

                                     Percentage Interest Penalties Paid to Total Dollars      0.01%
                                     Invoiced

                                     Percentage of total dollars outstanding in current       100%
                                     status* (good standing) for Individually Billed Travel
                                     Account holders

                                     Percentage of total dollars outstanding in current       100%
                                     status* (good standing) for Centrally Billed Travel
                                     accounts

                                     Percentage of total dollars outstanding in current       100%
                                     status* (good standing) for Purchase Cards

                                     *The OMB threshold for delinquency is 61 days.




       34                                              Federal Trade Commission | Performance and Accountability Report
Performance Section




                      35
                      fiscal year 2011
                      I
                      The Performance Section presents, by goals and                       Human capital planning encompasses leadership and
                      objectives, detailed information on the performance                  knowledge management, a results-oriented performance
                      results of the federal Trade commission’s (fTc)                      culture, talent management, and job satisfaction, which
                      programs. This section also includes: a discussion of                are evaluated by the Office of Personnel Management’s
                      strategies and factors affecting performance, a summary              Human capital assessment and accountability
                      of methods used to verify and validate performance                   Framework. More detailed information on human
                      data, trend data, performance targets, and resources                 capital performance goals and results are provided
Performance Section




                      utilized data for Goal 1 and Goal 2. Since Goal 3 applies            on page 92.
                      to overall performance across the agency, the resources
                      utilized for Goal 3 are distributed to Goal 1 and Goal
                      21. Generally, this section would also contain the results           Relationship of outputs to
                      of program evaluations; however, the agency did not                  outcomes
                      undergo any significant program evaluations in FY
                                                                                           The FTC continuously reviews its performance
                      2011. For a summary of the agency’s mission summary
                                                                                           framework and focuses on tracking and reporting the
                      and a description of the organizational structure, see
                                                                                           most appropriate and meaningful outcome measures to
                      the Management’s Discussion and Analysis Section.
                                                                                           show effectiveness, efficiency, and results. For example,
                                                                                           outcome-based Performance Measures 2.1.2 and 2.1.5
                      The goals, objectives, and performance measures
                                                                                           estimate the millions of dollars in consumer savings
                      reported in this Par are based on the agency’s strategic
                                                                                           that result from merger and nonmerger actions taken
                      plan, which was last updated effective FY 2010. The
                                                                                           to maintain competition. The FTC, however, has not
                      performance tables that follow present six fiscal years
                                                                                           developed outcome measures in all cases, and uses input
                      of performance results and targets, except for those
                                                                                           and output measures that either support outcomes, lead
                      performance measures first added in the latest strategic
                                                                                           to outcomes, or otherwise provide valuable indicators
                      plan update. These newest performance measures are
                                                                                           of how the FTC is progressing toward achieving its
                      presented starting in FY 2010.
                                                                                           strategic goals and objectives. Under the consumer
                                                                                           protection goal, for example, Performance Measure
                                                                                           1.1.1 counts consumer complaints added to the FTC’s
                      strategic human Capital
                                                                                           database, and Performance Measure 1.1.2 indicates
                      Management                                                           the percentage of the agency’s consumer protection
                      The fTc’s strategic human capital management ensures                 law enforcement actions that targeted the subject
                      that the agency has the diverse, skilled workforce                   of consumer complaints. While these measures are
                      needed to advance its mission, achieve its strategic                 not outcome-oriented, they bring the FTC closer to
                      goals and objectives, and meet performance measure                   determining its role in the ultimate desired outcome
                      targets. The agency conducts human capital planning                  of a marketplace free of unfair practices that cause
                      in concert with long-term strategic planning and                     consumer injury and free of fraud and deception.
                      annual performance planning to keep human capital
                      goals, policies, programs, and initiatives aligned with
                      the strategic and performance plans. For example, a
                      robust staffing strategy with the right mix of tools and
                      mechanisms helps the agency meet challenges inherent
                      in a constrained fiscal environment while providing
                      mission-essential skills and competencies.
                      1
                       Goal 3’s costs are distributed to Goal 1 and Goal 2 predominately
                      by Goal 1’s and Goal 2’s FTE usage, except for those non-pay costs
                      that are clearly attributable to a specific goal.

    36                                       Federal Trade Commission | Performance and Accountability Report
Verification and Validation of                                  • subjected performance measurement results to
                                                                  periodic senior management and commission
Performance data                                                  review throughout the fiscal year. This process
The financial data and performance results described              includes substantiating that actual results
in this report enable the fTc to administer its                   reported are indeed correct whenever those
programs, gauge their success, and make adjustments               results reveal significant discrepancies or
necessary to improve program quality for the public.              variances from the target.
The Message from the Chairman on p.IV provides that
the FTC’s financial and performance data presented         agency program managers also monitor and maintain
in this report are complete and reliable. The following




                                                                                                                      Performance Section
                                                           automated systems and databases that collect, track,
steps outline how the agency ensured the performance       and store performance data, with support provided
information it reports is complete and reliable:           by the FTC’s Office of the Chief Information Officer
                                                           (OCIO). In addition to the general controls in place
      • Completed an independent review of the             over the network that ensure only authorized staff can
        internal controls over the data collection and     access key systems, each application (system)—such
        reporting of performance measures to ensure        as the Consumer Sentinel Network—incorporates
        reporting entities had documented adequate         internal validation edits to ensure the accuracy of data
        procedures and checks and balances in the          contained therein. These application edits include
        reporting process.                                 checks for reasonableness, consistency, and accuracy.
      • developed policy and documented the                Crosschecks between other internal automated systems
        procedures used to ensure timely reporting of      also provide assurances of data reasonableness and
        complete, accurate, and reliable actual results    consistency. In addition to internal monitoring of
        relative to the key performance measures.          each system, experts outside of the business units
                                                           (e.g., the Bureaus of Consumer Protection and
      • Held program managers accountable to set
                                                           Competition) routinely monitor the data collection.
        meaningful and realistic targets that also
                                                           For example, senior economists from the Bureau of
        challenge the agency to leverage its resources.
                                                           Economics review statistical data used by the Bureau
        This includes ensuring ongoing monitoring
                                                           of Competition to calculate performance results.
        of performance targets so they are updated
        to reflect changes in key factors that impact
                                                           The Financial Management Office is responsible
        the agency’s ability to achieve such results.
                                                           for providing direction and support on data
        Further, when appropriate, program managers
                                                           collection methodology and analysis, ensuring that
        are required to explain how they will improve
                                                           data quality checks are in place, and accurately
        performance when targets are not met.
                                                           reporting performance management data. Within the
                                                           Performance Section, the FTC has identified the data
                                                           sources for each performance measure.




   leGeNd fOr uPcOMiNG PerfOrMaNce SecTiON TableS

  ✔       Signifies that the target is met or exceeded


  ✖       Signifies that the target is not met




                                                    fiscal year 2011                                                     37
                      Performance Measure summary tables
                      The tables that follow capture FY 2011 targeted performance compared to actual results and units of measure.


                      stRAtegiC goAl 1: PRoteCt ConsuMeRs

                       Objective 1.1 identify fraud, deception, and unfair practices that cause the greatest
                       consumer injury
Performance Section




                                                                                      Target                2.6 million complaints



                        Performance measure 1.1.1 Complaints collected and
                        entered into the Consumer Sentinel Network database.


                                                                                                           4.0 million complaints
                                                                                      actual
                                                                                                                     ✔




                                                                                      Target                  65.0% of actions


                                Key measure 1.1.2 The percentage of the FTC’s
                        consumer protection law enforcement actions that
                        target the subject of consumer complaints to the FTC.

                                                                                                              80.4% of actions
                                                                                      actual
                                                                                                                     ✔




                                                                                      Target               See (a) and (B) below


                        Performance measure 1.1.3 The rate of customer
                        satisfaction with the FTC’s Consumer Response Center.
                                                                                                               (a) Exceeded
                                                                                                                     ✔
                                                                                      actual
                                                                                                                (B) Exceeded
                                                                                                                     ✔
                        Target: (a) For the website, exceed average citizen satisfaction rate as published in the E-Government
                        Satisfaction Index
                        (B) For the call center, meet or exceed standards for call centers developed by the Citizen Service Levels
                        Interagency Committee




    38                                   Federal Trade Commission | Performance and Accountability Report
Objective 1.2: Stop fraud, deception, unfairness, and other unlawful practices through
law enforcement


                                                             Target            75.0–85.0% of cases
         Key measure 1.2.1 The percentage of all cases
filed by the FTC that were successfully resolved
through litigation, a settlement, or issuance of a default
                                                                                 100.0% of cases
judgment.                                                    actual
                                                                                         ✔




                                                                                                                  Performance Section
                                                                      Statistically significant decrease in the
                                                             Target
Performance measure 1.2.2 The FTC’s effectiveness in                        prevalence of the practice.
stopping prohibited business practices in three high
priority areas over the next five years.
                                                             actual                     N/A



                                                             Target               90.0% of cases
Performance measure 1.2.3 The percentage of redress
cases in which the FTC distributes redress dollars
designated for distribution to consumers within six
months.                                                                          100.0% of cases
                                                             actual
                                                                                         ✔

Performance measure 1.2.4 Investigations or cases            Target         30 investigations or cases
in which the FTC obtains foreign-based evidence or
engages in mutual assistance that contributes to FTC
law enforcement actions, or in which we cooperate with                      53 investigations or cases
foreign agencies and/or multilateral organizations.          actual
                                                                                         ✔




                                                   fiscal year 2011                                                  39
                      Objective 1.3: Prevent consumer injury through education



                                                                             Target             50 million messages

                      Performance measure 1.3.1 Consumer protection
                      messages accessed online or in print.
                                                                                                41.4 million messages
                                                                             actual
                                                                                                          ✖
Performance Section




                                                                                          Exceed average citizen satisfaction
                                                                             Target     rate as published in the E-Government
                                                                                                   Satisfaction Index
                              Key measure 1.3.2 Customer satisfaction rate
                      with an FTC consumer education website or microsite.
                                                                                                     Exceeded
                                                                             actual
                                                                                                          ✔


                                                                             Target             11,300 organizations

                      Performance measure 1.3.3 Organizations requesting
                      consumer education publications.
                                                                                                14,818 organizations
                                                                             actual
                                                                                                          ✔




    40                                 Federal Trade Commission | Performance and Accountability Report
Objective 1.4: enhance consumer protection through research, reports, rulemaking,
and advocacy


                                                               Target   8 workshops and conferences
Performance measure 1.4.1 Workshops and conferences
convened or cosponsored that address consumer
protection problems.
                                                                        14 workshops and conferences
                                                               actual
                                                                                    ✔




                                                                                                       Performance Section
                                                               Target      6 comments and briefs
Performance measure 1.4.2 Advocacy comments and
amicus briefs on consumer protection issues filed with
entities including federal and state legislatures, agencies,
or courts.                                                                 3 comments and briefs
                                                               actual
                                                                                    ✖


                                                               Target      50.0% of respondents
Performance measure 1.4.3 The percentage of
respondents finding the FTC’s advocacy comments and
amicus briefs “useful.”
                                                                           100.0% of respondents
                                                               actual
                                                                                    ✔

       Key measure 1.4.4 The percentage of proposed            Target       75.0% of rulemakings
Administrative Procedure Act (APA) rulemakings,
conducted solely by the FTC, completed within nine
months of receipt of final comments in the Final Notice                     83.3% of rulemakings
of Proposed Rulemaking.                                        actual
                                                                                    ✔




                                                     fiscal year 2011                                     41
                      Objective 1.5: Protect american consumers in the global marketplace by providing
                      sound policy and technical input to foreign governments and international
                      organizations to promote sound consumer policy


                                                                                Target             40 policy inputs
                               Key measure 1.5.1 Policy advice provided to
                      foreign consumer protection and privacy agencies,
                      directly and through international organizations,
                      through substantive consultations, written submissions,
                                                                                                   52 policy inputs
                      or comments.                                              actual
Performance Section




                                                                                                          ✔

                                                                                          8 technical assistance missions or
                                                                                Target
                                                                                             international Fellows hosted
                      Performance measure 1.5.2 Technical assistance to
                      foreign consumer protection and privacy authorities.
                                                                                          15 technical assistance missions or
                                                                                actual        international Fellows hosted
                                                                                                          ✔




    42                                 Federal Trade Commission | Performance and Accountability Report
ST

Objective 2.1: Take action against anticompetitive mergers and practices that may
cause significant consumer injury

         Key measure 2.1.1 Actions to maintain
competition, including litigated victories, consent          Target    40.0–60.0% of substantial investigations
orders, abandoned transaction remedies, restructured
transaction remedies, or fix-it-first transaction remedies
in a significant percentage of substantial merger and                     31.8% of substantial investigations




                                                                                                                  Performance Section
                                                             actual
nonmerger investigations.                                                                 ✖

                                                             Target                 $500.0 million
Performance measure 2.1.2 Consumer savings of at
least $500 million through merger actions to maintain
competition.                                                                        $531.5 million
                                                             actual
                                                                                          ✔

                                                             Target                  $25.0 billion
Performance measure 2.1.3 Actions against mergers
likely to harm competition in markets with a total of at
least $25 billion in sales.                                                          $22.7 billion
                                                             actual
                                                                                          ✖

                                                             Target                    600.0%
Performance measure 2.1.4 Consumer savings of at least
six times the amount of FTC resources allocated to the
merger program. (Efficiency Measure)                                                   1,417.3%
                                                             actual
                                                                                          ✔

                                                             Target                 $80.0 million
Performance measure 2.1.5 Consumer savings of at
least $80 million through nonmerger actions taken to
maintain competition.                                                               $444.9 million
                                                             actual
                                                                                          ✔

                                                             Target                  $8.0 billion
Performance measure 2.1.6 Actions against
anticompetitive conduct in markets with a total of at
least $8 billion in annual sales.                                                    $11.6 billion
                                                             actual
                                                                                          ✔

                                                             Target                    400.0%
Performance measure 2.1.7 Consumer savings of at least
four times the amount of FTC resources allocated to the
nonmerger program. (Efficiency Measure)                                                1,917.7%
                                                             actual
                                                                                          ✔

Performance measure 2.1.8 The percentage of cases            Target                90.0% of cases
in which the FTC had at least one substantive contact
with a foreign antitrust authority in which the agencies
followed consistent analytical approaches and reached                              100.0% of cases
compatible outcomes.                                         actual
                                                                                          ✔

                                                    fiscal year 2011                                                 43
                      Objective 2.2: Prevent consumer injury through education

                                                                                Target               10.0 million hits
                             Key measure 2.2.1 Competition resources
                      accessed via the FTC’s website.
                                                                                                     22.6 million hits
                                                                                actual
                                                                                                            ✔
Performance Section




                      Objective 2.3: enhance consumer benefit through research, reports, and advocacy


                                                                                         4 workshops, seminars, conferences, and
                                                                                Target
                                                                                                        hearings
                              Key measure 2.3.1 Workshops, seminars,
                      conferences, and hearings convened or cosponsored
                      that involve significant competition-related issues.                 4 workshops, seminars, conferences,
                                                                                actual               and hearings
                                                                                                            ✔

                                                                                Target            8 reports and studies

                              Key measure 2.3.2 Reports and studies issued
                      on key competition-related topics.
                                                                                                  11 reports and studies
                                                                                actual
                                                                                                            ✔


                              Key measure 2.3.3 Advocacy comments and           Target           6 comments and briefs
                      amicus briefs on competition issues filed with entities
                      including federal and state legislatures, agencies or
                      courts.                                                                    16 comments and briefs
                                                                                actual
                                                                                                            ✔

                                                                                Target            50.0% of respondents
                      Performance measure 2.3.4 The percentage of
                      respondents finding the FTC’s advocacy comments and
                      amicus briefs “useful.”                                                    100.0% of respondents
                                                                                actual
                                                                                                            ✔

                                                                                Target                1.7 million hits
                      Performance measure 2.3.5 The volume of traffic on
                      www.ftc.gov relating to competition research, reports,
                      and advocacy.                                                                  1.8 million hits
                                                                                actual
                                                                                                            ✔




    44                                 Federal Trade Commission | Performance and Accountability Report
Objective 2.4: Protect american consumers in the global marketplace by providing
sound policy recommendations and technical advice to foreign governments and
international organizations to promote sound competition policy


        Key measure 2.4.1 Policy advice provided to         Target              40 policy inputs
foreign competition agencies, directly and through
international organizations, through substantive
                                                                                112 policy inputs
consultations, written submissions, or comments.            actual
                                                                                       ✔




                                                                                                              Performance Section
                                                                       10 technical assistance missions or
                                                            Target
                                                                           international Fellows hosted
Performance measure 2.4.2 Technical assistance
provided to foreign competition authorities.                           27 technical assistance missions or
                                                            actual        international Fellows hosted
                                                                                       ✔



ST

Objective 3.1: Provide effective human resources management

                                                                       Exceed the government-wide results
                                                                      on the Federal Human Capital Survey’s
Performance measure 3.1.1 The extent employees              Target
                                                                      Results-Oriented Performance Culture
believe their organizational culture promotes                                         Index
improvement in processes, products and services,
and organizational outcomes.
                                                                                   Exceeded
                                                            actual
                                                                                       ✔
                                                                       Exceed the government-wide results
                                                            Target    on the Federal Human Capital Survey’s
        Key measure 3.1.2 The extent employees think                        Talent Management Index
the organization has the talent necessary to achieve
organizational goals.
                                                                                   Exceeded
                                                            actual
                                                                                       ✔




                                                   fiscal year 2011                                              45
                      Objective 3.2: Provide effective infrastructure and security management


                                                                                Target               75.0% rating
                             Key measure 3.2.1 A favorable Continuity of
                      Operations (COOP) rating.
                                                                                                     75.0% rating
                                                                                actual
                                                                                                          ✔

                                                                                Target        98.50% system availability
Performance Section




                             Key measure 3.2.2 Availability of information
                      technology systems.
                                                                                              99.82% system availability
                                                                                actual
                                                                                                          ✔


                      Objective 3.3: Provide effective information resources management

                                                                                Target           75.0% of documents
                               Key measure 3.3.1 The percentage of
                      Commission-approved documents in ongoing and newly
                      initiated FTC proceedings available via the Internet
                                                                                                 82.0% of documents
                      within 15 days of becoming part of the public record.     actual
                                                                                                          ✔


                      Objective 3.4: Provide effective financial and acquisition management


                                                                                          Unqualified opinion on the financial
                                                                                Target
                                                                                                      statements
                      Performance measure 3.4.1 Independent auditor’s
                      financial statement audit results.
                                                                                          Unqualified opinion on the financial
                                                                                actual                statements
                                                                                                          ✔

                                                                                Target        100.0% of Bureaus/Offices
                              Key measure 3.4.2 The percentage of Bureaus/
                      Offices that establish and maintain an effective, risk-
                      based internal control environment.
                                                                                              100.0% of Bureaus/Offices
                                                                                actual
                                                                                                          ✔

                                                                                             23.0% of total small business
                                                                                Target
                                                                                                   eligible dollars
                      Performance measure 3.4.3 Performance against the
                      Small Business Administration’s government-wide small
                      business procurement goals.                                            46.3% of total small business
                                                                                actual             eligible dollars
                                                                                                          ✔


    46                                 Federal Trade Commission | Performance and Accountability Report
            Ob
S




                       Performance Section
       y


       e.




    fiscal year 2011      47
                      To fulfill this objective, the FTC is using new            the FTC staff and law enforcement partners also have
                      technologies creatively and building on its broad base     the ability to search more than 340 million spam records
                      of private and public sector partners. The agency          collected by the FTC via spam@uce.gov. The agency
                      continues to collect consumer complaint information        augments identification of targets from its databases with
                      directly through four principal sources: (1) a toll-free   other strategies for generating enforcement leads, such
                      helpline (1-877-FTC-HELP); (2) an identity theft hotline   as ad monitoring, internet surfs (monitoring the internet
                      (1-877-ID-THEFT); (3) the National Do Not Call             for potentially false or deceptive advertising for a targeted
                      Registry (1-888-382-1222); and (4) the online consumer     product or service), and direct referrals from government
                      complaint forms that support each of these efforts,        and private sector partners.
                      as well as online forms dedicated to complaints from
Performance Section




                      members of the U.S. Armed Forces and to cross-border       Performance Results
                      fraud complaints. In addition, the FTC continues to
                                                                                 Performance Measure 1.1.1 ensures that the agency
                      gather consumer complaint information from other
                                                                                 assimilates a large number of consumer complaints,
                      sources, including other law enforcement agencies,
                                                                                 including complaints about DNC violations. The agency
                      the Better Business Bureaus, and private entities. The
                                                                                 receives these complaints from a variety of sources,
                      agency makes this and other information accessible
                                                                                 including direct consumer complaints to the fTc and
                      through the secure website of the Consumer Sentinel
                                                                                 complaints received by the FTC’s partners. In this
                      Network (CSN), a unique investigative database of
                                                                                 manner, the FTC collects robust information to inform
                      consumer complaints that is accessible to over 2,000
                                                                                 its law enforcement efforts. Key Measure 1.1.2 ensures
                      law enforcement partner agencies worldwide. CSN
                                                                                 that FTC law enforcement actions target the subject of
                      encompasses nearly 16.1 million consumer fraud, identity
                                                                                 concerns identified by consumers. Performance Measure
                      theft, financial, and Do Not Call (DNC) complaints that
                                                                                 1.1.3 ensures that the agency’s consumer response center
                      the agency has collected since July 2006.
                                                                                 is providing satisfactory service responding to consumers.




    48                                   Federal Trade Commission | Performance and Accountability Report
                                T




                                                                                                       Performance Section
complaints were in second place, with 144,159 complaints. The report is available on the FTC’s
website at www.ftc.gov/sentinel/reports/sentinel-annual-reports/sentinel-cy2010.pdf.

In the table below, “Percentage” is based on the total number of consumer complaints the FTC
received in 2010 (1,339,265 complaints). “Compared to 2009” is based on the total number of
consumer complaints the FTC received in 2009, as of the end of 2009 (1,330,426 complaints).




raNK                  caTeGOrY                      NuMber Of           PerceNT        cOMPared
                                                    cOMPlaiNTS          Of TOTal        TO 2009

  1                   identity Theft                   250,854              19%        i    From 21%


  2                  debt collection                    144,159             11%         h   From 9%


  3                 internet Services                   65,565              5%          i   From 6%


  4         Prizes, Sweepstakes and lotteries           64,085              5%          h   From 3%


  5         Shop-at-Home and catalog Sales              60,205              4%          i   From 6%


  6                  imposter Scams                     60,158              4%              N/A



  7                 internet auctions                   56,107              4%              fg

            foreign Money/counterfeit check
  8
                        Scams
                                                        43,866              3%          i   From 5%



  9          Telephone and Mobile Services              37,388              3%              N/A



  10                  credit cards                      33,258              2%          i   From 3%




                                           fiscal year 2011                                               49
                      PeRFoRMAnCe MeAsuRe 1.1.1

                      ComPlaints ColleCteD anD entereD into the Consumer sentinel
                      networK DataBase. (inPut measure – numBers shown in millions.)1

                         2013      Target        2.8
                                                           TarGeT exceeded.
                         2012      Target         2.7      In FY 2011, the FTC added 4.0 million entries into its database, 154%
                                                           of the target of 2.6 million.
                                   Target        2.6       The increased number of complaints in FY 2011 was driven by an
Performance Section




                         2011                              increase in the number of external data contributors, including the
                                   actual        4.0       Oregon Department of Justice, Washington State Office of the
                                                           Attorney General, Michigan Office of the Attorney General, and the
                                                           Tennessee Consumer Affairs Division. Furthermore, the database
                                   Target        2.5       now includes complaints from all 122 Better Business Bureaus. The
                         2010                              number of complaints has otherwise remained steady, with the only
                                   actual         3.1      other significant increase in FY 2008, when, for the first time, the
                                                           total included consumer complaints alleging DNC violations.
                                   Target         1.8      Due to the extent by which the FTC exceeded this target in FYs
                        2009                               2008 and 2009, the agency reevaluated the target in the 2009
                                   actual        3.3       update of the FTC Strategic Plan, significantly increasing the target
                                                           for FY 2010 and further increasing it for each of the next four years.
                                                           Due to the extent by which the FTC exceeded the revised targets in
                                   Target         1.8      FYs 2010 and 2011, the agency again reevaluated the target in 2011,
                        2008                               and plans to update the performance plan, significantly increasing
                                   actual         3.1      the target for FYs 2012 and 2013. The FTC’s FY 2012 PAR will contain
                                                           the updated targets.

                                   Target         1.0      Data Source: The FTC’s Consumer Sentinel Network database.
                        2007
                                   actual         1.1      1
                                                            Effective FY 2011, “and inquires” was dropped from this
                                                           performance measure.
                                   Target         1.0
                        2006
                                   actual         1.0




    50                             Federal Trade Commission | Performance and Accountability Report
     Key MeAsuRe 1.1.2

the PerCentage of the ftC’s Consumer ProteCtion law enforCement aCtions
that target the suBjeCt of Consumer ComPlaints to the ftC. (outPut measure)

   2013      Target    65%
                               TarGeT exceeded.
   2012      Target    65%     In FY 2011, 80.4%, or 41 of 51, of the agency’s actions targeted the
                               subject of consumer complaints to the FTC.
             Target    65.0%   Because the agency augments identification of targets from its




                                                                                                      Performance Section
   2011                        databases with other strategies for generating enforcement leads—
             actual    80.4%   such as ad monitoring, Internet surfs, and direct referrals from
                               government and private sector partners—the results vary from
                               year to year, and the agency has not increased the target for this
             Target    65.0%   measure.
   2010
             actual    95.9%
                               Data Source: The FTC’s Consumer Sentinel Network database.
             Target    65.0%
  2009
             actual    79.0%


             Target    65.0%
  2008
             actual    71.0%


             Target    50.0%
  2007
             actual    76.0%


             Target    n/a
  2006
             actual    n/a




                                   fiscal year 2011                                                      51
                      PeRFoRMAnCe MeAsuRe 1.1.3

                      the rate of Customer satisfaCtion with the ftC’s Consumer resPonse Center.
                      (outCome measure)

                          2013           Target       See (A) and (B)
                                                                          TarGeT MeT.
                          2012           Target       See (A) and (B)     In FY 2011, the average citizen satisfaction score for
                                                                          participating federal government websites was 74, and the
                                                                          score for the FTC’s website was 75. The standard for call
Performance Section




                                         Target      see (a) and (B)      centers was 74, and the FTC’s score was 77.

                         2011                                             Data Source: Reports from the U.S. Department of the
                                                                          Interior’s Federal Consulting Group, the executive agent for
                                                     (a) exceeded
                                         actual                           the American Customer Satisfaction Index (ACSI), which
                                                     (B) exceeded         is produced by the University of Michigan in partnership
                                                                          with the American Society for Quality, ForeSee Results
                                                                          and the CFI Group. The ACSI produces the E-Government
                                         Target      see (a) and (B)      Satisfaction Index.

                         2010
                                                     (a) exceeded
                                         actual
                                                     (B) met


                       Target: (a) For the website, exceed average citizen satisfaction rate as published in the ACSI’s E-Government
                       Satisfaction Index.
                       (B) For the call center, meet or exceed standards for call centers developed by the Citizen Service Levels
                       Interagency Committee.




    52                                   Federal Trade Commission | Performance and Accountability Report
Ob                                             Performance Results
                                               Key Measure 1.2.1 ensures that the FTC successfully
                                               resolves cases, though it aims to file large, precedent-
                                               setting cases when appropriate, including cases that
                                               raise challenging legal and factual issues. Performance
                                               Measure 1.2.2 ensures the agency’s success in
                                               changing business practices within priority areas and
                                               demonstrates the change through research methods.
                                               Performance Measure 1.2.3 ensures that the FTC




                                                                                                           Performance Section
                                               returns redress dollars to consumers as quickly as
                                               possible. Dollars are considered “designated for
                                               distribution” when the FTC is in receipt of all funds,
                                               legal issues are resolved, and a usable claimant list is
                                               ready. Performance Measure 1.2.4 helps gauge law
                                               enforcement efforts from an international perspective,
                                               including continuing to use and further develop new
                                               powers authorized under the “Undertaking Spam,
                                               Spyware, And Fraud Enforcement With Enforcers
                                               beyond Borders Act of 2006” (U.S. SAFE WEB Act) to
                                               achieve the objective.




     Key MeAsuRe 1.2.1

the PerCentage of all Cases fileD BY the ftC that were suCCessfullY resolveD
through litigation, a settlement, or issuanCe of a Default juDgment. (outCome
measure)


   2013      Target   75.0-85.0%
                                   TarGeT exceeded.
                                   Of the 121 cases resolved in FY 2011, all were successfully resolved
   2012      Target   75.0-85.0%
                                   through litigation, a settlement, or issuance of a default judgment.
                                   At the end of FY 2011, an additional 94 cases had not been resolved,
             Target   75.0-85.0%   and remained in litigation.

   2011                            While the agency significantly exceeded the target, setting the
             actual    100.0%      target too high could discourage the filing of large, difficult, or
                                   precedent-setting cases, including cases that raise challenging legal
                                   and factual issues.
             Target   75.0-85.0%
                                   Data Source: LexisNexis CourtLink, the FTC website, and agency,
   2010                            bureau, division, and regional office reports.
             actual     99.2%




                                      fiscal year 2011                                                        53
                      PeRFoRMAnCe MeAsuRe 1.2.2

                      the ftC’s effeCtiveness in stoPPing ProhiBiteD Business PraCtiCes in three high
                      PrioritY areas over the next five Years. (outCome measure)

                                                                                     Stopping deceptive “green” marketing claims
                                             Statistically significant decrease in   is one of the FTC’s highest priorities, and the
                         2013      Target
                                               the prevalence of the practice.       agency expects to complete its first study,
                                                                                     addressing bamboo textiles claims, in FY 2012.
                                                                                     In order to establish a baseline, the FTC
                                             Statistically significant decrease in   identified more than 500 websites marketing
Performance Section



                         2012      Target
                                               the prevalence of the practice        bamboo textiles, and from that group
                                                                                     developed a representative sample of 70
                                                                                     websites. After charging four sellers of clothing
                                                                                     and other textile products with making false
                                            statistically significant decrease in    claims, the agency re-captured the sample
                                  Target
                                              the prevalence of the practice.        and analyzed the marketing claims. The FTC
                                                                                     then sent 78 publically announced letters to
                         2011                                                        companies nationwide, warning that they may
                                                                                     be breaking the law. Although the agency
                                  actual                     n/a                     anticipated capturing the sample a third time
                                                                                     and reporting the study’s results in FY 2011, the
                                                                                     FTC decided to undertake additional work in
                                                                                     this area before analyzing the effectiveness of
                                            statistically significant decrease in    its actions on the marketplace. Therefore, final
                                  Target                                             results will be reported in FY 2012.
                                              the prevalence of the practice.

                         2010
                                                                                     Data Source: Evaluations of the prevalence
                                  actual                     n/a                     of prohibited business practices in the
                                                                                     targeted areas.




                                                             national Do not
                                                             Call registrY
                                                             The FTC manages the National Do Not Call Registry, which
                                                             continues to protect consumer from receiving unwanted
                                                             commercial telemarketing calls. The Registry empowers
                                                             consumers to take charge of the commercial telemarketing
                                                             calls they receive. In FY 2011, telephone numbers on the
                                                             Registry exceeded 208 million. It’s fast and free to register
                                                             a number, and registrations never expire. Consumers can
                                                             register online at www.donotcall.gov, or call toll-free
                                                             888-382-1222 (TTY 866-290-4236) from the number they
                                                             wish to register.




    54                              Federal Trade Commission | Performance and Accountability Report
T




2013     Target    90.0%
                            TarGeT exceeded.
                            In FY 2011, in 13 of 13 cases or 100%, the FTC distributed redress dollars
                            designated for distribution to consumers within six months.
2012     Target    90.0%
                            The agency will continue to monitor the target of this relatively new measure




                                                                                                            Performance Section
                            and will reassess it after additional performance cycles.
        Target     90.0%
                            Data Source: Bureau open redress case status reports.
2011
        actual    100.0%



        Target     90.0%

2010
        actual     96.0%




                                        the ftC seeKs to halt
                                        10 oPerators of faKe
                                        news sites from maKing
                                        DeCePtive Claims aBout
                                        aCai BerrY weight
                                        loss ProDuCts
                                          In April 2011, the FTC requested that federal courts
                                          temporarily halt the allegedly deceptive tactics of 10
                                          operations using fake news websites to market acai berry
 weight-loss products. According to the FTC, the Internet marketers falsely claimed endorsement
 from ABC, Fox News, CBS, CNN, USA Today, and Consumer Reports. The defendants allegedly
 operated websites that were meant to appear as if they belong to legitimate news-gathering
 organizations, but in reality the sites were simply advertisements aimed at deceptively enticing
 consumers to buy the featured weight-loss products from other merchants. The FTC seeks to
 permanently stop this misleading practice and has asked courts to freeze the operations’ assets
 pending trial. For more information, visit www.ftc.gov/opa/2011/04/fakenews.shtm.



                                             fiscal year 2011                                                  55
                      T




                      2013     Target      30
                                                   TarGeT exceeded.
Performance Section



                                                   In FY 2011, the FTC cooperated with its foreign counterparts on consumer
                                                   protection and privacy matters to obtain evidence and other assistance for FTC
                      2012     Target      30      investigations and litigation with numerous jurisdictions including Australia,
                                                   Belize, Canada, Colombia, Costa Rica, the Dominican Republic, El Salvador,
                                                   France, Israel, New Zealand, Peru, the Philippines, and the United Kingdom.
                                                   Foreign agencies assisted the FTC in activities such as locating investigative
                               Target      30
                                                   targets and defendants, obtaining corporate records, obtaining witness
                      2011                         statements, organizing depositions, and providing investigative information. The
                                                   FTC also provided assistance to numerous foreign entities, including pursuant to
                               actual      53      the information-sharing and investigative assistance provisions of the U.S. SAFE
                                                   WEB Act of 2006. In several instances, the information the FTC provided to the
                                                   foreign entity resulted in parallel proceeding or reciprocal assistance to the FTC.
                               Target      30      The agency will continue to monitor the target of this relatively new measure
                                                   and will reassess it after additional performance cycles.
                      2010
                                                   Data Source: Information on the international activities of the FTC is pro-
                               actual      39
                                                   duced by the agency’s Office of International Affairs.




                                                     the ftC ComBats immigration
                                                     serviCes sCams
                                                     In January 2011, the FTC brought a case against Immigration Center,
                                                     one of several associated companies allegedly participating in a large
                                                     Internet scam in which they masqueraded as a U.S. government
                                                     website. At the request of the FTC, a federal judge in June 2011,
                                                     shut down the operation of Manuel and Lola Alban for allegedly
                                                     misrepresenting that it was authorized to provide immigration services.

                                                    Because immigrants with limited English language proficiency
                                                    often are targeted by scammers who call themselves “immigration
                                                    consultants” or “notarios,” or falsely claim that they are attorneys, the
                                                    FTC developed education materials in English, Spanish, Chinese, and
                                                    Korean. As part of the campaign, the FTC rolled out six new radio
                       public service announcements in English, Spanish, and Mandarin Chinese that warn about illegal
                       notarios and immigration consultants, and direct consumers to the materials on the FTC’s website
                       at www.ftc.gov/immigration. For more information, visit www.ftc.gov/opa/2011/06/immigration.shtm.


    56                               Federal Trade Commission | Performance and Accountability Report
Ob                      PeRFoRMAnCe Results
                        consumer and business education is crucial to prevent
                        and reduce consumer harm. Performance Measure 1.3.1
                        ensures that the fTc continue to promote educational
                        activity and that the educational materials are aimed at
                        new trends and at particularly vulnerable populations.
                        Key Measure 1.3.2 ensures that the agency’s consumer
                        education websites are effective and helpful for
                        consumers. Performance Measure 1.3.3 ensures that the




                                                                                     Performance Section
                        FTC is publicizing its activities in the best way possible
                        and that the agency has a wide array of partners to
                        leverage resources.that the FTC is publicizing its
                        activities in the best way possible and that the agency
                        has a wide array of partners to leverage resources.




Business Center
                  In November 2010, the FTC announced a new Business
                  Center at www.Business.ftc.gov, that gives business
                  owners, attorneys, and marketing professionals the
                  tools they need to understand and comply with the
                  consumer protection laws, rules, and guides the FTC
                  enforces. The Business Center provides practical,
                  plain-language guidance about advertising, credit,
                  telemarketing, privacy, and a host of other topics.
                  A series of short videos explain the bottom line
                  about what businesses need to know to comply, and
                  the Business Center blog gives readers the latest
                  compliance tips and information.




                  fiscal year 2011                                                      57
                      PeRFoRMAnCe MeAsuRe 1.3.1

                      Consumer ProteCtion messages aCCesseD online or in Print.
                      (numBers shown in millions.)


                        2013     Target        50.0
                                                           TarGeT NOT MeT.
                        2012     Target        50.0       In FY 2011, the FTC accomplished roughly 88% of its target of 50
                                                          million messages. Of the more than 43.9 million consumer protection
Performance Section



                                                          messages accessed, more than 26.4 million were accessed online and
                                 Target        50.0
                                                          nearly 17.5 million were print publications distributed by the FTC.
                        2011
                                 actual        41.4       While the number of print publications distributed remained
                                                          relatively static over the last decade, as more consumers and
                                                          businesses went online, the number of publications accessed through
                                 Target        50.0       the Internet soared before leveling off within the past few years. Also,
                        2010                              the results underestimate the FTC’s impact. The agency’s partners
                                 actual        43.9       are increasingly opting to post the FTC’s information on their own
                                                          websites, and the agency has also increasingly taken advantage of
                                                          the outreach potential of the “blogosphere.” The FTC is unable to
                                 Target        55.0       measure the number of its consumer protection messages accessed
                       2009                               on partner websites or blogs.
                                 actual        43.1
                                                          Data Source: The agency’s web statistics software (for messages
                                 Target        50.0
                                                          accessed online) and the FTC publication inventory (for mes-
                                                          sages accessed in print).
                       2008
                                 actual        49.2


                                 Target        45.0
                       2007
                                 actual        47.0


                                 Target        25.0
                       2006
                                 actual        53.0




    58                             Federal Trade Commission | Performance and Accountability Report
                                   DeBt ColleCtion Consumer
                                   rights
                                   If you are behind in paying your bills, you can expect to hear from a
                                   debt collector. A debt collector is someone, other than the creditor, who
                                   regularly collects debts owed to someone else. Lawyers who collect debts
                                   on a regular basis are considered debt collectors, too.




                                                                                                                     Performance Section
                                       What you need to know: You have rights. Federal law requires that
collectors treat you fairly. In short, that means: A debt collector may contact you in person, by mail, telephone,
telegram, or fax, but may not contact you at inconvenient times or places—for example, before 8 a.m. or after
9 p.m.—unless you agree. A debt collector may not contact you at work if the collector is aware that your
employer prohibits it. If an attorney is representing you about the debt, the debt collector must contact the
attorney, rather than you. If you don’t have an attorney, a collector may contact other people only to find
out your address, your phone number, and where you work. A debt collector may not harass, oppress, or
abuse you or any third parties they contact about you. A debt collector may not lie or mislead anyone when
collecting a debt.

In 2010, as in other recent years, the FTC received more complaints about debt collection than any other
specific industry. (The FTC does not count any identity theft or Do Not Call Registry complaints that
may involve debt collection in determining the total number of debt collection complaints.) In its lawsuits
challenging illegal debt collection practices, the FTC has obtained tough relief against collectors, including
banning some of them from the business and requiring them to pay millions of dollars in penalties. For more
information, visit www.ftc.gov/bcp/edu/microsites/moneymatters/dealing-with-debt-collection.shtml.




                                                fiscal year 2011                                                        59
                           Key MeAsuRe 1.3.2

                      Customer satisfaCtion rate with an ftC Consumer eDuCation weBsite or miCrosite.


                                            Exceed average citizen satisfaction
                         2013     Target         rate as published in the         TarGeT MeT.
                                             E-Government Satisfaction Index      In FY 2011, the FTC continued to evaluate
                                                                                  www.OnGuardOnline.gov, a joint effort of
                                                                                  the federal government and the technology
                                            Exceed average citizen satisfaction   industry, created, maintained, and marketed by
Performance Section



                         2012     Target         rate as published in the         the FTC to help computer users guard against
                                             E-Government Satisfaction Index      Internet fraud, secure their computers, and
                                                                                  protect their personal information. The average
                                                                                  citizen satisfaction score for participating
                                           exceed average citizen satisfaction    federal government websites was 74, and the
                                  Target        rate as published in the          score for www.OnGuardOnline.gov was 81.
                                            e-government satisfaction index       The continued measurement of the website
                                                                                  over time has allowed the FTC to assess the
                         2011                                                     effect of website improvements on customer
                                                                                  satisfaction.
                                  actual                exceeded
                                                                                  Data Source: Reports from the U.S.
                                                                                  Department of the Interior’s Federal
                                                                                  Consulting Group, the executive agent for
                                           exceed average citizen satisfaction    the American Customer Satisfaction Index
                                  Target        rate as published in the          (ACSI), which is produced by the University
                                            e-government satisfaction index
                                                                                  of Michigan in partnership
                         2010                                                     with the American Society for Quality,
                                                                                  ForeSee Results and the CFI Group.
                                  actual                exceeded                  The ACSI produces the E-Government
                                                                                  Satisfaction Index.




    60                             Federal Trade Commission | Performance and Accountability Report
PeRFoRMAnCe MeAsuRe 1.3.3

organizations requesting Consumer eDuCation PuBliCations.



  2013         Target               11,900           TarGeT exceeded.
                                                    In FY 2011, the FTC accomplished 131% of its target of
                                                    11,300 organizations.

  2012         Target               11,600          The FTC’s campaign for children’s online safety kicked




                                                                                                               Performance Section
                                                    off at the start of FY 2010 with the publication of “Net
                                                    Cetera: Chatting with Kids about Being Online.” This
                                                    was followed in FY 2011 by the Net Cetera Community
                                                    Outreach Toolkit in October 2010, and “Heads Up: Stop.
               Target              11,300           Think. Click” in November 2010. Approximately half of
                                                    all orders received during FY 2011 included “Net Cetera”
  2011                                              materials. In the third quarter of FY 2011, orders began
                                                    returning to expected levels.
               actual               14,818          While the target increases over the next few years,
                                                    the agency will continue to monitor performance and
                                                    reassess targets as needed.

               Target              11,000           Data Source: The agency’s online order
                                                    system database.
  2010

               actual              15,375




                                             S




  At www.ftc.gov/lightbulbs, a video and flyer explain how understanding lumens and the new
  Lighting Facts label will help shoppers compare bulbs. For example, lumens, not watts, tell you
  how bright a light bulb is, no matter the type of bulb. The more lumens, the brighter the light.
  Beginning in 2012, the front of light bulb packages will emphasize a bulb’s brightness in lumens,
  instead of the bulb’s energy usage in watts. This new packaging will help consumers select the
  most efficient bulbs that fit their lighting needs and therefore, save money.
  To learn more, visit www.ftc.gov/lightbulbs.




                                             fiscal year 2011                                                     61
                      Ob                                  Performance Results
                                                          Public policy that enhances consumer protection
                                                          is based on a thorough understanding of complex
                                                          issues, which arises from dialogue, study, and empirical
                                                          research. Such policy also appreciates that stakeholders
                                                          other than government, such as industry associations
                                                          or private standard-setting organizations, are at times
                                                          better positioned to address certain consumer protection
                                                          issues. Performance Measures 1.4.1 through 1.4.3,
Performance Section




                                                          and Key Measure 1.4.4, allow the agency to gauge the
                                                          success of this objective and help ensure that the agency
                                                          augments its enforcement and education efforts by
                                                          encouraging discussions among all interested parties,
                                                          through careful study of and empirical research on novel
                                                          or challenging consumer protection problems, by urging
                                                          adoption of policies and legal principles that promote
                                                          consumers’ interest, and by conducting rulemaking
                                                          as appropriate. These activities help guide the FTC’s
                                                          consumer protection policy decisions, as well as those of
                                                          other state, federal, and international policymakers.




    62                 Federal Trade Commission | Performance and Accountability Report
PeRFoRMAnCe
                             2013     Target        8
MeAsuRe 1.4.1                                            TarGeT exceeded.
                                                         In FY 2011, the FTC exceeded
                             2012     Target        8    its target and convened or
worKshoPs anD
                                                         cosponsored 14 workshops and
ConferenCes ConveneD or                                  conferences that addressed
                                      Target        8
CosPonsoreD that aDDress                                 consumer protection problems.
                             2011                        These events brought together
Consumer ProteCtion                  actual        14    approximately 1,470 participants.
ProBlems. (outPut measure)
                                                         Due to the extent by which the
                                      Target        6    FTC exceeded this target in FY




                                                                                                  Performance Section
                             2010                        2010 and prior years, the agency
                                                         reevaluated the target and updated
                                     actual        11    the performance plan, increasing
                                                         the target for FY 2011 and the
                                                         following three years. The agency
                                      Target        6
                                                         significantly exceeded the revised
                             2009                        FY 2011 target because it convened
                                     actual         9    or cosponsored events, including
                                                         the debt collection technology
                                                         workshop, in anticipation of the
                                      Target        6    transfer of certain authorities to the
                                                         new Consumer Financial Protection
                             2008
                                                         Bureau, resulting in an unusually
                                     actual        16    large number workshops and
                                                         conferences.
                                      Target        6
                                                         Data Source: The FTC website
                             2007                        and agency, bureau, division, and
                                     actual        10    regional office reports.


                                      Target       n/a
                             2006
                                     actual        n/a




                                fiscal year 2011                                                     63
                      PeRFoRMAnCe
                      MeAsuRe 1.4.2                                                TarGeT NOT MeT.
                                                      2013      Target       6
                                                                                   In FY 2011, the FTC filed advocacy
                      aDvoCaCY Comments                                            comments and amicus briefs on
                                                                                   consumer protection issues such as
                      anD amiCus Briefs on                                         third-party debt collector practices,
                      Consumer ProteCtion                                          telemarketing calls, and the Home
                      issues fileD with               2012      Target       6     Mortgage Disclosure Act.

                      entities inCluDing                                           While the agency did not meet
                                                                                   the target for filing consumer
                      feDeral anD state                                            protection-related briefs and
Performance Section




                      legislatures, agenCies,                                      comments, it greatly exceeded
                                                                                   the target for filing competition-
                      or Courts.                                Target       6     related briefs and comments (see
                                                                                   discussion of Key Measure 2.3.3 on
                                                                                   page 86).
                                                     2011                          These performance results highlight
                                                                                   the inherent unpredictability of the
                                                                                   types and number of consumer
                                                                actual       3     protection issues that might
                                                                                   arise before federal and state
                                                                                   government bodies and therefore
                                                                                   the types of comments and briefs
                                                                                   that the agency might file in
                                                                                   response.
                                                                Target       6     The agency will continue to monitor
                                                                                   the target of this relatively new
                                                                                   measure and will reassess it after
                                                     2010                          additional performance cycles.

                                                                                   Data Source: Internal matter re-
                                                                actual       6     cords of advocacy comments and
                                                                                   amicus briefs filed.




    64                             Federal Trade Commission | Performance and Accountability Report
PeRFoRMAnCe
MeAsuRe 1.4.3                 2013    Target    50.0%   TarGeT exceeded.
                                                        The FTC mails advocacy recipients
the PerCentage of                                       a survey designed to gauge the
                                                        usefulness of agency advocacy
resPonDents finDing the       2012    Target    50.0%
                                                        comments and amicus briefs.
ftC’s aDvoCaCY Comments                                 “Usefulness” is assessed by the
                                                        recipient. The target percentage
anD amiCus Briefs “useful.”                             recognizes that comments
                                      Target    50.0%
(outCome measure)                                       critiquing a recipient’s proposed
                                                        action may not be assessed
                              2011




                                                                                                Performance Section
                                                        positively. In FY 2011, 1 of 1 survey
                                                        respondents classified the FTC’s
                                     actual    100.0%
                                                        submissions as useful. The agency
                                                        will continue to monitor the target
                                                        of this relatively new measure and
                                                        will reassess it after additional
                                      Target    50.0%   performance cycles.

                              2010                      Data Source: A formal written
                                                        survey distributed to advocacy
                                     actual    100.0%   recipients.




                              2013    Target    75.0%
Key MeAsuRe 1.4.4                                       TarGeT exceeded.
                                                        Of the six rulemakings completed
                                                        in FY 2011, five were completed
the PerCentage of             2012    Target    75.0%
                                                        within nine months of receipt
ProPoseD aDministrative                                 of final comments in the Final
                                                        Notice of Proposed Rulemaking.
ProCeDure aCt (aPa)                   Target    75.0%   Rulemakings are considered
rulemaKings, ConDuCteD        2011                      completed on the dates the
solelY BY the ftC,                                      Commission votes on the rules. The
                                     actual     83.3%   agency will continue to monitor
ComPleteD within nine                                   the target of this relatively new
months of reCeiPt of                                    measure and will reassess it after
                                      Target    75.0%   additional performance cycles.
final Comments in the
final notiCe of ProPoseD      2010                      Data Source: The Federal
                                     actual    100.0%   Register and the FTC website.
rulemaKing. (effiCienCY
measure).




                                 fiscal year 2011                                                  65
                      Ob                                             The agency also focuses on understanding cutting-edge
                                                                     issues in technology and globalization that present
                                                                     challenges to American consumer interests. The agency
                                                                     influences policy development and implementation by
                                                                     advising multilateral organizations, regional entities, and
                                                                     foreign government agencies through substantive
                                                                     consultations and written comments. And finally, the
                                                                     FTC provides technical assistance to newer consumer
                                                                     protection agencies to enhance their ability to apply
                                                                     sound consumer protection policies.
Performance Section




                                                                     Performance Results
                                                                     The FTC uses two measures to assess the performance
                                                                     of this objective. Key Measure 1.5.1 and Performance
                                                                     Measure 1.5.2 address the scope of agency contact with
                                                                     international counterparts and help determine if agency
                                                                     efforts are sufficiently broad-based.




                                                         2013      Target        40        TarGeT exceeded.
                      Key MeAsuRe 1.5.1
                                                                                          In FY 2011, the FTC provided
                                                                                          policy advice in 52 instances
                      PoliCY aDviCe ProviDeD                                              through consultations, written
                      to foreign Consumer                                                 submissions, or comments.
                                                         2012      Target        40
                                                                                          Enhanced engagement with new
                      ProteCtion anD PrivaCY                                              and developing foreign consumer
                      agenCies, DireCtlY anD                                              protection and privacy agencies, as
                                                                                          well as participation in additional
                      through international
                                                                   Target        40       international organizations that
                      organizations, through                                              are now working on consumer
                      suBstantive Consultations,                                          protection and privacy issues, has
                                                         2011                             resulted in an increased demand
                      written suBmissions, or                                             for the FTC’s policy advice.
                      Comments. (outPut measure)                   actual        52       The agency will continue to
                                                                                          monitor the target of this relatively
                                                                                          new measure and will reassess
                                                                                          it after additional performance
                                                                                          cycles.
                                                                   Target        40
                                                                                          Data Source: Information on the
                                                         2010                             international activities of the
                                                                                          FTC is produced by the agency’s
                                                                   actual        64       Office of International Affairs.




    66                            Federal Trade Commission | Performance and Accountability Report
PeRFoRMAnCe
MeAsuRe 1.5.2           2013          Target     8           TarGeT exceeded.
                                                             In FY 2011, the FTC conducted 14
teChniCal assistanCe                                         technical assistance missions and
                                                             hosted one international fellow
to foreign Consumer                                          relating to the consumer protection
                        2012          Target     8           mission. The FTC received
ProteCtion anD
                                                             funding from the U.S. Agency
PrivaCY authorities.                                         for International Development
(outPut measure)                                             to conduct consumer protection
                                                             technical assistance missions in
                                      Target     8           Central America, the Dominican




                                                                                                     Performance Section
                                                             Republic, Africa (including South
                        2011                                 Africa) and Vietnam. Four of the
                                                             technical assistance missions
                                                             and the international fellow were
                                      actual     15          funded by the U.S. Agency for
                                                             International Development.
                                                             The agency will continue to
                                                             monitor the target of this relatively
                                      Target     8           new measure and will reassess
                                                             it after additional performance
                                                             cycles.
                        2010
                                                             Data Source: Office of
                                      actual     23          International Affairs technical as-
                                                             sistance calendar.




Resources utilized—                      2007         2008        2009         2010        2011
strategic goal 1
                        Full-Time
(dOLLARS SHOWN IN       Equivalents
                                           570        591           597         621         633
MILLIONS.)
                        Obligations       $126        $140         $152         $168        $166


                        Net Cost          $105        $124         $131        $144         $155

                       Note: Differences between these obligations and net costs and the
                       financial statements are due to rounding.




                             fiscal year 2011                                                           67
                                                                        Ob
                      S
Performance Section




                                                                 W




                      antitrust laws by challenging business practices that could hurt consumers by resulting in higher
                      prices, lower quality, or fewer goods or services.




    68                             Federal Trade Commission | Performance and Accountability Report
Ob                                                    (such as price fixing among competitors) is clearly
                                                      anticompetitive, mergers and many other forms of
                                                      business conduct can benefit, harm, or have no effect
                                                      on consumers. Consequently, both under- and over
                                                      enforcement can harm consumers’ interests. The agency
                                                      seeks to take enforcement action against transactions or
                                                      practices that harm, or are likely to harm, consumers. At
                                                      the same time, the agency seeks to avoid taking actions
                                                      that prevent businesses from completing transactions
                                                      or engaging in practices that fundamentally benefit




                                                                                                                  Performance Section
                                                      consumers or have no competitive effect. The FTC also
                                                      tries to identify enforcement targets as efficiently as
                                                      possible so that it can devote the bulk of its resources
                                                      to further investigation of, and possible challenge to,
                                                      the most problematic mergers and practices. A related,
                                                      but important, consideration is to conduct each inquiry
                                                      in a way that minimizes the cost or inconvenience to
                                                      businesses, while still enabling the agency to gather
                                                      sufficient information to support each enforcement
                                                      decision. Given the agency’s limited resources, the
                                                      fTc directs much of its attention and resources to
                                                      certain segments of the economy that are particularly
                                                      important to consumers and in which it has particular
                                                      expertise. These include health care, pharmaceuticals,
                                                      energy, real estate, and technology.




                                       T




the FTC, the proposed acquisition would have significantly increased Universal Health’s market power
in these areas, increasing its ability to impose price increases and reducing its incentives to improve
services. To learn more, visit www.ftc.gov/os/caselist/1010142/index.shtm.


                                              fiscal year 2011                                                       69
                      MERGER ACTIVITIES                                           To stop potentially anticompetitive mergers and
                                                                                  practices through law enforcement, the FTC seeks
                      The premerger notification requirements of the              legal remedies under the antitrust laws through federal
                      Hart-Scott-Rodino (HSR) Act provide the FTC with            court action, administrative proceedings, or negotiated
                      an effective starting point for identifying potentially     settlements. For mergers, the most effective and cost
                      anticompetitive mergers, acquisitions, and joint ventures   efficient strategy has been to prevent anticompetitive
                      (collectively referred to as mergers) before they are       mergers before they occur. The agency has implemented
                      consummated. The HSR Act requires companies to              this strategy primarily through its authority to seek
                      report certain proposed mergers to the fTc and the          federal court injunctions preventing these transactions.
                      DOJ, which jointly enforce the HSR Act, and wait for a      In many cases, the merging parties elect not to defend a
Performance Section




                      specified period (usually 30 days) to allow for antitrust   court challenge and instead agree to resolve competitive
                      review. The FTC staff examines each transaction to          concerns through a consent agreement. This approach
                      determine whether it poses a threat to competition.         is suitable when the competitive problem relates to only
                      In most cases, a reasonable judgment can be made            a portion of the transaction, such that a divestiture of
                      about whether the merger has the potential to be            assets will be sufficient to preserve or restore competition
                      anticompetitive based on the materials filed with the       while allowing other competitively neutral or beneficial
                      HSR Act notification. In other cases, a formal request      aspects of the merger to go forward. In other instances,
                      for additional information may be issued by the FTC.        the parties may abandon a transaction after assessing the
                      This is referred to as a “second request.” Because the      likely outcome of an the FTC court challenge.
                      parties may consummate a transaction after substantially
                      complying with the second request and waiting for a         When a merger already has been consummated, the
                      short time period (usually 30 days), a second request       fTc generally relies on administrative litigation to
                      investigation typically requires a significant investment   restore competition lost as a result of the merger. While
                      of resources by the FTC. The agency must act quickly        the major Hsr act amendments in 2001 reduced the
                      to gather and review information to make a decision         number of mergers subject to the advance reporting
                      on whether to pursue enforcement action to block a          requirement, they did not change the standard of
                      merger within the timeframe set out by the HSR Act          legality for mergers. Whereas the vast majority of
                      and rules.                                                  potentially problematic mergers continue to be subject
                                                                                  to the revised HSR filing requirements, smaller merger




                                                                                  the ftC Puts
                                                                                  ConDitions on simon
                                                                                  ProPertY grouP’s
                                                                                  aCquisition of Prime
                                                                                  outlets
                                                                           The Federal Trade Commission is requiring
                                                                           Simon Property Group, Inc. to divest property
                                                                           and modify tenant leases as part of a settlementT
                                                                           designed to preserve outlet center competition
                                                                           in parts of southwest Ohio, Chicago, Illinois, and
                          Orlando, Florida, in the wake of Simon’s purchase of Prime Outlets Acquisition Company, LLC.
                          To learn more, visit www.ftc.gov/os/caselist/1010061/index.shtm


    70                                   Federal Trade Commission | Performance and Accountability Report
transactions may still be anticompetitive. Consequently,   systematic and proactive approach to identify specific
the fTc continues to devote attention to the               conduct likely to pose the greatest threat to consumer
identification of unreported, usually consummated,         welfare. The focus continues to be on the types of
mergers that could harm consumers. In FY 2011, the         practices, such as agreements among competitors,
agency successfully challenged one such transaction.       which are most likely to harm consumers.
This effort involves monitoring trade press, industry
sources, and the internet to stay informed of industry     In deploying its enforcement resources, the agency
developments; following up on case leads from              focuses on sectors of the economy, such as health
Congressional offices, other Executive Branch agencies,    care, energy, real estate, or high technology, that have
and state and local governments; and encouraging           a significant impact on consumers’ daily lives. Also,




                                                                                                                      Performance Section
consumers, businesses, and attorneys to notify the FTC     the agency considers the deterrent effects of antitrust
of possible anticompetitive mergers.                       enforcement on businesses and whether the FTC has
                                                           enforcement experience in an area that will enable
NONMERGER ACTIVITIES.                                      the agency to make an impact quickly and efficiently.
                                                           Finally, consideration is given to whether the matter
In the nonmerger area, agency staff reviews complaints     presents an opportunity to contribute positively to the
received from consumers, businesses, Congressional         development of antitrust law.
offices, and elsewhere to identify potentially
anticompetitive nonmerger business practices. In           In nonmerger matters, the FTC seeks to take action
addition, the FTC has pursued a “positive agenda”          against ongoing activity that harms competition. The
of planned initiatives; that is, the agency has taken a



                                            T




    In a settlement taken to preserve competition and protect U.S. consumers from higher health
    care costs, the Federal Trade Commission challenged Grifols S.A.’s proposed acquisition of
    Talecris Biotherapeutics Holdings Corp, a leading plasma-derived drug manufacturer, arguing
    that it would be anticompetitive and would violate federal antitrust laws. In its complaint, the
    FTC alleges that the proposed acquisition would eliminate direct competition for the products
    in three classes of plasma-derived drugs. With fewer competitors in the market, those remaining
    could more easily work together through coordinated interaction to reduce supply and raise
    prices for consumers. The settlement will require Grifols, S.A., a manufacturer of plasma-derived
    drugs, to make significant divestitures as part of a settlement allowing Grifols to acquire a
    leading plasma-derived drug manufacturer.
    To learn more, visit www.ftc.gov/os/caselist/1010153/index.shtm.



                                                   fiscal year 2011                                                      71
                      T
Performance Section




                      In March 2011, the FTC issued the report, The Evolving IP Marketplace: Aligning Patent Notice
                      and Remedies with Competition, which describes how the patent system both supports the
                      trend toward more open innovation and collaboration and deters innovation through the costs
                      imposed by patent assertions entities, sometimes called “patent trolls.” In response to the
                      benefits and problems of the patent system, the report recommends changes to improve the
                      policies governing patent notice (how well a patent informs the public of what technology is
                      protected) and remedies for patent infringement (damages and injunctions). The recommended
                      changes would improve how patent law and competition policy further their common goals of
                      enhancing consumer welfare and promoting innovation. The report is based on eight days of
                      public hearings, public comment and independent research.
                      To learn more, visit www.ftc.gov/bc/workshops/ipmarketplace/.




    72                             Federal Trade Commission | Performance and Accountability Report
precedent and the FTC is seeking to establish a new          Of the remaining measures under this objective, six
legal principle. The FTC also helps consumers and            relate directly to Performance Measure 2.1.1 in that
businesses by bringing cases to clarify, or improve upon,    they measure the impact of the agency’s actions, in
existing precedent.                                          terms of the magnitude of the affected markets and the
                                                             associated consumer benefits, as well as the efficiency
Performance Results                                          with which these same actions were undertaken.
The key performance measure under this objective             Whereas the consumer savings measures are designed
relates to actions taken in a significant percentage of      to assess the ultimate outcome, or impact, of the
substantial merger and nonmerger investigations.             fTc’s actions in protecting consumers and promoting
                                                             vigorous competition, by quantifying the impact of the




                                                                                                                           Performance Section
This translates into obtaining a positive result (i.e.,
litigated victories, consent orders, or abandoned            FTC’s enforcement actions on consumer welfare, the
transactions) in 40 to 60 percent of investigations that     volume of commerce measures are intended to give an
involved a second request or compulsory process, in          indication of the economic significance of the relevant
the case of merger investigations, or which involved at      product markets.
least 150 hours of investigative effort, in the case of
nonmerger investigations.                                    For both merger and nonmerger actions, the FTC
                                                             measures the volume of commerce and estimates
success on this key outcome measure indicates that           consumer savings in markets in which it obtains a
the fTc is effectively screening Hsr reported mergers        positive result as an indicator of the scope of the fTc’s
and nonmerger investigations to identify those that          antitrust enforcement activities. External factors, such
raise significant antitrust issues and warrant further       as level of merger activity, and internal ones, such as
investigation and possible enforcement action, while         the duration of nonmerger investigations, may cause
at the same time permitting deals or conduct that            these results to fluctuate significantly from year to year.
are neutral or beneficial to consumers to proceed            Consequently, the two volume-of-commerce targets
unimpeded. This measure evaluates appropriate                (Performance Measures 2.1.3 and 2.1.6) and the two
investigation, case selection, and resolution, as well as    consumer savings targets (Performance Measures 2.1.2
the crafting of sufficient and effective remedies.           and 2.1.5) are assessed each year by calculating the
                                                             average of current year plus the previous four years.
The target range of 40 to 60 percent set for key             in addition to measuring consumer savings in absolute
Performance Measure 2.1.1 reflects the reality that          terms, the agency uses efficiency measures that state
the fTc conducts substantial merger and nonmerger            the FTC will try to save consumers more than the
investigations when it believes that a merger or             amount of agency resources allocated to the merger
conduct may be anticompetitive, but that not all such        and nonmerger programs (Performance Measures 2.1.4
investigations should lead to an enforcement action or a     and 2.1.7).
positive result. Indeed, the existence of a minimum and
maximum value recognizes the possibility that the fTc        The final measure under this objective addresses
may find itself under- or over-enforcing the competition     the international dimension of the agency’s law
laws, while the magnitude of the spread between these        enforcement efforts by tracking the percentage of cases
two values serves to identify a band within which the        in which the FTC had at least one substantive contact
agency’s performance can be reasonably expected to           with a foreign antitrust authority in which the agencies
vary. From this perspective, setting the range at too        followed consistent analytical approaches and reached
high a level could be detrimental if the effect were to      compatible outcomes.
deter the agency from bringing important, but risky,
cases, while setting the range at too low a level could be
detrimental as well, if the effect were to incentivize the
agency to bring marginal cases.




                                                    fiscal year 2011                                                          73
                           Key MeAsuRe 2.1.1

                      aCtions to maintain ComPetition, inCluDing litigateD viCtories, Consent orDers,
                      aBanDoneD transaCtion remeDies, restruCtureD transaCtion remeDies, or fix-it-
                      first transaCtion remeDies in a signifiCant PerCentage of suBstantial merger anD
                      nonmerger investigations. (outCome measure)



                                                         TarGeT NOT MeT.
Performance Section




                        2013    Target    40.0–60.0%     The agency took action to maintain competition in 14 of the 44
                                                         substantial merger and nonmerger investigations that were closed
                                                         in FY 2011. These 14 actions consist of nine consents, four merger
                                                         transactions that were withdrawn or abandoned as a consequence
                                                         of the antitrust concerns raised during the investigation, and one
                                                         matter won on appeal. This corresponds to 12 merger matters and
                                                         two nonmerger matters. Of the 30 substantial investigations that were
                                                         closed without an action, which includes litigation losses, 14 involved a
                                                         nonmerger matter and 16 a merger matter.
                        2012    Target    40.0–60.0%
                                                         Though the agency did not meet the target in FY 2011, it should be
                                                         noted that in addition to the actions listed above, the Commission also
                                                         obtained a consent in one additional merger investigation and one
                                                         restructured transaction that are excluded from this measure since
                                                         they did not involve the use of compulsory process. (Compulsory
                                                         Process refers to a resolution, or vote, adopted by the Commission that
                                                         authorizes staff to issue subpoenas and civil investigative demands
                                Target    40.0–60.0%     (CIDs); it is the adoption of a Compulsory Process resolution that
                                                         would have made these cases fall under the definition of substantial as
                                                         specified by this measure.)
                                                         In addition, during FY 2011, the Commission issued two administrative
                        2011                             complaints challenging hospital mergers it had reason to believe
                                                         were anticompetitive. Since these matters are still pending before
                                                         an Administrative Law Judge, however, they are excluded from this
                                                         measure, even though they represent a significant investment of
                                actual       31.8%
                                                         agency resources.

                                                         Data Source: Information to identify “actions to maintain competi-
                                                         tion” is obtained from press releases, various agency and Bureau
                                                         databases, and internal communications. Press releases are the
                                                         source of information for public actions, such as consent orders
                                                         and the results of judicial review, while internal databases are used
                                                         to identify those matters that were closed without an action being
                                Target    40.0–60.0%     taken and to determine if an investigation meets the substantiality
                                                         criteria (i.e., if a second request was issued or whether compulsory
                                                         process was authorized for merger investigations, and the number
                                                         of hours that staff logged to a particular investigation for nonmerg-
                        2010                             er investigations).

                                                         1
                                                          This is a correction to results reported in the FY 2010 PAR. The results should have
                                                         been based on 23 out of 58 cases, or 40%. The FY 2010 PAR reports actuals on 22
                                actual      40.0%1
                                                         of 57 cases, or 39%.




    74                             Federal Trade Commission | Performance and Accountability Report
p




2013   Target   $500.0
                            TarGeT exceeded.
2012   Target   $500.0      IIn FY 2011, the FTC exceeded the target, saving consumers
                            an estimated $531.5 million, as calculated using the average
                            consumer savings for the current fiscal year and the
       Target   $500.0




                                                                                           Performance Section
                            previous four years.
2011
       actual   $531.5      Data Source: Estimates of consumer savings associated
                            with merger actions are prepared by the lead attorney
       Target   $500.0      responsible for an individual investigation, and subse-
2010                        quently subject to review by staff economists. In the
                            absence of case specific information (such as price and
       actual   $586.0
                            sales data), the estimate is generated using the volume
                            of commerce in the affected markets as a basis for the
       Target   $500.0      calculation.
2009
       actual   $791.0


       Target   $500.0
2008
       actual   $360.0


       Target   $500.0
2007
       actual   $805.0


       Target    n/a
2006
       actual    n/a




                         fiscal year 2011                                                     75
                      PeRFoRMAnCe MeAsuRe 2.1.3

                      aCtions against mergers liKelY to harm ComPetition in marKets with a total of
                      at least $25 Billion in sales. (outCome measure - numBers shown in Billions.)

                       2013   Target        $25.0
                                                      TarGeT NOT MeT.
                       2012   Target        $25.0     The FTC’s positive merger results affected markets in which the total estimated
                                                      volume of commerce was approximately $22.7 billion, or 90.8% of the
                                                      annual target, as calculated using the average of the current fiscal volume of
                              Target        $25.0
Performance Section




                                                      commerce year and the previous four years. During FY 2011, the FTC obtained
                       2011                           positive results in 12 merger matters, resulting in eight consent agreements,
                              actual        $22.7     and four transactions that were abandoned based on the antitrust concerns
                                                      raised by staff during the course of the investigation. In the case of consent
                              Target        $25.0     agreements, the actions taken by the FTC consist primarily of structural
                                                      remedies, accompanied in some cases by conditions restricting the future
                       2010                           conduct of the merged entity. In all eight consent agreements in FY 2011,
                              actual        $22.5     the parties agreed to divest certain crucial assets to resolve the competitive
                                                      concerns raised by the Commission.
                              Target        $25.0
                                                      Although the agency did not meet the target in FY 2011, as in the case of
                       2009                           Performance Measure 2.1.1, it should be noted that there were two additional
                              actual        $22.3     merger investigations, which were resolved with a consent or a restructured
                                                      transaction, but are excluded from this measure because they did not involve
                              Target        $25.0     the use of compulsory process.

                       2008                           Data Source: Estimates of the volume of commerce associated with merg-
                              actual        $14.9     er actions are prepared by the lead attorney responsible for an individual
                                                      investigation, and subsequently subject to review by staff economists.
                              Target        $25.0     The estimate is generated using the volume of commerce for the affected
                       2007                           markets using public sources and confidential data submitted by the par-
                              actual        $42.6
                                                      ties during the course of the investigations.


                              Target        $40.0
                       2006
                              actual        $13.4




    76                                 Federal Trade Commission | Performance and Accountability Report
p




2013   Target   600.0%
                           TarGeT exceeded.
2012   Target   600.0%     During FY 2011, the agency saved consumers approximately 14 times the amount
                           of resources devoted to the merger program, as calculated using the five-year
       Target   600.0%     average consumer savings obtained under Performance Measure 2.1.2 ($531.5




                                                                                                                Performance Section
                           million) divided into the amount of resources used in the current fiscal year.
2011                       This result is in large part determined by the presence of several enforcement
       actual   1,417.3%   actions over the last four years in the pharmaceutical industry, which involved
                           significantly sized relevant product markets.
       Target   600.0%     Due to the extent by which the FTC exceeded this target in FY 2011 and prior
2010                       years, the agency reevaluated the target and plans to update the performance
       actual   1,670.0%   plan, significantly increasing the target for FY 2012 and the following two years.
                           The FTC’s FY 2012 PAR will contain the updated targets.
       Target   600.0%
                           Data Source: The ratio of consumer savings in merger actions to the amount
2009                       of resources allocated to the merger program is calculated using data on
       actual   2,132.0%   consumer savings obtained under Performance Measure 2.1.2, divided into
                           the amount of monetary resources expended on the merger program as
       Target   600.0%     reported by the FTC’s Financial Management Office.
2008
       actual   1,121.0%


       Target   600.0%
2007
       actual   2,500.0%


       Target     n/a
2006
       actual     n/a




                                          fiscal year 2011                                                         77
                      p




                      2013   Target       $80.0
                                                    TarGeT exceeded.
                      2012   Target       $80.0     In FY 2011, the FTC obtained estimated savings to consumers of approximately
Performance Section



                                                    $444.9 million, as calculated using the average consumer savings of the current
                             Target       $80.0     fiscal year and the previous four years.

                      2011                          The reason that the agency has exceeded the target by such a margin is in
                             actual      $444.9     large part attributable to one particular case, which involved Intel Corporation,
                                                    the world’s leading computer chip maker, who was charged with illegally using
                                                    its dominant market position for a decade to stifle competition and strengthen
                             Target       $80.0     its monopoly. Because of how this measure is calculated, this particular case
                      2010                          will continue to influence the performance results under this measure for the
                             actual      $508.0     next three fiscal years. Due to this situation, the agency reevaluated the target
                                                    and plans to update the performance plan, significantly increasing the target
                                                    for FY 2012 and the following two years. The FTC’s FY 2012 PAR will contain the
                             Target       $80.0
                                                    updated targets.
                      2009
                             actual       $188.0    Data Source: Estimates of consumer savings associated with nonmerger
                                                    actions are prepared by the lead attorney responsible for an individual
                             Target       $80.0     investigation, and subsequently subject to review by staff economists. In
                                                    the absence of case specific information (such as price and sales data), the
                      2008
                                                    estimate is generated using the volume of commerce in the affected
                             actual       $28.0
                                                    markets as a basis for the calculation.

                             Target       $80.0
                      2007
                             actual       $75.0


                             Target        n/a
                      2006
                             actual        n/a




    78                                Federal Trade Commission | Performance and Accountability Report
p




2013   Target   $8.0
                           TarGeT exceeded.
2012   Target   $8.0       The FTC’s positive nonmerger results affected markets
                           in which the total estimated volume of commerce was
       Target   $8.0       approximately $11.6 billion, almost 1.5 times the targeted




                                                                                          Performance Section
                           amount, as calculated using the volume of commerce of the
2011                       current fiscal year and the previous four years. During FY
       actual   $11.6      2011, the FTC obtained positive results in two nonmerger
                           matters.
       Target   $8.0       As mentioned under Performance Measure 2.1.5, the reason
2010                       that the agency has exceeded the target by such a margin
       actual   $11.7      is in large part attributable to one particular case, which
                           involved Intel Corporation.
       Target   $8.0       Because of how this measure is calculated, this particular
2009                       case will continue to influence the performance results
       actual   $14.6      under this measure for the next three fiscal years. Due to
                           this situation, the agency reevaluated the target and plans
                           to update the performance plan, significantly increasing the
       Target   $8.0       target for FY 2012 and the following two years. The FTC’s
2008                       FY 2012 PAR will contain the updated targets.
       actual   $0.4
                           Data Source: Estimates of the volume of commerce as-
                           sociated with nonmerger actions are prepared by the
       Target   $8.0
                           lead attorney responsible for an individual investigation,
2007                       and subsequently subject to review by staff economists.
       actual   $2.6       The estimate is generated using the volume of com-
                           merce for the affected markets using public sources and
       Target   $20.0      confidential data submitted by the parties during the
                           course of the investigations.
2006
       actual   $1.4




                        fiscal year 2011                                                     79
                      performance                 2013      Target    400.0%
                      Measure 2.1.7                                              TarGeT exceeded.
                                                  2012      Target    400.0%     During FY 2011, the agency saved consumers
                      Consumer savings of                                        approximately 19 times the amount of
                                                                                 resources it devoted to the nonmerger
                      at least four times                  Target     400.0%
                                                                                 enforcement program. This is largely
                      the amount of FTC           2011                           attributable to the consumer savings from
                                                           actual     1,917.7%   one particular case from FY 2010 involving
                      resources allocated
                                                                                 Intel Corporation.
                      to the nonmerger                     Target     400.0%     Because this particular case will continue to
                      program. (Efficiency        2010                           influence the performance results under this
Performance Section




                      Measure)                             actual    2,418.0%    measure for the next three fiscal years, the
                                                                                 agency reevaluated the target and plans to
                                                                                 update the performance plan, significantly
                                                           Target     400.0%
                                                                                 increasing the target for FY 2012 and the
                                                  2009                           following two years. The FTC’s FY 2012 PAR
                                                           actual    1,035.0%    will contain the updated targets.

                                                           Target     400.0%     Data Source: The ratio of consumer sav-
                                                                                 ings in nonmerger enforcement actions
                                                  2008                           to the amount of resources allocated to
                                                           actual     164.0%     the merger program is calculated using
                                                                                 data on the five-year average consumer
                                                           Target     400.0%     savings obtained under Performance
                                                  2007                           Measure 2.1.5 ($444.9 million), divided
                                                           actual     424.0%     into the amount of monetary resources
                                                                                 expended on the nonmerger program
                                                                                 as reported by the FTC’s Financial
                                                           Target      n/a       Management Office.
                                                  2006
                                                           actual      n/a




                      performance
                      Measure 2.1.8               2013      Target     90.0%
                                                                                 TarGeT exceeded.
                                                                                 In FY 2011, the agency had almost 50
                      The percentage of cases                                    substantive contacts with counterpart
                                                  2012      Target     90.0%     agencies around the world including in
                      in which the FTC had                                       Australia, Canada, China, Germany, Spain,
                      at least one substantive                                   France and Turkey. The agency obtained
                                                                                 compatible outcomes in the 12 cases that
                      contact with a foreign               Target     90.0%      were completed within the fiscal year. While
                      antitrust authority                                        the agency will continue to strive for 100%
                                                  2011                           success, the target reflects the possibility of
                      in which the agencies
                                                                                 inconsistent outcomes, particularly as new
                      followed consistent                  actual     100.0%
                                                                                 antitrust agencies come on line. However,
                      analytical approaches                                      at this time the FTC believes that the target
                                                                                 remains appropriate.
                      and reached
                                                           Target     90.0%
                      compatible outcomes.                                       Data Source: Information on the interna-
                      (Outcome Measure)           2010                           tional activities of the FTC is produced
                                                                                 by the agency’s Office of International
                                                           actual     100.0%     Affairs.




    80                             Federal Trade Commission | Performance and Accountability Report
Ob         As a complement to the FTC enforcement activity, the
           agency also advises, when asked, other federal and state
           government officials about the possible effects that
           various regulatory and legislative proposals may have
           in creating, maintaining, or forestalling competitive
           markets. The FTC has a long and distinguished history
           in this area. The FTC advocates market-based solutions
           through the publication of studies and reports,
           and participation in state and federal legislative and
           regulatory fora.




                                                                       Performance Section
           The agency also participates as an amicus curiae
           (friend of the court) in judicial proceedings when
           substantial questions of antitrust law or competition
           policy are involved, especially when the FTC may add a
           different perspective to the deliberations because of its
           specialized knowledge or experience.

           Finally, in an effort to continue educating consumers
           and businesses on the important role of competition
           in providing the most valuable and efficient mix of
           price, choice, and innovation, the FTC continues to
           publish reference and case-related documents. Another
           way the FTC achieves this goal is to improve how
           topical information, case materials, and reference
           documents are organized on its web site in an effort
           to aid visitors in searching for and finding relevant
           information and to continuously update the growing
           body of reference material.

           Performance Results
           The fTc uses one measure to assess its performance in
           preventing consumer injury through education. The key
           measure (Performance Measure 2.2.1) tracks the volume
           of traffic on the FTC website on antitrust-related
           pages that are relevant to policymakers, the business
           and legal communities, and the public at large. This
           performance measure is an indicator of the flow of
           information provided to the public. Successful outreach
           and education efforts, as reflected by this measure,
           will help consumers, because increased knowledge and
           understanding of the antitrust laws will help businesses
           stay in compliance. This measure also will help ensure
           that the agency engages in consumer, business, and
           international education that advances the culture of
           competition, which enhances consumer welfare.




     fiscal year 2011                                                     81
                      The results of this measure indicate a significant
                      continued public interest in the fTc and its maintain
                      Competition strategic goal. In addition, the broad
                      and increasing distribution of educational and policy
                      materials through electronic channels represents
                      important leveraging of the agency’s resources.



                              Key MeAsuRe 2.2.1
Performance Section




                      ComPetition resourCes aCCesseD via the ftC’s weBsite. (outPut measure -
                      numBers shown in millions.)


                            2013              Target             10.0
                                                                              TarGeT exceeded.
                            2012              Target             10.0         During FY 2011, the agency estimates that the hits on the
                                                                              FTC web site’s competition resources number 22.6 million,
                                              Target             10.0         which exceeds the established target by over 100%.

                            2011                                              The target of 10 million was set by the agency in its last
                                              actual            22.6          Strategic Plan, taking into account the new tracking
                                                                              software that the FTC uses to monitor web traffic on its
                                                                              website and by extrapolating from information on traffic
                                              Target             10.0         flows in recent years.
                            2010                                              Notwithstanding that the agency set the target at what it
                                              actual             21.5         considered to be a reasonable level, the amount of traffic
                                                                              registered in FY 2011 and in FY 2010 has climbed to such an
                                              Target             15.0         extent that the agency reevaluated the target and plans to
                                                                              update the performance plan, significantly increasing the
                           2009
                                                                              target for FY 2012 and the following two years. The FTC’s
                                              actual             11.9         FY 2012 PAR will contain the updated targets.

                                              Target             15.0         Data Source: The agency’s web statistics software.
                           2008
                                              actual             12.5


                                              Target             15.0
                           2007
                                              actual             15.7


                                              Target             10.0
                           2006
                                              actual             10.6




    82                                   Federal Trade Commission | Performance and Accountability Report
Ob                                                  strategy to enhance consumer welfare. The agency
                                                    uses the information it develops internally to refine
                                                    the theoretical framework for analyzing competition
                                                    issues and the empirical understanding of industry
                                                    practices, which contributes substantially to an effective
                                                    response to changing marketplace conditions. The
                                                    information gained through this authority, combined
                                                    with the agency’s professional expertise on competition
                                                    issues, also contributes to a better understanding of
                                                    business practices and their competitive and economic




                                                                                                                 Performance Section
                                                    implications by various entities, including the business
                                                    sector, the legal community, other enforcement
                                                    authorities, the judiciary, foreign competition agencies,
                                                    and governmental decision makers and policymakers
                                                    at the federal, state, and local levels. And finally, the
                                                    FTC files comments with federal and state government
                                                    bodies advocating policies that promote the interests
                                                    of consumers and highlight the role of consumer and
                                                    empirical research in their decision making. The FTC
                                                    also files amicus briefs to aid courts’ considerations of
                                                    consumer protection issues.




                                                        T




down.’ In addition to the price of crude oil, by far and away the largest factor in gasoline prices,
the report looks at factors such as how fast retail gas prices adjust to changes in wholesale gas
and crude oil prices; refinery profit margins; and the possible impact of futures speculation. It
also examines the effect of OPEC – a cartel that tries to restrict oil output, and which would be a
criminal conspiracy if it were run by companies rather than countries.”
To learn more, visit www.ftc.gov/opa/2011/09/gasprices.shtm




                                             fiscal year 2011                                                       83
                      Performance Results                                          2.3.4, and 2.3.5, help to ensure that the agency is engaging
                                                                                   in appropriate types and sufficient levels of research,
                      The key measures used to gauge the fTc’s success under       reports, and advocacy and that they are relevant to
                      this objective are the ones relating to conducting public    consumers, policymakers, businesses, and the legal
                      hearings, conferences, and workshops (Performance            community. The target for these measures sets a minimum
                      Measure 2.3.1), issuing reports and studies on competition   level of activity that the agency is expected to achieve.
                      related issues (Performance Measure 2.3.2), and making
                      advocacy filings (Performance Measure 2.3.3). These
                      measures, in conjunction with Performance Measures
Performance Section




                                                                 2013        Target        4
                      k                                                                            TarGeT MeT.
                                                                 2012        Target        4       During FY 2011, the FTC held four
                                                                                                   conferences on competition-related
                                                                             Target        4       topics, including the legal issues raised
                                                                                                   by Accountable Care Organizations
                                                                 2011                              (ACOs) and the legal and policy
                                                                             actual        4       issues relating to intellectual property
                                                                                                   rights and collaboratively set industry
                                                                             Target        4       standards. The workshops on ACOs,
                                                                                                   cohosted with the Centers for
                                                                2010                               Medicare & Medicaid Services and
                                                                             actual        6       the Department of Health and Human
                                                                                                   Services’ Office of Inspector General,
                                                                             Target        4       brought together approximately 450
                                                                                                   participants, including physicians,
                                                                2009                               physician associations, hospitals, health
                                                                             actual        8       systems, payers, consumers, and other
                                                                                                   interested parties. The workshop
                                                                             Target        4       on intellectual property rights and
                                                                                                   standard setting brought together just
                                                                2008                               under 100 attendees between industry
                                                                             actual        5       representatives, trade associations,
                                                                                                   regulators and academicians.
                                                                             Target        4
                                                                                                   Data Source: Information on confer-
                                                                2007
                                                                                                   ences involving significant competi-
                                                                             actual        7
                                                                                                   tion related issues is taken from the
                                                                                                   FTC website (www.ftc.gov/FTC/work-
                                                                             Target       n/a      shops.shtm).
                                                                2006
                                                                             actual       n/a




    84                                   Federal Trade Commission | Performance and Accountability Report
                           2013     Target     8
key Measure 2.3.2                                    TarGeT exceeded.
                           2012     Target     8     In FY 2011, the FTC issued 11 reports
                                                     on competition-related matters, thus
Reports and studies                                  exceeding the annual target. The
                                   Target      8
issued on key                                        reports addressed topics such as the
                           2011                      interaction between the patent system
competition-related                actual      11    and competition policy in fostering
topics. (Output Measure)                             innovation, the impact of authorized
                                   Target      8     generic drugs, trends in the petroleum
                                                     industry, ethanol market concentration,
                           2010




                                                                                               Performance Section
                                                     and oil and gas activities.
                                   actual      9
                                                     Data Source: Information on studies
                                   Target      8     and reports on significant competi-
                                                     tion-related issues is taken from the
                           2009
                                                     FTC website (www.ftc.gov/be/re-
                                   actual     20
                                                     search.shtm and www.ftc.gov/reports/
                                                     index.shtm).
                                   Target      8
                           2008
                                   actual      7


                                   Target      8
                           2007
                                   actual     18


                                   Target     n/a
                           2006
                                   actual     n/a




                                  fiscal year 2011                                                85
                      key Measure 2.3.3                                        2013       Target      6
                                                                                                            TarGeT exceeded.
                                                                                                            In FY 2011, the FTC filed advocacy
                                                                                                            comments and amicus briefs on
                      Advocacy comments                                                                     competition issues such as cooperative
                      and amicus briefs on                                                                  agreements among health care
                                                                                                            providers, mail order pharmacies, and
                      competition issues filed
                                                                                                            the sale of optical goods.
                      with entities including                                  2012       Target      6
                                                                                                            While the agency greatly exceeded the
                      federal and state                                                                     target for filing competition-related
                      legislatures, agencies or                                                             briefs and comments, it did not meet the
Performance Section




                                                                                                            target for filing consumer protection-
                      courts. (Output Measure)                                                              related briefs and comments (see
                                                                                          Target      6     discussion of Performance Measure 1.4.2
                                                                                                            on page 64). These performance results
                                                                                                            highlight the inherent unpredictability
                                                                               2011                         of the types and number of competition
                                                                                                            issues that might arise before federal
                                                                                          actual     16     and state government bodies and
                                                                                                            therefore the types of comments and
                                                                                                            briefs that the agency might file in
                                                                                                            response.
                                                                                                            The agency will continue to monitor the
                                                                                          Target      6     target of this relatively new measure
                                                                                                            and will reassess it after additional
                                                                                                            performance cycles.
                                                                               2010
                                                                                                            Data Source: Internal matter records
                                                                                          actual     17     of advocacy comments and amicus
                                                                                                            briefs filed.




                                                                             Authorized Generic Drugs
                          Authorized Generic Drugs:
                          Short-Term Effects and Long-Term Impact            Impact Competition and
                                                                             Reduce Prices
                                                                             The Federal Trade Commission issued a final report on
                                                                             authorized generic drugs that concludes when pharmaceutical
                                                                             companies introduce an authorized generic version of their
                                                                             brand-name drug, it can reduce both retail and wholesale drug
                                                                             prices. The report also found that authorized generics have a
                                                                             substantial effect on the revenues of competing generic firms.
                                                                             Over the longer term, by lowering expected profits for generic
                                                 Federal Trade Commission
                                                                             competitors, the introduction of an authorized generic could
                                                                             affect a generic drug company’s decision to challenge patents
                                                               August 2011



                                                                             on branded drug products with low sales. To learn more, visit
                                                                             www.ftc.gov/opa/2011/08/genericdrugs.shtm




    86                                       Federal Trade Commission | Performance and Accountability Report
PeRFoRMAnCe
                                      2013      Target    50.0%
MeAsuRe 2.3.4                                                       TarGeT exceeded.
                                                                    The FTC mails advocacy recipients a
the PerCentage of                     2012      Target    50.0%     survey designed to gauge the usefulness
                                                                    of agency advocacy comments and
resPonDents finDing                                                 amicus briefs. “Usefulness” is assessed
the ftC’s aDvoCaCY                              Target    50.0%     by the recipient. The target percentage
                                                                    recognizes that comments critiquing
Comments anD amiCus
                                     2011                           a recipient’s proposed action may not
Briefs “useful.” (outCome                                           be assessed positively. In FY 2011, 5 of
                                                actual    100.0%
measure)                                                            5 survey responses classified the FTC’s




                                                                                                               Performance Section
                                                                    submissions as useful. The agency will
                                                                    continue to monitor the target of this
                                                Target    50.0%     relatively new measure and will reassess
                                                                    it after additional performance cycles.
                                     2010
                                                actual    100.0%    Data Source: A formal written survey
                                                                    distributed to advocacy recipients.




                                                asK what the ftC
                                                woulD Do
                                                  The Bureau of Competition of the Federal Trade
                                                  Commission has developed a guidance document
                                                  for consumers and businesses who are considering
                                                  filing a request for an advisory opinion from the FTC
                                                  or its staff on competition topics. Advisory opinions
                                                  allow requesters to obtain industry guidance where
                                                  a matter involves a substantial or novel question
   of fact or law and there is no clear Commission or court precedent. Under the FTC’s Rules of
   Practice, the FTC or its staff may offer industry guidance in the form of an advisory opinion,
   in response to a request involving a proposed course of conduct. The Rules also explain how
   to request confidential treatment for submitted materials. Advisory opinions serve a public
   informational function, in addition to their value to the requesters. To learn more, visit www.ftc.
   gov/bc/healthcare/industryguide/advop-general.pdf




                                              fiscal year 2011                                                    87
                      PeRFoRMAnCe                      2013      Target      1.7
                      MeAsuRe 2.3.5                                                 TarGeT exceeded.
                                                       2012      Target      1.7    This performance measure relates
                      the volume of traffiC on                                      to the volume of traffic on the FTC’s
                                                                 Target      1.7    web pages that relate to competition
                      www.ftC.gov relating to                                       research, reports, and advocacy. In FY
                      ComPetition researCh,            2011                         2011, approximately 1.8 million visits met
                                                                 actual      1.8    the criteria set by this measure.
                      rePorts, anD aDvoCaCY.
                      (outPut measure –                          Target      1.7    Data Source: The agency’s web statis-
                      numBers shown in                                              tics software.
                                                      2010
Performance Section




                      millions.)                                 actual      2.2


                                                                 Target      1.1
                                                      2009
                                                                 actual      1.6


                                                                 Target      1.1
                                                      2008
                                                                 actual      1.2


                                                                 Target      1.1
                                                      2007
                                                                 actual      1.1


                                                                 Target     n/a
                                                      2006
                                                                 actual     n/a




    88                             Federal Trade Commission | Performance and Accountability Report
Ob                                                               officials to share insights on law enforcement and policy
                                                                 initiatives. The FTC also pursues the development of
                                                                 an international market-based competition model that
                                                                 focuses on the maximization of consumer benefit.
                                                                 The agency influences policy development and
                                                                 implementation by advising multilateral organizations,
                                                                 regional entities, and foreign government agencies
                                                                 through substantive consultations and written
                                                                 comments. And finally, the FTC provides technical
                                                                 assistance to newer competition agencies to enhance




                                                                                                                                  Performance Section
                                                                 their ability to apply sound competition policies.

                                                                 Performance Results
                                                                 The FTC uses two performance measures to assess
                                                                 performance for this objective. Key Measure 2.4.1
                                                                 and Performance Measure 2.4.2 address the scope of
                                                                 our contact with international counterparts and help
                                                                 determine if our efforts are sufficiently broad-based.




                                                        u.s. anD China sign
                                                        historiC memoranDum of
                                                        unDerstanDing
                                                         In July, the FTC, the DOJ, and the three agencies responsible for
                                                         enforcing China’s Antimonopoly Law signed a historic Memorandum
                                                         of Understanding (MOU) to denote a new era of cooperation between
                                                         the antitrust agencies of the United States and China. The MOU
                                                         provides for periodic high-level consultations among all five agencies
                                                         as well as separate communications between individual agencies. “In
                                                         the three years since China’s antimonopoly law came into effect, its
enforcement agencies have risen in prominence and have quickly developed many of the important analytical techniques used
by leading antitrust agencies around the world,” FTC Chairman Jon Leibowitz said. “We look forward to continuing to share
our experiences with China’s enforcement agencies as they confront many of the same challenges in implementing their laws
that other agencies have faced, and we are confident that China will continue to build its agencies and enforcement mechanisms
in positive ways.” The MOU formalizes a robust relationship that has developed between the FTC and the Chinese agencies
since well before the Antimonopoly Law was passed. The FTC has engaged in close policy dialogue with the Chinese agencies,
conducted numerous training workshops for the Chinese agencies since 2007, and recently hosted a staff member from the
Antimonopoly Bureau of the Ministry of Commerce under the FTC’s International Fellows Program.
To learn more, visit www.ftc.gov/opa/2011/07/chinamou.shtm.




                                                       fiscal year 2011                                                              89
                      k                                2013       Target     40     TarGeT exceeded.
                                                                                    In FY 2011, the FTC provided policy
                                                                                    advice to foreign competition
                                                                                    agencies in over 100 instances through
                                                       2012       Target     40     consultations, written submissions, or
                                                                                    comments. The FTC’s policy advice
                                                                                    continues to grow as a result of the
                                                                                    increasing number of jurisdictions
                                                                  Target     40     enforcing competition laws, the
                                                                                    FTC’s participation in international
Performance Section




                                                       2011                         organizations, and the FTC’s growing
                                                                                    engagement with key jurisdictions such
                                                                  actual     112    as China, India, Mexico, and Brazil.
                                                                                    The agency will continue to monitor the
                                                                                    target of this relatively new measure
                                                                                    and will reassess it after additional
                                                                  Target     40     performance cycles.

                                                       2010                         Data Source: Information on the
                                                                                    international activities of the FTC is
                                                                  actual     76     produced by the agency’s Office of
                                                                                    International Affairs.




                      PeRFoRMAnCe
                                                       2013      Target      10
                      MeAsuRe 2.4.2                                                 TarGeT exceeded.
                                                                                    In FY 2011, the FTC conducted 21
                      teChniCal assistanCe                                          technical assistance missions and
                                                       2012      Target      10
                                                                                    hosted six international Fellows. Thirteen
                      ProviDeD to foreign                                           of the technical assistance missions
                      ComPetition authorities.                                      and two international Fellows were
                                                                 Target     10      funded through outside sources such
                      (outPut measure)
                                                                                    as from U.S. Agency for International
                                                       2011                         Development and the U.S. Trade and
                                                                 actual     27      Development Agency.
                                                                                    The agency will continue to monitor
                                                                                    the target of this new measure and will
                                                                 Target     10      reassess it after additional performance
                                                                                    cycles.
                                                      2010
                                                                                    Data Source: Office of International
                                                                 actual     60
                                                                                    Affairs technical assistance calendar.




    90                             Federal Trade Commission | Performance and Accountability Report
ResouRCes utilized—stRAtegiC goAl 2
(dOLLARS SHOWN IN MILLIONS.)
                                    2007            2008           2009            2010            2011

 Full-Time Equivalents               489             502            509             512            522


 Obligations                         $94             $103           $113            $123           $125




                                                                                                              Performance Section
 Net Cost                            ($47)            $2            $68             $43            $37


Note: Differences between these obligations and net costs and the financial statements are due to rounding.




                                               fiscal year 2011                                                  91
                                                         Ob
                      S
Performance Section




    92                Federal Trade Commission | Performance and Accountability Report
O         Performance Results
          Two performance measures, Performance Measure
          3.1.1 and Performance Measure 3.1.2, are used to
          gauge achievement of this objective. These measures
          are based on results from the federal employee
          Viewpoint Survey administered by the U.S. Office of
          Personnel Management. The survey focuses on federal
          employees’ perceptions of critical areas of their work
          life and workforce management, and measures factors




                                                                    Performance Section
          that influence whether employees want to join, stay,
          and help their agency meet its mission. In FY 2011,
          the FTC had a response rate of 59 percent (597 of
          1,012 employees responded) and continues to rank
          in the top tier of the 37 agencies surveyed that have
          more than 1,000 full-time employees. The survey
          includes 84 questions that measure how effectively
          agencies manage their workforces. The FTC ranked
          second of 37 agencies in Leadership and Knowledge
          Management, Results-Oriented Performance Culture,
          and Talent Management, and fifth of 37 agencies in Job
          Satisfaction. The FTC was at least five points higher
          than the government-wide average on 59 of the 84
          questions, and did not fall more than five points below
          the government-wide average on any question.




    fiscal year 2011                                                   93
                      PeRFoRMAnCe MeAsuRe 3.1.1

                      the extent emPloYees Believe their organizational Culture Promotes
                      imProvement in ProCesses, ProDuCts anD serviCes, anD organizational outComes.
                      (outCome measure)

                                             Exceed the government-wide
                                             results on the Federal Human       TarGeT MeT.
                         2013     Target
                                            Capital Survey’s Results-Oriented
                                              Performance Culture Index         The government-wide results were 54% and
Performance Section



                                                                                the FTC received 66%.

                                             Exceed the government-wide         Compared to 37 other departments and
                                             results on the Federal Human       agencies with more than 1,000 full-time
                         2012     Target
                                            Capital Survey’s Results-Oriented   employees, the FTC took second place in
                                              Performance Culture Index         Leadership and Knowledge Management and
                                                                                Results-Oriented Performance Culture.
                                             exceed the government-wide
                                                                                Data Source: 2011 Federal Employee
                                              results on the federal human
                                  Target                                        Viewpoint Survey.
                                            Capital survey’s results-oriented
                                               Performance Culture index
                         2011

                                  actual               exceeded



                                             exceed the government-wide
                                              results on the federal human
                                  Target
                                            Capital survey’s results-oriented
                                               Performance Culture index
                         2010

                                  actual               exceeded




    94                             Federal Trade Commission | Performance and Accountability Report
  k




                 Exceed the government-wide results on
2013   Target   the Federal Human Capital Survey’s Talent   TarGeT MeT.
                           Management Index
                                                            The government-wide results were
                                                            60% and the FTC received 70%.
                 Exceed the government-wide results on




                                                                                               Performance Section
2012   Target   the Federal Human Capital Survey’s Talent   Compared to 37 other departments
                           Management Index                 and agencies with more than
                                                            1,000 full-time employees, the
                                                            FTC took second place in Talent
                 exceed the government-wide results on
                                                            Management.
       Target   the federal human Capital survey’s talent
                           management index
                                                            Data Source: 2011 Federal
2011                                                        Employment Viewpoint Survey.
       actual                  exceeded


                 exceed the government-wide results on
       Target   the federal human Capital survey’s talent
                           management index
2010

       actual                  exceeded




Ob                                         E




                                   fiscal year 2011                                               95
                      Performance Results
                      Two performance measures are used to gauge achievement          In FY 2011, FEMA added more in-depth measurements
                      of this objective. First, the FTC uses FEMA’s annual            of the inner workings of the agencies COOP program
                      testing of COOP programs. The testing is captured as            and this year’s “table top” exercise, e.g., a condensed
                      Performance Measure 3.2.1 and includes participation in         exercise, for all agencies was used to benchmark these
                      the federal Executive Branch continuity alert, notification,    new measurements. Most of these new measurements
                      and deployment procedures as well as interagency                will be included in the full response exercise planned for
                      communications. The agency also annually reviews its            FY 2012. The FTC has plans in place to address the new
                      continuity capability, as well as its ability to identify and   measurements.
Performance Section




                      prioritize essential functions and conduct operations from
                      pre-planned alternate locations. Specifically, this measure     A second Performance Measure, Key Measure 3.2.2,
                      represents performance in a series of exercises known as        assesses performance of this objective by collecting and
                      “Eagle Horizon.” The exercises allow the Executive Branch       tracking the availability of key information technology
                      to implement integrated, overlapping national continuity        applications, systems, and components. By tracking
                      concepts in order to ensure the preservation of our             unplanned outage periods, the agency monitors the
                      government and the continuing performance of essential          reliability and availability of almost 30 critical information
                      functions. These services provided by the government at         technology services including: email, the FTC-specific
                      all levels and the private sector affect the everyday lives     and custom applications and systems, BlackBerry servers,
                      of citizens and customers. The FTC’s target is based on         Internet/Intranet, telecommunications (includes phone
                      prior performance and the target of 75 percent represents       and voicemail services), Wide Area Network, the agency’s
                      management’s commitment to reaching a realistic yet             website (www.ftc.gov), Secure Access for Employees, and
                      ambitious milestone.                                            enterprise-wide customer applications.




                      k




                         2013       Target       75.0%
                                                            TarGeT MeT.
                         2012       Target       75.0%     The FTC’s grade of 75% for the Eagle Horizon program compared to last year
                                                           reflects the agency’s mixed response to new requirements implemented at the
                                                           conclusion of last year’s test. One of these new requirements involves moving
                                    Target      75.0%
                                                           much of the FTC network processes to an offsite computer facility. This disaster
                         2011                              recovery related effort is intended to ensure the agency’s continued support of
                                    actual      75.0%      the American consumer despite the availability of a specific building. To address
                                                           this requirement, the agency will continue to look at possible cloud computing
                                    Target      75.0%      options that will meet disaster recovery needs specific to the FTC.

                        2010                               Data Source: FEMA’s Continuity Evaluation Tool.
                                    actual      85.0%




    96                                     Federal Trade Commission | Performance and Accountability Report
k                                           2013          Target        99.5%      TarGeT MeT.
                                                                                   The FTC’s information technology
                                                                                   services pool averaged 99.82%
                                                                                   availability, exceeding the target of
                                                                                   98.50%. The primary reason for the
                                            2012          Target        99.0%      increase in uptime is a recent shift from
                                                                                   older equipment to new virtual machines
                                                                                   and centralized storage. The completion
                                                                                   of the OCIO’s Data Center Initiative and
                                                                                   the implementation of other planned




                                                                                                                                           Performance Section
                                                          Target       98.50%      infrastructure upgrades during FY 2012
                                                                                   will improve system availability even
                                                                                   further. OCIO will continue to replace
                                            2011                                   outdated hardware and software, which
                                                                                   has reached the end of its lifecycle, with
                                                                                   new components that will provide high
                                                          actual       99.82%      availability and quicker recovery.
                                                                                   Note: Results for this performance
                                                                                   measure are presented to two decimals
                                                                                   because rounding the number materially
                                                                                   changes the result.
                                                          Target       98.00%
                                                                                   Data Source: OCIO’s Monthly System
                                                                                   Availability Report.
                                           2010
                                                                                    1
                                                                                     This is a correction to the results reported in the
                                                                                   FY 2010 PAR, which showed the results for the
                                                          actual       99.77%1     final quarter of the fiscal year, or 99.86%, and
                                                                                   not cumulative results.




oBjeCtive 3.3: ProviDe effeCtive                                   to create, maintain, and dispose of agency records
information resourCes management.                                  electronically. It will enable the FTC to concentrate on
                                                                   managing information rather than records schedules. As
The agency manages information to enable staff to
                                                                   another step in the transition, the FTC has developed
make thoughtful decisions and perform their work,
                                                                   an electronic recordkeeping certification review
to facilitate appropriate public access, and to protect
                                                                   (ERCR) process that will be used to review the ability
sensitive information from inappropriate access
                                                                   of the fTc’s information systems to house agency
and release.
                                                                   records with authenticity, reliability and integrity for
                                                                   the mandated retention period. During FY 2011, the
our strategy
                                                                   FTC initiated ERCRs of the main public website, www.
The fTc is undergoing a multiyear transition to                    ftc.gov, the Consumer Response Systems and Services
managing information resources in electronic format                (crss) (a collection of online consumer protection
as one of the best means of meeting this objective.                services) and the matter management system 2 (a
As part of this transition, the FTC conducted an                   system that records, tracks, and reports administrative
agencywide inventory of records, including major                   and statistical information on FTC law enforcement and
electronic systems. Based on the inventory, the                    regulatory matters).
agency then developed, finalized and submitted to
the national archives and records administration
(NARA), a comprehensive retention schedule that,
when NARA approves it, will authorize the FTC




                                                     fiscal year 2011                                                                         97
                      In addition, as part of effective information resources     Performance Results
                      management, the FTC is identifying and implementing
                      business process improvements through effective use         One performance measure, Performance Measure 3.3.1,
                      of technology. For example, the FTC developed and is        is used to gauge success of this objective. This key
                      using a web based e-filing system for public filings in     performance measure is the percentage of Commission-
                      all administrative litigation proceedings under Part 3 of   approved documents in the FTC’s ongoing and newly
                      the FTC Rules of Practice. Designed in the footprint        initiated proceedings available on www.ftc.gov within
                      of systems used by the federal courts, the FTC’s e-filing   15 days of becoming part of the public record. The
                      system enables parties to the agency’s administrative       fTc selected this measure because timely availability of
                      proceedings to file public documents electronically         public documents facilitates public awareness of and
Performance Section




                      rather than in paper format.                                participation in Commission activities. Examples of
                                                                                  documents approved by the commission are federal
                                                                                  register notices in rulemakings and other proceedings
                                                                                  that seek public comments, consent agreements,
                                                                                  complaints and orders in administrative litigation, and
                                                                                  complaints and proposed orders in litigation in the
                                                                                  federal courts.




                                                                 2013       Target    80.0%      TarGeT exceeded.
                      k
                                                                                                  FY 2011, 82% of documents tracked
                                                                                                 under this measure, 250 out of 305,
                                                                                                 were posted to the Internet within 15
                                                                 2012       Target    80.0%
                                                                                                 days of becoming part of the public
                                                                                                 record.
                                                                                                 This year, the performance actual is
                                                                            Target    75.0%      based on comprehensive counts. In FY
                                                                                                 2010, the performance result was an
                                                                2011                             estimate based on samples from the first
                                                                                                 two quarters and actual counts for the
                                                                           actual     82.0%      remaining quarters.
                                                                                                 The target for this performance measure
                                                                                                 will increase starting in FY 2012. The
                                                                                                 FTC plans to obtain at least FY 2012’s
                                                                            Target    75.0%      performance actuals before considering
                                                                                                 whether to adjust the target for FY 2013.
                                                                2010
                                                                                                 Data Source: Internal records from
                                                                                                 the Office of the Secretary and the
                                                                           actual     93.8%
                                                                                                 Records and Filings Office.




    98                                   Federal Trade Commission | Performance and Accountability Report
Ob         offices occur at least once every three years. The
           objective of the reviews is to assist management in
           identifying high risk areas and implement appropriate
           risk management strategies where necessary. In addition,
           the fTc is aligning resources to strategic priorities and
           outcomes to focus the agency on the most important
           tasks and programs and implementing best business
           solutions to accomplish our goals through world-class
           acquisition and business processes.




                                                                         Performance Section
           Performance Results
           Three performance measures that assess internal
           administrative and programmatic operations and
           acquisition procedures are used to gauge the
           achievement of this objective. Performance Measure
           3.4.1 tracks the independent auditor’s financial
           statement audit results, and Key Measure 3.4.2 tracks
           the percentage of bureaus/offices that establish and
           maintain an effective, risk-based internal control
           environment. Strong internal controls over financial
           and business processes are critical to the integrity of the
           data reported through the financial reporting system.
           Performance Measure 3.4.3 monitors performance
           against the small Business administration’s
           governmentwide small business procurement goals.




     fiscal year 2011                                                       99
                      p




                                        Unqualified opinion on the
                      2013   Target
                                          financial statements       TarGeT MeT.
                                                                     The agency received a “clean” opinion on its financial
                                        Unqualified opinion on the   statements. The opinion is determined by the
                      2012   Target
                                          financial statements       independent auditor’s review and tests of internal
                                                                     controls over operations and financial reporting and the
                                        unqualified opinion on the   auditor’s determination that the financial statements and
Performance Section




                             Target                                  notes are fairly presented.
                                          financial statements
                      2011
                                                                     Data Source: Independent auditor’s opinion.
                             actual        unqualified opinion


                                        unqualified opinion on the
                             Target
                                          financial statements
                      2010
                             actual        unqualified opinion




    100                          Federal Trade Commission | Performance and Accountability Report
    2013    Target    100.0%
k                              TarGeT MeT.
    2012    Target    100.0%   The Statements of Assurance (SOA)
                               submitted by the agency’s major
            Target    100.0%   components provide the basis for the
                               measurement of the effectiveness of
    2011                       the FTC’s risk-based internal control
            actual    100.0%   environment.
                               Each component completed
            Target    100.0%   questionnaires specific to its functions
                               that addressed the Government




                                                                          Performance Section
                               Accountability Office’s, “Standards of
                               Internal Control” and other internal
                               documentation supporting the SOA.
                               This information was reviewed by the
                               agency’s internal control management.
                               In addition, the Financial Management
                               Office conducted two additional
    2010                       reviews in accordance with its Internal
            actual    100.0%   Control Review Plan established in FY
                               2010. Based on the SOAs and these
                               internal reviews, this performance
                               measure is met by 100% of the
                               Bureaus/Offices.

                               Data Source: The Statements of
                               Assurance submitted by the agency’s
                               thirteen major components.



p   2013     Target    23.0%
                               TarGeT exceeded.
    2012     Target    23.0%   This measure encompasses contracts
                               to organizations classified as small
             Target    23.0%   businesses in accordance with
                               Federal Acquisition Regulation 19, i.e.,
    2011                       open market procurements. The FY
             actual    46.3%   2011 performance result reflects the
                               agency’s full commitment to utilizing
             Target    23.0%   small businesses wherever possible
                               based on the nature of the acquisition.
                               The agency has not raised the target
                               for this performance measure because
                               the target is established nationwide
    2010                       by the Small Business Administration
             actual    58.9%   without the FTC’s direct input.

                               Data Source: The Federal
                               Procurement Data System—Next
                               Generation




           fiscal year 2011                                                101
Financial Section




   102              Federal Trade Commission | Performance and Accountability Report
                   Financial Section




fiscal year 2011    103
                    MessAge FRoM the ChieF
                    FinAnCiAl oFFiCeR
                    During Fiscal Year (FY) 2011, the Federal Trade            The financial section of this report explains our
                    commission (fTc) upheld its commitment to protect          financial position as of September 30, 2011, and shows
                    consumers and promote competition in a fiscally            how financial resources were used to protect consumers
                    responsible manner. I am pleased to report that FY         and maintain competition, as shown in our performance
                    2011 marks the 15th consecutive year that the FTC has      results. We achieved these results, despite a tight fiscal
Financial Section




                    received an unqualified (clean) opinion on our financial   environment, through the dedicated efforts of our
                    statements. This achievement, along with other notable     talented and committed staff.
                    successes, demonstrates our commitment to effective
                    financial management and to upholding high standards       We remain mindful that we face an increasingly austere
                    of accountability. Other key accomplishments this past     financial future, and will continue to emphasize the
                    fiscal year included:                                      importance of good financial management and cost-
                                                                               saving efforts that enhance operational efficiency. We
                         • returning more than $116 million in redress         look forward with confidence as we continue to achieve
                           funds to victims of fraud and scams following       results for the American consumer.
                           successful prosecution of defendants resulting
                           in court-ordered judgments or settlements.
                         • Receiving, for the fourth consecutive year,
                           the association of Government accountants’
                           Certificate of Excellence in Accountability         Steven A. Fisher
                           Reporting.                                          Chief Financial Officer
                         • Awarding 46 percent of the total “small             November 15, 2011
                           business eligible dollars” to small businesses,
                           which substantially exceeded the Small Business
                           Administration’s Government-wide goal.
                         • continuing our record of no material
                           weaknesses, significant control deficiencies, or
                           nonconformances with the Federal Managers’
                           Financial Integrity Act and other applicable laws
                           and regulations.




   104                                  Federal Trade Commission | Performance and Accountability Report
                   Financial Section




fiscal year 2011    105
Financial Section




   106              Federal Trade Commission | Performance and Accountability Report
                   Financial Section




fiscal year 2011    107
Financial Section




   108              Federal Trade Commission | Performance and Accountability Report
                   Financial Section




fiscal year 2011    109
Financial Section




   110              Federal Trade Commission | Performance and Accountability Report
PRinCiPAl FinAnCiAl stAteMents
FINANCIAL STATEMENT dESCRIPTIONS


A brief description of the five principal financial statements presented on the following pages is provided:

     • Balance sheet – Presents the combined amounts the agency had to use or distribute (assets) versus the
       amounts the agency owed (liabilities), and the difference between the two (net position).
     • Statement of Net Cost – Presents the annual cost of agency operations. The gross cost less any offsetting




                                                                                                                    Financial Section
       revenue is used to determine the net cost.
     • statement of changes in net Position – reports the accounting activities that caused the change in net
       position during the reporting period.
     • Statement of Budgetary Resources – Reports how budgetary resources were made available and the status
       of those resources at fiscal year-end.
     • statement of custodial activity – reports collections and their disposition by the agency on behalf of the
       Treasury General Fund and one other federal agency. The FTC acts as custodian and does not have use of
       these funds.


The accompanying notes to the financial statements describe significant accounting policies as well as detailed
information on select statement lines.




                                                    fiscal year 2011                                                 111
                    FEDE

                    B
                    A
                    (
                                                                                                        2011          2010
                    Assets (Note 2):
                              Intragovernmental:
Financial Section




                                         Fund balance with Treasury (Note 3)                     $ 112,225     $ 109,486
                                         Investments (Note 5)                                        35,443        199,105
                                         Accounts receivable, net (Note 6)                               26            71
                              Total intragovernmental                                                147,694       308,662
                              Cash and other monetary assets (Note 4)                                44,944         21,473
                              Accounts receivable, net (Note 6)                                       11,374        48,189
                              General property and equipment, net (Note 7)                            19,371        18,060
                    Total Assets                                                                 $ 223,383     $ 396,384


                     Liabilities:
                               Intragovernmental:
                                         Accounts payable                                        $      444    $      188
                                         Other (Note 9)                                               1,430         12,574
                              Total intragovernmental                                                  1,874        12,762
                              Accounts payable                                                        15,416        11,112
                              Accrued redress receivables due to claimants                           11,229         38,170
                              Redress collected but not yet disbursed                                84,190        180,526
                              Divestiture fund due                                                         -        45,523
                              Other (Note 9)                                                          17,478        20,641
                    Total Liabilities (Note 8 and 9)                                             $ 130,187     $ 308,734


                     Net Position (Note 1(o)):
                              Cumulative results of operations - other funds                         93,196         87,650
                    Total Net Position                                                           $ 93,196      $ 87,650
                    Total Liabilities and Net Position                                           $ 223,383     $ 396,384
                    The accompanying notes are an integral part of these statements.




   112                                     Federal Trade Commission | Performance and Accountability Report
FedeRAl tRAde CoMMission

STATEMENT OF NET COST
FOR THE YEARS ENdEd SEPTEMBER 30, 2011 ANd 2010
(dollars shown in thousands)

                                                                              2011        2010
 Costs by Strategic Goal:
          Protect Consumers (PC) Strategic Goal:




                                                                                                  Financial Section
                    Gross costs (Note 12)                                $ 169,334    $ 158,458
                    Less: earned revenue (Note 13)                         (14,233)    (14,426)
          Net PC strategic goal costs                                      155,101     144,032


          Maintain Competition (MC) Strategic Goal:
                    Gross costs (Note 12)                                  129,315     116,642
                    Less: earned revenue (Note 13)                         (91,984)    (73,554)
          Net MC strategic goal costs                                       37,331      43,088
 Net Cost of Operations                                                  $ 192,432    $ 187,120
The accompanying notes are an integral part of these statements.




                                                      fiscal year 2011                             113
                    FedeRAl tRAde CoMMission

                    STATEMENT OF CHANGES IN NET POSITION
                    FOR THE YEARS ENdEd SEPTEMBER 30, 2011 ANd 2010
                    (dollars shown in thousands)

                                                                                                        2011         2010
                     Cumulative Results of Operations:
                              Beginning balance, adjusted                                        $ 87,650      $ 60,391
Financial Section




                              Budgetary financing sources:
                                        Appropriations used                                        186,219      204,673
                              Other financing sources (non-exchange):
                                        Imputed financing                                             11,759         9,706
                              Total financing sources                                              197,978         214,379
                              Less: net cost of operations                                        (192,432)     (187,120)
                              Net change                                                              5,546         27,259
                     Total Cumulative Results of Operations                                      $ 93,196      $ 87,650


                     Unexpended Appropriations:
                              Beginning balance, adjusted                                         $        -   $         -
                              Budgetary financing sources:
                                        Appropriations received                                    186,219      204,673
                                        Less: Appropriations used                                 (186,219)    (204,673)
                              Total budgetary financing sources                                            -             -
                     Total Unexpended Appropriations                                                       -             -
                     Net Position (Note 1(o))                                                     $ 93,196     $ 87,650
                     The accompanying notes are an integral part of these statements.




   114                                     Federal Trade Commission | Performance and Accountability Report
FedeRAl tRAde CoMMission

STATEMENT OF BudGETARY RESOuRCES
FOR THE YEARS ENdEd SEPTEMBER 30, 2011 ANd 2010
(dollars shown in thousands)

                                                                                          2011            2010
 Budgetary Resources:
          Unobligated balance, brought forward, October 1:                           $ 13,128      $     9,783




                                                                                                                  Financial Section
          Recoveries of prior year unpaid obligations
                    Actual                                                               8,231           3,325
          Budget authority:
                    Appropriation                                                      186,219         204,673
                    Spending authority from offsetting collections
                               Earned
                                        Collected                                     106,261           88,050
                                        Change in receivables from Federal sources        (45)             (70)
                               Change in unfilled customer orders
                                        Without advance from Federal sources              (160)           96
          Subtotal budget authority                                                    292,275       292,749
 Total Budgetary Resources                                                           $ 313,634     $ 305,857

 Status of Budgetary Resources:
           Obligations incurred (Note 14):
                    Direct                                                           $ 292,146     $ 291,742
                    Reimbursable                                                           913           987
                    Subtotal                                                           293,059       292,729
           Unobligated balance:
                    Apportioned                                                         17,882        10,845
                    Not available                                                        2,693         2,283
 Total Status of Budgetary Resources                                                 $ 313,634     $ 305,857

 Change in Obligated Balance:
         Obligated balance, net
                  Unpaid obligations, brought forward, October 1                     $ 90,622      $ 69,086
                    Less: Uncollected customer payments from Federal
                                                                                          (320)           (293)
                    Sources brought forward, October 1
          Total unpaid obligated balance, net                                           90,302        68,793
          Obligations incurred, net (Note 14)                                          293,059       292,729
          Less: Gross outlays                                                         (287,778)     (267,869)
         Less: Recoveries of prior year unpaid obligations, actual                      (8,231)         (3,325)
         Change in uncollected customer payments from Federal sources                      205            (26)
         Obligated balance, net, end of period
                   Unpaid obligations                                                  87,672        90,622
                   Uncollected customer payments from Federal sources                    (115)         (320)
         Total, unpaid obligated balance, net, end of period                         $ 87,557      $ 90,302
 Net Outlays:
         Gross outlays                                                               $ 287,778     $ 267,869
         Less: Offsetting collections                                                 (106,261)      (88,050)
          Less: Distributed offsetting receipts                                         (13,417)      (6,986)
 Net Outlays                                                                         $ 168,100     $ 172,833
The accompanying notes are an integral part of these statements.

                                                          fiscal year 2011                                         115
                    FedeRAl tRAde CoMMission

                    STATEMENT OF CuSTOdIAL ACTIVITY
                    FOR THE YEARS ENdEd SEPTEMBER 30, 2011 ANd 2010
                    (dollars shown in thousands)

                                                                                            PC            MC           2011          2010
                     Revenue Activity (Note 17):
                              Sources of collections:
Financial Section




                                        Premerger filing fees (net of refunds)       $        -    $ 91,424     $ 91,424       $ 72,858
                                        Civil penalties and fines                        23,275             -       23,275         2,097
                                        Redress (Note 18)                                13,177             -        13,177         6,659
                                        Other miscellaneous receipts                       240              -          240           327
                              Total cash collections                                     36,692        91,424       128,116        81,941
                              Accrual adjustments                                        (9,908)            -        (9,908)        9,950
                     Total Custodial Revenue                                         $ 26,784      $ 91,424     $ 118,208      $ 91,891


                     Disposition of Collections (Note 17):
                              Transferred to others:
                                        Treasury general fund                        $ 36,692      $        -   $ 36,692       $ 9,083
                                        Department of Justice                                 -        91,424       91,424         72,858
                              (Decrease)/increase in amounts yet to be transferred       (9,908)            -        (9,908)        9,950
                     Total Disposition of Collections                                $ 26,784      $ 91,424     $ 118,208      $ 91,891
                     Net Custodial Activity                                          $        -    $        -   $         -    $        -
                    The accompanying notes are an integral part of these statements.




   116                                    Federal Trade Commission | Performance and Accountability Report
N




(a) REPORTING ENTITY                                      are primarily comprised of proceeds derived from court
                                                          ordered judgments and settlements held for subsequent
The federal Trade commission (fTc) is an                  distribution to approved claimants. These funds are




                                                                                                                       Financial Section
independent United States Government agency,              considered non-entity and are reported as such on the
established by the federal Trade commission act of        Balance Sheet.
1914. The FTC enforces a variety of federal antitrust
and consumer protection laws. The agency is headed        (b) FuNd ACCOuNTING STRuCTuRE
by five Commissioners, nominated by the President
and confirmed by the Senate, each serving a seven-year    The FTC’s financial activities are accounted for using
term. The President chooses one Commissioner to act       various funds (i.e., Treasury Account Symbols (TAS)).
as Chairman. No more than three Commissioners can         They include the following for which the FTC maintains
be of the same political party.                           financial records:
                                                          general funD
The FTC has three major bureaus: The Bureau of
Consumer Protection (BCP), which supports the             Tas 29X0100 consists of a salaries and expense
strategic goal of protecting consumers, the Bureau of     appropriation used to fund agency operations and
Competition (BC), which supports the strategic goal of    capital expenditures. Offsetting collections received
maintaining competition, and the Bureau of Economics      during the year are also recorded in the general fund.
(BE), which supports both bureaus and strategic goals.    (See Note 13 Exchange Revenues.)
Additionally, various Offices provide mission support     DePosit funD
functions and services.
                                                          Tas 29X6013 consists of monies held temporarily by
                                                          the FTC as an agent for others (e.g., redress funds) prior
The majority of FTC staff is located in Washington
                                                          to distribution through the consumer redress program.
DC; however, the FTC’s regions cover seven geographic
areas. The regional offices work with the BCP and         susPense funD
Bc to conduct investigations and litigation; provide      TAS 29F3875 consists of premerger filing fees collected
advice to state and local officials on the competitive    by the FTC under the Hart-Scott-Rodino (HSR)
implications of proposed actions; recommend cases;        antitrust improvement act of 1976 that are distributed
provide local outreach services to consumers and          equally to the FTC as a funding source and to the
business persons; and coordinate activities with local,   Department of Justice (DOJ). (See Note 1(P) Revenues
state, and regional authorities. The regional offices     and Other Financing Sources).
frequently sponsor conferences for small businesses,
local authorities, and consumer groups.                   misCellaneous reCeiPt aCCounts
                                                          TAS 29 1040 and TAS 29 3220 consist of civil penalties,
The financial statements and notes include the            redress disgorgements to the department of the
accounts of all funds under the FTC’s control. As         Treasury (Treasury) and other miscellaneous receipts
further described throughout these notes, in addition     that by law are not retained by the FTC. Cash balances
to appropriations received for salaries and necessary     are automatically transferred to the general fund of the
expenses, the FTC maintains control over funds that       Treasury at the end of each fiscal year.




                                                   fiscal year 2011                                                     117
                    (c) BASIS OF ACCOuNTING ANd                                  (f) ENTITY/NON-ENTITY ASSETS
                    PRESENTATION
                                                                                 assets that an agency is authorized to use in its
                    The accompanying financial statements present the            operations are entity assets. Assets that an agency
                    financial position, net cost of operations, changes in net   holds on behalf of another federal agency or a third
                    position, budgetary resources, and custodial activities      party and are not available for the agency’s use are
                    of the FTC. As noted above, the FTC maintains a              non-entity assets.
                    single fund to account for salaries and all necessary
                    expenses. Further, there are no intra-entity transactions    (g) FuNd BALANCE WITH TREASuRY
                    with any other fund (e.g., deposit fund) that would
Financial Section



                                                                                 The FTC’s Fund Balance with Treasury (FBWT) includes
                    require eliminating entries to present consolidated
                                                                                 appropriated funds, deposit funds for subsequent
                    statements. Accordingly, the statements are not labeled
                                                                                 disbursement to claimants, and premerger filing fees
                    consolidated nor is the statement of Budgetary
                                                                                 awaiting disbursement to the DOJ. Funds are carried
                    Resources (SBR) presented as combined. The financial
                                                                                 forward until such time as goods or services are received
                    statements have been prepared from the accounting
                                                                                 and payment is made. All cash receipts are deposited with
                    records of the FTC on an accrual basis, in conformity
                                                                                 the Treasury and all disbursements for payroll and vendor
                    with generally accepted accounting principles (GAAP)
                                                                                 invoices are disbursed by the Treasury.
                    of the United States of America and with the form
                    and content of financial statements specified by the
                    Office of Management and Budget (OMB) Circular               (h) CASH ANd OTHER
                    A-136, Financial Reporting Requirements (as revised          MONETARY ASSETS
                    October 2011). GAAP for federal entities incorporate         The fTc’s consumer redress agents process claims and
                    the standards prescribed by the federal accounting           disburse redress proceeds to approved claimants. Upon
                    Standards Advisory Board (FASAB).                            approval of the redress office, amounts necessary to
                                                                                 cover current disbursement schedules are held as cash
                    (d) uSE OF ESTIMATES                                         in interest bearing accounts. These funds are considered
                    The preparation of financial statements in conformity        non-entity assets and are reported on the Balance Sheet
                    with GAAP requires management to make estimates              along with an offsetting non-entity liability.
                    and assumptions that affect the reported amounts
                    of assets and liabilities at the date of the financial       (i) INVESTMENTS
                    statements and the reported amounts of revenues and          In protecting consumers, the FTC collects proceeds
                    expenses during the reporting period. Actual results         from defendants in accordance with court ordered
                    could differ from those estimates.                           judgments and settlement agreements for consumer
                                                                                 redress and holds these proceeds in the deposit fund
                    (e) BudGET AuTHORITY                                         (TAS 29X6013) established with the Treasury. Under
                    congress passes appropriations annually that provide         an agreement with the Treasury, the portion of such
                    the FTC with authority to obligate funds for necessary       judgments and settlements that are not immediately
                    expenses to carry out mandated program activities.           needed for cash disbursements are invested in Treasury
                    These funds are available until expended, subject to         securities. These investments are considered non-entity
                    omB apportionment and to congressional restrictions          assets and are reported on the Balance Sheet along with
                    on the expenditure of funds. In addition, the FTC            an offsetting non-entity liability.
                    places internal restrictions on fund expenditures
                    to ensure the efficient and proper use of all funds.
                    appropriated funding is derived from various revenues
                    and financing sources. The SBR reflects the single
                    general fund (i.e. TAS 29X0100) for which the FTC has
                    budget authority.

   118                                  Federal Trade Commission | Performance and Accountability Report
(j) ACCOuNTS RECEIVABLE, NET                                CSRS Retirement and Disability Fund. For employees
entity accounts receivable consist of amounts due           participating in FERS, the FTC contributes 11.2 percent
from other federal entities and from current and            to the Federal Employees’ Retirement Fund. Employees
former employees and vendors. Non-entity accounts           participating in fers are covered under the federal
receivable include uncollected civil monetary penalties     Insurance Contributions Act (FICA) for which the FTC
imposed as a result of the fTc’s enforcement activities     contributes a matching amount to the social security
and uncollected redress judgments. These non-entity         Administration. FTC contributions are recognized as
accounts receivable are reported on the Balance sheet       current operating expenses.
along with an offsetting non-entity liability. Gross
receivables are reduced to net realizable value by an       The Thrift Savings Plan (TSP) is a defined contribution




                                                                                                                       Financial Section
allowance for uncollectible accounts. (See Note 6           retirement savings and investment plan for employees
Accounts Receivable, Net.)                                  covered by either CSRS or FERS. Participating
                                                            employees may contribute any dollar amount or
(k) ACCRuEd LIABILITIES ANd                                 percentage of basic salary to TSP, not to exceed an
ACCOuNTS PAYABLE                                            annual dollar amount of $16,500 for 2011. CSRS
                                                            participating employees do not receive a matching
accrued liabilities and accounts payable represent a
                                                            contribution from the FTC. FERS employees receive
probable future outflow or other sacrifices of resources
                                                            an agency automatic one percent contribution of gross
as a result of past transactions or events. Liabilities
                                                            pay to the TSP. The FTC also matches 100 percent
are recognized when they are incurred, regardless
                                                            of the first three percent contributed and 50 percent
of whether they are covered by budgetary resources.
                                                            of the next two percent contributed. Such the FTC
Liabilities cannot be liquidated without legislation
                                                            contributions are recognized as current operating
that provides the resources to do so. In addition,
                                                            expenses.
the government, acting in its sovereign capacity, can
abrogate the FTC liabilities (other than contracts). (See
                                                            although the fTc contributes a portion for pension
note 8 liabilities not covered by Budgetary resources
                                                            benefits and makes the necessary payroll withholdings,
and Note 9 Other Liabilities.)
                                                            it is not responsible for managing contribution refunds,
                                                            employee’s retirement benefits, or the retirement
(l) EMPLOYEE HEALTH BENEFITS ANd                            plan assets. Therefore, the FTC financial statements
LIFE INSuRANCE                                              do not report CSRS and FERS assets, accumulated
fTc employees are eligible to participate in the            plan benefits, or unfunded liabilities, if any, which
contributory Federal Employees Health Benefit               may be applicable to employees. Such reporting is the
Program (feHBP) and the federal employees                   responsibility of the Office of Personnel Management
Group Life Insurance Program (FEGLIP). The FTC              (OPM). However, the FTC recognizes the full cost of
contributes a percentage to each program to pay for         providing future pension benefits to covered employees
current benefits.                                           at the time the employees’ services are rendered. OPM
                                                            has provided the FTC with certain cost factors that
(m) EMPLOYEE RETIREMENT BENEFITS                            estimate the true service cost of providing the pension
fTc employees participate in either the civil service       benefits to covered employees. During FYs 2011 and
retirement system (csrs) or the federal employees           2010, the cost factor used to arrive at the service cost
Retirement System (FERS). Employees hired after             for CSRS covered employees was 30.1 percent of basic
December 31, 1983, are covered by FERS and Social           pay. During FYs 2011 and 2010, the cost factor for
Security, while employees hired prior to January 1, 1984,   FERS covered employees was 13.8 percent of basic
may elect to either join FERS or remain in CSRS. For        pay. The pension expense recognized in the financial
employees participating in CSRS, the FTC contributes        statements equals this service cost to covered employees
seven percent of the employee’s gross earnings to the       less amounts contributed by these employees. If the




                                                    fiscal year 2011                                                    119
                    pension expense exceeds the amount contributed               Implementation Act, and amounts received for services
                    by the FTC as employer, the excess is recognized as          performed under reimbursable agreements with other
                    an imputed financing cost. The excess total pension          federal agencies. All of the FTC’s offsetting collections
                    expense over the amount contributed by the agency            are exchange revenues. (See Note 13 Exchange
                    must be financed by OPM and is recognized as an              Revenues.)
                    imputed financing source on the records of the FTC.
                                                                                 In addition to exchange revenue, the FTC receives
                    (n) OTHER POST-EMPLOYMENT BENEFITS                           funding through a direct appropriation from the general
                    The fTc employees eligible to participate in the             fund of the Treasury to support its operations. The
                    feHBP and the feGliP may continue to participate             direct appropriation represented approximately 59
Financial Section




                    in these programs after their retirement. The OPM has        percent of total budgetary resources in fy 2011 and 67
                    provided the FTC with certain cost factors that estimate     percent in FY 2010.
                    the true cost of providing the post-retirement benefit
                    to current employees. The FTC recognizes a current           (q) METHOdOLOGY FOR ASSIGNING
                    cost for these and Other Retirement Benefits (ORB)           COSTS ANd ExCHANGE REVENuES
                    at the time the employee’s services are rendered. The        Total net costs are allocated to the protect consumers
                    ORB expense is financed by OPM, and offset by the            strategic goal and the maintain competition strategic
                    FTC through the recognition of an imputed financing          goal. (See Statement of Net Cost.) Costs and exchange
                    source. During FYs ended 2011 and 2010, the cost             revenues that are identified specifically with each of
                    factors relating to FEHBP were $6,027 and $5,906,            these two strategic goals are charged or credited directly.
                    respectively, per employee enrolled. During FYs 2011         Other costs not directly attributable to these two goals
                    and 2010, the cost factor relating to FEGLIP was 0.02        are allocated based on the percentage of direct full-
                    percent of basic pay per employee enrolled.                  time equivalents used by each of these two goals. These
                                                                                 other indirect costs include costs related to the advance
                    (o) NET POSITION                                             performance strategic goal.
                    cumulative results of operations represent the net results
                    of operations since inception, the cumulative amount of
                    prior period adjustments, the remaining book value of
                    capitalized assets, and future funding requirements.

                    The portion of the fTc’s budget authority that is funded
                    by a direct appropriation is fully expended during the
                    year. Therefore, there is no unexpended appropriation
                    balance in net position at the end of the year. (See
                    Statement of Changes in Net Position.)

                    (p) REVENuES ANd OTHER
                    FINANCING SOuRCES
                    The fTc’s funding is derived from spending authority
                    from offsetting collections revenue and from direct
                    appropriation. Spending authority from offsetting
                    collections is comprised of collections of premerger
                    filing fees under the authority of the HSR Act,
                    collection of fees related to the Do-Not-Call (DNC)




   120                                  Federal Trade Commission | Performance and Accountability Report
N




Non-entity assets consisted of the following as of September 30, 2011 and 2010 (in thousands):




                                                                                                                                 Financial Section
                                                                                                        2011              2010
 Intragovernmental:
           Fund balance with Treasury                                                            $    4,093        $     6,056
           Investments                                                                               35,443            199,105
 Total intragovernmental:                                                                            39,536            205,161
           Cash and other monetary assets                                                            44,944             21,473
           Accounts receivable, net                                                                   11,321            48,170
 Total non-entity assets                                                                             95,801            274,804
 Total entity assets                                                                                 127,582           121,580
 Total assets                                                                                    $ 223,383         $ 396,384




note 3—Fund balance with treasury
Fund balance includes appropriated funds, which are                   also includes non-entity funds arising from undisbursed
either unobligated, or obligated as an account payable or             HSR filing fees due to the DOJ and collections of
undelivered order and not yet disbursed. Fund balance                 redress judgments not yet disbursed to claimants.

Fund Balance with Treasury consisted of the following as of September 30, 2011 and 2010 (in thousands):

                                                                                                         2011             2010
 Fund balances with Treasury:
          Appropriated funds                                                                     $ 108,132          $ 103,430
          Suspense fund - undisbursed HSR filing fees                                                  290                585
          Deposit funds - redress                                                                    3,803              5,471
 Total fund balance with Treasury                                                                $ 112,225          $ 109,486

 Status of fund balance with Treasury
           Unobligated balance
                    Apportioned                                                                   $ 17,882          $ 10,845
                       Unavailable                                                                     2,693             2,283
           Obligated balance not yet disbursed                                                         87,557           90,302
           Non-Budgetary fund balance with Treasury:
                    Suspense fund - undisbursed HSR filing fees                                        290                585
                    Deposit funds - redress                                                          3,803              5,471
 Total status fund balance with Treasury                                                         $ 112,225          $ 109,486



                                                            fiscal year 2011                                                      121
                    N




                                                                      Cash and other monetary assets consisted of the following as of
                                                                      September 30, 2011 and 2010 (in thousands):

                                                                                                                                                2011          2010
                                                                        Cash and other monetary assets:
                                                                                 Redress contractors                               $ 44,944               $ 21,473
Financial Section




                                                                        Total cash and other monetary assets                       $ 44,944               $ 21,473




                    N
                                                                                              government securities market. Additionally, in FY 2010
                                                                                              the investments balance included long-time reserved
                                                                                              funds that had been from one judgment related to
                                                                                              the FTC’s maintaining competition mission. The
                                                                                              invested funds from this judgment were returned to the
                                                                                              defendants during FY 2011. (See Note 18 Redress and
                                                                                              Divestiture Activities.)
                    As of September 30, 2011, investments consisted of the following (in thousands):

                                                                              Amortized                                                                 Market
                                                                 Amortization            Interest            Investment          Other
                                                     Cost                     (Premium)                                                                  Value
                                                                   Method               Receivable              Net           Adjustments
                                                                               Discount                                                                Disclosure
                     Intragovernmental
                     Securities:
                     Non-Marketable:
                              Market-Based          $ 35,443            n/a               -            -        $ 35,443                    -            $ 35,443
                    Total investments               $ 35,443            n/a               -            -        $ 35,443                    -            $ 35,443

                    As of September 30, 2010, investments consisted of the following (in thousands):

                                                                              Amortized                                                                 Market
                                                                 Amortization            Interest            Investment         Other
                                                    Cost                      (Premium)                                                                  Value
                                                                   Method               Receivable              Net          Adjustments
                                                                               Discount                                                                Disclosure
                     Intragovernmental
                     Securities:
                     Non-Marketable:
                              Market-Based        $ 199,105             n/a              -             -       $ 199,105                -               $ 199,105
                    Total investments             $ 199,105             n/a              -             -       $ 199,105                -               $ 199,105

   122                                       Federal Trade Commission | Performance and Accountability Report
N
                                                                        The method used to estimate the allowance for
                                                                        uncollectible receivables consists of individual case
                                                                        analysis by the attorney case manager with respect to the
                                                                        debtor’s ability and willingness to pay, the defendant’s
                                                                        payment record, and the probable recovery amount
                                                                        including the value of the sale of assets. Based on the
                                                                        aforementioned, cases are referred to the Treasury
                                                                        offset Program for collection activities after the




                                                                                                                                    Financial Section
                                                                        receivable becomes six months delinquent in payment.




Accounts receivable, net consisted of the following as of September 30, 2011 and 2010 (in thousands):

                                                                           Allowance for
                                                       Gross
                                                                           Uncollectible            2011 Net        2010 Net
                                                     Receivables
                                                                             Accounts
  Entity accounts receivable:
           Intragovernmental                              $        26           $          -            $      26        $     71
           With the Public                                         53                      -                   53              19
  Total entity acounts receivable, net                    $        79           $          -            $      79        $     90


  Non-entity accounts receivable:
           Consumer redress                               $ 424,802              $ 413,573              $ 11,229        $38,170
             Civil penalties                                   8,068                  7,976                    92        10,000
  Total non-entity accounts receivable                   $ 432,870               $ 421,549              $ 11,321        $48,170
  Total accounts receivable, net                         $ 432,949               $ 421,549              $ 11,400        $48,260




                                                              fiscal year 2011                                                       123
                    N


                                                                                             Amounts reported as equipment are comprised mostly
                                                                                             of computer hardware and other building equipment.
                                                                                             The FTC does not own buildings, but rather, in
                                                                                             partnership with General Services Administration
                                                                                             (GSA) leases both federally owned (by GSA) and
                                                                                             commercial space. (See Note 10 Leases.) The leasehold
                                                                                             improvements below consist of improvements made to
Financial Section




                                                                                             the FTC headquarters building located in Washington
                                                                                             DC (which is owned by the GSA), and to the FTC
                                                                                             commercially leased space also located in Washington DC.

                                                                                             Depreciation expense was $3,783 and $3,073 thousand
                                                                                             for fiscal years ending September 30, 2011 and 2010,
                                                                                             respectively, and is contained in the accumulated
                                                                                             depreciation.




                    As of September 30, 2011, general property and equipment, net consisted of the following (in thousands):

                                                                                 Service            Acquisition          Accumulated         Net
                                          Asset Class
                                                                                  Life                Value              Depreciation     Book Value
                     Equipment                                                   5-20 yrs.              $ 10,357               $ 7,003      $ 3,354
                     Leasehold improvements                                     lease term                14,403                 4,787         9,616
                     Software                                                     3-5 yrs.                16,187                 9,786         6,401
                     Total general property and equipment, net                                          $ 40,947               $ 21,576      $ 19,371




                    As of September 30, 2010, general property and equipment, net consisted of the following (in thousands):

                                                                                 Service            Acquisition          Accumulated         Net
                                           Asset Class
                                                                                  Life                Value              Depreciation     Book Value
                      Equipment                                                  5-20 yrs.              $ 9,975                $ 7,814       $ 2,161
                      Leasehold improvements                                    lease term               14,080                  3,824        10,256
                      Software                                                    3-5 yrs.               13,796                   8,153        5,643
                      Total general property and equipment, net                                         $ 37,851               $ 19,791      $ 18,060




   124                                     Federal Trade Commission | Performance and Accountability Report
N
Liabilities not covered by budgetary resources consisted of the following as of September 30, 2011 and 2010 (in thousands):

                                                                                                           2011                    2010
 Intragovernmental:
           Undisbursed premerger fees liability                                                       $     290               $     585
           Civil penalty collections due to Treasury                                                          92                  10,000
           FECA liability                                                                                   372                     439
           Other Unfunded Employment Related Liability                                                        15                     16




                                                                                                                                           Financial Section
 Total intragovernmental liabilities not covered by budgetary resources                                      769                  11,040
 Accrued redress receivables due to claimants                                                             11,229                  38,170
 Redress collected not yet disbursed                                                                      84,190               180,526
 Divestiture fund due                                                                                           -                 45,523
 Unfunded leave                                                                                           11,013                  10,683
 Actuarial FECA                                                                                           2,208                    2,162
 Total liabilities not covered by budgetary resources                                                 $ 109,409               $ 288,104
 Total liabilities covered by budgetary resources                                                         20,778                  20,630
 Total liabilities                                                                                    $ 130,187               $ 308,734



undisbursed Premerger fees liability                                  redress Collected not Yet Disbursed
represents undisbursed filing fees collected under the                represents a non-entity liability corresponding to
HSR Act, which are due to the DOJ in a subsequent                     amounts reported as non-entity assets (including Fund
period.                                                               Balance with Treasury, Cash and Other Monetary Assets
                                                                      and Investments for TAS 29X6013). These funds are
Civil Penalty Collections Due to treasury                             held until distributed to consumers or returned to
represents the corresponding liability relative to                    Treasury through disgorgement.
accounts receivable due for civil monetary penalties,
which will be transferred to the general fund of the                  Divestiture fund Due represents the
Treasury upon receipt.                                                corresponding liability offsetting the amount reported
                                                                      as non-entity assets (investments) held by the FTC
federal employee’s Compensation act                                   pending divesture of assets pursuant to a court ordered
(feCa) liability represents the unfunded                              judgment. The invested funds were disbursed in FY
liability for workers compensation the payable to the                 2011; therefore, there is no offsetting liability in FY
Department of Labor (DOL). DOL is the paying                          2011. (See Note 5 Investments.)
agent for all FECA claims.
                                                                      unfunded leave represents a liability for earned
accrued redress receivables Due to                                    leave and is reduced when leave is taken. The balance in
Claimants represents the contra account for                           the accrued annual leave account is reviewed quarterly
accounts receivable due from judgments obtained as a                  and adjusted as needed to accurately reflect the liability at
result of the agency’s consumer redress litigation.                   current pay rates and leave balances. Accrued annual leave
                                                                      is paid from future funding sources and, accordingly, is
                                                                      reflected as a liability not covered by budgetary resources.
                                                                      Sick and other leave is expensed as taken.




                                                             fiscal year 2011                                                               125
                    A                                                                        provided by DOL multiplied by the average of benefits
                                                                                             paid over three years.




                    N
                    Other liabilities consisted of the following as of September 30, 2011 and 2010 (in thousands):

                                                                                                       2011                 2011
                                                                                                                                             2011 Total
Financial Section




                                                                                                 Non-Current              Current
                      Intragovernmental:
                                Accrued benefits                                                       $       -         $     676             $     676
                                Undisbursed premerger liability                                                -               290                   290
                                Civil penalty collection due to Treasury                                       -                92                    92
                      FECA liability                                                                        372                   -                  372
                      Total Intragovernmental                                                               372              1,058                 1,430
                      Accrued salary                                                                           -             4,257                 4,257
                      Accrued leave                                                                            -             11,013                11,013
                      Actuarial FECA                                                                    2,208                     -                2,208
                      Total Other Liabilities                                                          $ 2,580           $ 16,328             $ 18,908



                                                                                                       2010                 2010
                                                                                                                                             2010 Total
                                                                                                 Non-Current              Current
                      Intragovernmental:
                                Accrued benefits                                                       $       -         $ 1,550              $ 1,550
                                Undisbursed premerger liability                                                -               585                   585
                                Civil penalty collection due to Treasury                                       -          10,000                10,000
                                FECA liability                                                              439                   -                  439
                      Total Intragovernmental                                                               439           12,135                12,574
                      Accrued salary                                                                           -              7,796                 7,796
                      Accrued leave                                                                            -          10,683                10,683
                      Actuarial FECA                                                                       2,162                  -                2,162
                      Total Other Liabilities                                                          $ 2,601           $ 30,614             $ 33,215




   126                                      Federal Trade Commission | Performance and Accountability Report
N                                                                      note 11—Commitments and
                                                                       Contingencies
                                                                       The FTC is a party in various administrative proceedings,
                                                                       legal actions, and claims brought by or against it. In the
                                                                       opinion of the FTC management and legal counsel, the
                                                                       ultimate resolution of these proceedings, actions, and
                                                                       claims, will not materially affect the financial position or
                                                                       the results of operations of the FTC.




                                                                                                                                      Financial Section
                                                                       note 12—intragovernmental Costs
                                                                       and exchange Revenues
                                                                       intragovernmental costs represent costs incurred for
                                                                       goods or services provided by another federal entity.
                                                                       Public costs represent costs incurred for goods or
                                                                       services from a nonfederal entity. Intragovernmental
                                                                       earned revenue represents goods or services provided
                                                                       by the FTC to another federal entity. Public earned
                                                                       revenue represents goods or services provided by
future minimum lease payments due under leases of                      the FTC to a nonfederal entity. The purpose of this
government-owned property as of September 30, 2011,                    classification is to enable the federal government to
are as follows (in thousands):                                         provide consolidated financial statements.
 Fiscal Year
 2012                                                    $ 6,861
 2013                                                       6,814
 2014                                                       6,527
 2015                                                         228
 2016                                                         229
 Thereafter                                                   653
 Total Future Minimum Lease Payments                     $ 21,312

future minimum lease payments under leases of commercial
property due as of September 30, 2011 are as follows (in thousands):

 Fiscal Year
 2012                                                    $ 13,704
 2013                                                        4,250
 2014                                                        4,211
 2015                                                        1,960
 2016                                                        1,754
 Thereafter                                                  3,462
 Total Future Minimum Lease Payments                     $ 29,341




                                                             fiscal year 2011                                                          127
                    For the FYs ended September 30 2011 and 2010, intragovernmental and public costs and exchange revenues are as follows
                    (in thousands):

                                                                                                               2011                            2010
                     Protect Consumers (PC) Strategic Goal:
                                         Intragovernmental gross costs                                   $ 43,116                      $ 40,985
                                         Public costs                                                      126,218                          117,473
                               Total PC strategic goal costs                                               169,334                          158,458
                                         Intragovernmental earned revenue                                      (513)                           (257)
                                         Public earned revenue                                              (13,720)                        (14,169)
Financial Section




                               Total PC strategic goal earned revenue                                       (14,233)                        (14,426)
                     Total PC strategic goal net costs                                                      155,101                         144,032
                     Maintain Competition (MC) Strategic Goal:
                                         Intragovernmental gross costs                                      32,926                           30,169
                                         Public costs                                                       96,389                           86,473
                               Total MC strategic goal net costs                                           129,315                          116,642
                                         Intragovernmental earned revenue                                      (560)                           (696)
                                         Public earned revenue                                              (91,424)                        (72,858)
                               Total MC strategic goal earned revenue                                       (91,984)                        (73,554)
                     Total MC strategic goal net costs                                                       37,331                         43,088
                     Net Cost of Operations                                                              $ 192,432                      $ 187,120




                    note 13—exchange Revenues                                            exchange revenues are also earned through the
                                                                                         collection of fees for the National DNC Registry. This
                    exchange revenues are earned through the collection of               Registry operates under Section 5 of the FTC Act,
                    fees under the HSR Act. This Act, in part, requires the              which enforces the Telemarketing Sales Rule. The Do-
                    filing of premerger notifications with the FTC and the               Not-Call Implementation Act, Public Law No. 108-010,
                    Antitrust Division of the DOJ and establishes a waiting              gives the FTC authority to establish fees sufficient to
                    period before certain acquisitions may be consummated.               offset enforcement of the provisions related to the
                    Mergers with transaction valuation above $66.0 million               Registry. Telemarketers are required to pay an annual
                    require the acquiring party to pay a filing fee. The filing          subscription fee and download from the DNC Registry
                    fees are based on the transaction amount and follow                  database a list of telephone numbers of consumers
                    a three-tiered structure: $45, $125 and $280 thousand.               who do not wish to receive calls. Fees are based on
                    The FTC collects all HSR premerger fees, retains                     the number of area codes downloaded. Since October
                    one-half, and remits 50 percent to the DOJ Antitrust                 1, 2009, the minimum charge has remained at $55 to
                    Division pursuant to public law. Revenue is recognized               download one area code. The maximum charge has
                    upon collection of the appropriate fee and verification              remained at $15,058 for all area codes within the United
                    of proper documentation.                                             States. Revenue is recognized when collected and the
                                                                                         telemarketer is given access to the requested data.




   128                                     Federal Trade Commission | Performance and Accountability Report
exchange revenue is also earned for services provided               note 15—explanation of
to other government agencies through reimbursable
agreements. The FTC recovers the full cost of services,
                                                                    differences between the
primarily salaries and related expenses. Revenue is                 statement of budgetary
earned at the time the expenditures are incurred against            Resources and the budget of the
the reimbursable order. Exchange revenues are deducted              united states government
from the full cost of the fTc’s strategic goals to arrive
at net strategic goal cost.                                         There are no material differences between amounts
                                                                    reported in the fy 2010 statement of Budgetary
                                                                    resources and the fy 2010 actual amounts as reported in
For the FYs ended September 30, 2011 and 2010, exchange revenue




                                                                                                                              Financial Section
consisted of the following (in thousands):                          the FY 2012 Budget of the United States Government.
                                                                    The fy 2013 Budget of the United states is not
                                        2011           2010
                                                                    available to compare fy 2011 actual amounts to the
 HSR premerger filing fees        $ 91,424        $ 72,858          FY 2011 Statement of Budgetary Resources.
 Do Not Call registry fees          13,720          14,169
 Reimbursable agreements             1,073             953          note 16—undelivered orders at
 Total exchange revenue           $ 106,217        $ 87,980
                                                                    the end of the Period
                                                                    The amount of budgetary resources obligated for
                                                                    undelivered orders as of September 30, 2011 and 2010
note 14—Apportionment                                               is $66,895 and $69,991 thousand respectively.
Categories of obligations
incurred: direct vs. Reimbursable
obligations

aPPortionment Categories of
oBligations inCurreD
For the FYs ended September 30, 2011 and 2010, obligations
incurred consisted of the following (in thousands):



                                               2011          2010
Obligations incurred:
Category A - Direct obligations          $ 292,146     $ 291,742
Category B - Reimbursable Obligations          913           987
Total obligations incurred               $ 293,059    $ 292,729




                                                             fiscal year 2011                                                  129
                    N                                  (dECREASE)/INCREASE IN AMOuNTS YET
                                                       TO BE TRANSFERREd
                                                       This represents the difference between the opening
                                                       and closing balances for the offsetting liability is that
                                                       is established for the civil penalty funds due to be
                                                       collected (receivable).

                                                       note 18—Redress and divestiture
                                                       Activities
Financial Section




                                                       REdRESS
                                                       The FTC obtains consumer redress in connection with
                                                       the settlement or litigation of both its administrative
                                                       proceedings and its federal court cases. The FTC
                                                       attempts to distribute funds thus obtained to consumers
                                                       whenever possible. If consumer redress is not practical,
                                                       the funds are paid (disgorged) to the Treasury, or
                                                       on occasion, other alternatives, such as consumer
                                                       education, are permitted. Major components of the
                                                       program include eligibility determination, disbursing
                                                       redress to claimants, and accounting for the disposition
                                                       of these funds. Collections made against court-ordered
                                                       judgments totaled $41,596 and $170,270 thousand
                                                       during FYs 2011 and 2010, respectively.

                                                       dIVESTITuRE FuNd
                                                       The divestiture fund consisted of one judgment
                                                       (obtained by the fTc in support of its strategic goal
                                                       to maintain competition) that required the defendants
                                                       to place funds in reserve under the FTC control. The
                                                       funds were available for development opportunities by
                                                       a competing company that had received divested assets
                                                       from the defendants. During FY 2010, the judgment
                                                       was re-opened by the court and ultimately modified to
                                                       allow those funds to be returned to the defendants. The
                                                       disbursement of those funds occurred during the first
                                                       quarter of FY 2011.




   130              Federal Trade Commission | Performance and Accountability Report
Redress and divestiture fund activities consisted of the following for September 30, 2011 and 2010 (in thousands):

                                                                                                   2011                      2010
 Redress:
            Fund Balance with Treasury
                      Beginning balance                                                     $ 5,471                  $     2,298
                      Collections                                                                41,596                  170,270
                      Disbursements to claimants                                                    (48)                     (483)
                      Disgorgements to Treasury                                                 (13,177)                   (6,659)




                                                                                                                                     Financial Section
                      Transfers, expenses, refunds                                              (30,039)                 (159,955)
            Total fund balance with Treasury, ending                                        $ 3,803                  $      5,471


            Cash and Other Monetary Assets
                      Beginning balance                                                     $ 21,473                     $ 18,141
                      Disbursements to claimants                                             (116,089)                    (47,683)
                      Transfers, expenses, interest income                                      139,560                    51,015
            Total cash and other monetary assets, ending                                    $ 44,944                     $ 21,473


            Investments
                      Beginning balance                                                     $ 153,582                $ 49,306
                      Transfers, expenses, interest income                                   (118,139)                   104,276
            Total investments, ending                                                       $ 35,443                 $ 153,582


            Accounts receivable, net
                      Beginning balance                                                     $ 38,170                     $ 55,496
                      Net Activity                                                              (26,941)                  (17,326)
            Total accounts receivable, net, ending                                         $ 11,229                      $ 38,170


 Divestiture Fund:
            Investments
                      Beginning balance                                                     $ 45,523                     $ 45,542
                      Interest, net of (expenses)                                                    (4)                     (19)
                      Return of funds                                                           (45,519)                        -
            Total investments, ending                                                       $         -                  $ 45,523




                                                              fiscal year 2011                                                        131
                    N

                    For the FYs ended September 30, 2011 and 2010 (in thousands)

                                                                                                                   2011         2010
                     Resources Used to Finance Activities:
                     Budgetary Resources Obligated
                               Obligations incurred                                                           $ 293,059    $ 292,729
                               Less: Spending authority from offsetting collections and recoveries             (114,287)     (91,401)
Financial Section




                               Obligations net of offsetting collections and recoveries                        178,772      201,328
                     Other Resources
                               Imputed financing from costs absorbed by others                                   11,759        9,706
                               Net other resources used to finance activities                                    11,759        9,706
                     Total resources used to finance activities                                                190,531      211,034


                     Resources Used to Finance Items not Part of the Net Cost of Operations:
                               Change in budgetary resources obligated for goods,
                               services and benefits ordered but not yet provided                                2,936       (22,218)
                               Resources that finance the acquisition of assets                                  (5,093)      (5,660)
                               Total resources used to finance items not part of the net cost of operations      (2,157)     (27,878)
                     Total resources used to finance the net cost of operations                                188,374       183,156


                     Components of the Net Cost of Operations that will not Require or
                     Generate Resources in the Current Period:
                               Components Requiring or Generating Resources in Future Periods:
                                         Increase in annual leave liability                                        330          896
                                         Other                                                                      (55)          (5)
                               Total components of Net Cost of Operations that will require or
                               generate resources in future periods                                                275          891
                               Components not Requiring or Generating Resources:
                                         Depreciation and amortization                                           3,783        3,073
                              Total Components of Net Cost of Operations that will not require or
                              generate resources                                                                 3,783        3,073
                     Total components of net cost of operations that will not require or
                     generate resources in the current period                                                     4,058        3,964
                     Net Cost of Operations                                                                   $ 192,432    $ 187,120




   132                                     Federal Trade Commission | Performance and Accountability Report
Other Accompanying Information




                                 133
                                  fiscal year 2011
                                 I
Other Accompanying Information




      134                        Federal Trade Commission | Performance and Accountability Report
INSPECTOR GENERAL-IdENTIFIEd MANAGEMENT ANd PERFORMANCE
CHALLENGES (CONTINuEd)




                                                          Other Accompanying Information




                         fiscal year 2011                   135
                                 INSPECTOR GENERAL-IdENTIFIEd MANAGEMENT ANd PERFORMANCE
                                 CHALLENGES (CONTINuEd)
Other Accompanying Information




      136                                Federal Trade Commission | Performance and Accountability Report
INSPECTOR GENERAL-IdENTIFIEd MANAGEMENT ANd PERFORMANCE
CHALLENGES (CONTINuEd)




                                                          Other Accompanying Information




                         fiscal year 2011                   137
                                 INSPECTOR GENERAL-IdENTIFIEd MANAGEMENT ANd PERFORMANCE
                                 CHALLENGES (CONTINuEd)
Other Accompanying Information




      138                                Federal Trade Commission | Performance and Accountability Report
INSPECTOR GENERAL-IdENTIFIEd MANAGEMENT ANd PERFORMANCE
CHALLENGES (CONTINuEd)




                                                          Other Accompanying Information




                         fiscal year 2011                   139
                                 Chairman’s resPonse to ig Challenges
Other Accompanying Information




      140                               Federal Trade Commission | Performance and Accountability Report
S



auDit oPinion                                   Unqualified


restatement                                          No


                      Beginning                                              ending
                                    new         resolved      Consolidated




                                                                                       Other Accompanying Information
                       Balance                                               Balance
material weaKnesses
                         0           0               0             0           0


total material
                         0           0               0             0           0
weaKnesses




                                  fiscal year 2011                                       141
                                 tAble 2: suMMARy oF MAnAgeMent AssuRAnCes

                                  effectiveness of internal control Over financial reporting (federal Managers’
                                  financial integrity act (fMfia) Para. 2)

                                  statement of
                                                                                              Unqualified
                                  assuranCe

                                                              Beginning                                                        ending
                                                                                 new           resolved      Consolidated
                                                               Balance                                                         Balance
Other Accompanying Information




                                  material weaKnesses

                                                                  0               0               0               0                 0

                                  total material
                                                                  0               0               0               0                 0
                                  weaKnesses


                                  effectiveness of internal control Over Operations (fMfia Para. 2)

                                  statement of
                                                                                              Unqualified
                                  assuranCe

                                                              Beginning                                                        ending
                                                                                 new           resolved      Consolidated
                                                               Balance                                                         Balance
                                  material weaKnesses

                                                                  0               0               0               0                 0

                                  total material
                                                                  0               0               0               0                 0
                                  weaKnesses


                                  conformance with financial Management System requirements (fMfia Para. 4)

                                  statement of
                                                                      Systems conform to financial management system requirements
                                  assuranCe

                                                              Beginning                                                        ending
                                                                                 new           resolved      Consolidated
                                                               Balance                                                         Balance
                                  non-ConformanCes

                                                                  0               0               0               0                 0


                                  total non-
                                                                  0               0               0               0                 0
                                  ConformanCes




      142                                        Federal Trade Commission | Performance and Accountability Report
Impr

The improper Payments elimination and recovery act          The IPERA and OMB Memorandum M-11-16 also
(IPERA) (Public Law No. 111-204) which amended the          provide guidance to agencies for implementing payment
Improper Payments Information Act (Public Law No.           recapture audits, for programs and activities that expend
107-300), defines requirements to reduce improper and       $1 million or more annually, provided it is cost-effective
erroneous payments made by the federal government.          to do so. The FTC considered the criteria specified in




                                                                                                                         Other Accompanying Information
In addition, the Office of Management and Budget            the above guidance in determining whether it would be
(OMB) issued guidance (Memorandum M-11-16) which            cost-effective to implement a payment recapture audit
defines “significant improper payments” and prescribes      program at the FTC and concluded that it would not be
the reporting requirements for agencies with programs       cost-effective to do so. The agency informed the IG and
that are susceptible to significant improper payments.      the OMB as required. In arriving at our determination,
Significant improper payments as defined by OMB             all of the activities within the agency’s protecting
guidance are those that exceed both 2.5 percent of a        consumers and maintaining competition programs
program’s annual payments and $10 million. The FTC          were included in our assessment. The FTC reached our
reviewed its programs and activities in accordance with     conclusion by considering the nature (type), volume and
the above guidance and determined that none of the          amounts of our disbursements, the degree of risk for
agency’s programs or activities are susceptible to making   making an improper payment, and the existence and
significant improper payments.                              effectiveness of controls that have been placed into
                                                            operation to prevent such payments. We also noted the
                                                            FTC has not made significant improper payments in
                                                            prior years.




                                                   fiscal year 2011                                                        143
Appendices




  144        Federal Trade Commission | Performance and Accountability Report
                   Appendices




fiscal year 2011   145
             APPendix A: ACRonyMs
             ACO                  Accountable Care Organization
             APA                  Administrative Procedure Act
             ACSI                 American Customer Satisfaction Index
             BC                   Bureau of Competition
             BCP                  Bureau of Consumer Protection
Appendices



             BE                   Bureau of Economics
             CDC                  Centers for Disease Control
             CEO                  Chief Executive Officer
             CFO                  Chief Financial Officer
             CFS                  Core Financial System
             CISCO                Chief Information Security Officer
             CON                  Certificate of Need
             COOP                 Continuity of Operations Plan
             COPPA                Children’s Online Privacy Protection Act
             CPO                  Chief Privacy Officer
             CRSS                 Consumer Response Systems and Services
             CSN                  Consumer Sentinel Network
             CSRS                 Civil Service Retirement System
             DNC                  Do Not Call
             DOJ                  Department of Justice
             DOL                  Department of Labor
             DRM                  Digital Rights Management
             ERCR                 Electronic Recordkeeping Certification Review
             EDMS                 Electronic Document Management System
             EFT                  Electronic Funds Transfer
             FASAB                Federal Accounting Standards Advisory Board
             FBWT                 Fund Balance with Treasury
             FDA                  Food and Drug Administration
             FECA                 Federal Employee’s Compensation Act
             FEGLIP               Federal Employees Group Life Insurance Program
             FEHBP                Federal Employees Health Benefit Program
             FEMA                 Federal Emergency Management Agency
             FERS                 Federal Employees Retirement System
             FICA                 Federal Insurance Contributions Act
             FISMA                Federal Information Security Management Act
             FMFIA                Federal Managers’ Financial Integrity Act




  146                 Federal Trade Commission | Performance and Accountability Report
FTC     Federal Trade Commission
FTE     Full-Time Equivalent
FY      Fiscal Year
GAAP    Generally Accepted Accounting Principles
GAO     Government Accountability Office
GAS     Government Account Series
GPRA    Government Performance and Results Act




                                                                 Appendices
GSA     General Services Administration
HRMO    Human Resources Management Office
HSR     Hart-Scott-Rodino Act
ICN     International Competition Network
IG      Inspector General
IP      Intellectual Property
IPPA    Integrated Project Plan of Action
IT      Information Technology
MC      Maintain Competition
MD&A    Management’s Discussion and Analysis
N/A     Not Applicable or Not Available
NFL     National Football League
NIST    National Institute of Standards and Technology
MLS     Multiple Listing Service
MOU     Memorandum of Understanding
OCIO    Office of the Chief Information Officer
OECD    Organization for Economic Co-operation and Development
OIG     Office of Inspector General
OMB     Office of Management and Budget
OPEC    Organization of the Petroleum Exporting Countries
OPM     Office of Personnel Management
ORB     Other Retirement Benefits
PAR     Performance and Accountability Report
PC      Protect Consumers
PII     Personally Identifiable Information
PSC     Privacy Steering Committee
SAS     Statement on Auditing Standard
SAT     Senior Assessment Team
SBR     Statement of Budgetary Resources
SCA     Statement of Custodial Activity
SFFAS   Statement of Federal Financial Accounting Standard




                            fiscal year 2011                     147
             SHI                             Sensitive Health Information
             SOA                             Statement of Assurance
             TAS                             Treasury Account Symbol
             TSP                             Thrift Savings Plan
             TTY                             Text Telephone or Telephone Typewriter
             U.S.                            United States
             U.S. SAFE WEB Act               Undertaking Spam, Spyware, And Fraud Enforcement With Enforcers beyond
                                             Borders Act of 2006
Appendices




             USDA                            United States Department of Agriculture




  148                            Federal Trade Commission | Performance and Accountability Report
APPendix b: ContACt inFoRMAtion
FEdERAL TRAdE COMMISSION                              600 Pennsylvania Avenue, NW
                                                      Washington, DC 20580

General Information Number                            202-326-2222
Internet Home Page                                    www.ftc.gov
FTC Spanish Home Page                                 www.ftc.gov/espanol
Strategic Plan Internet Site                          www.ftc.gov/strategicplan




                                                                                          Appendices
FTC Press Releases                                    www.ftc.gov/opa/pressold.shtm


PERFORMANCE ANd ACCOuNTABILITY REPORT (PAR) SPECIFIC
The FTC welcomes comments or suggestions for improvement of its PAR. Please contact the
agency to provide feedback or to request additional copies.

PAR Internet Site                             www.ftc.gov/par
PAR Contact                                   Valerie Green
PAR Telephone                                 202-326-2901
PAR Email Address                             gpra@ftc.gov
PAR Fax Number                                202-326-2329
Par mailing address                           federal Trade commission
                                              attn: PAR, M/D H-774
                                              600 Pennsylvania Avenue, NW
                                              Washington, DC 20580

REGIONS
East Central (Cleveland, OH)                  216-263-3455
Midwest (Chicago, IL)                         312-960-5634
Northeast (New York, NY)                      212-607-2829
Northwest (Seattle, WA)                       206-220-6350
Southeast (Atlanta, GA)                       404-656-1390
Southwest (Dallas, TX)                        214-979-9350
Western (San Francisco, CA)                   415-848-5100
Western (Los Angeles, CA)                     310-824-4343


CONSuMER RESPONSE CENTER
General Complaints                            877-FTC-HELP (877-382-4357)
Identity Theft Complaints                     877-ID-THEFT (877-438-4338)
Online General Complaints                     www.ftc.gov/complaint
Identity Theft Education                      www.ftc.gov/idtheft
and complaints
National Do Not Call Registry                 www.donotcall.gov




                                               fiscal year 2011                           149
             APPendix C: otheR useFul linKs
             INTROduCTION
               • Accountability of Tax Dollars Act of 2002:
                 http://www.whitehouse.gov/sites/default/files/omb/assets/about_omb/107-2891.pdf
               • Association for Government Accountant’s Certificate of Excellence in Accountability Reporting (CEAR):
                 http://www.agacgfm.org/performance/cear/
               • Clayton Act: http://www.law.cornell.edu/uscode/html/uscode15/usc_sec_15_00000012----000-.html
Appendices




               • Fair Credit Reporting Act: http://www.ftc.gov/os/statutes/031224fcra.pdf
               • Federal Managers’ Financial Integrity Act of 1982 (FMFIA):
                 http://www.whitehouse.gov/omb/financial_fmfia1982
               • Federal Trade Commission Act: http://www.ftc.gov/ogc/ftcact.shtm
               • Government Management Reform Act of 1994:
                 http://govinfo.library.unt.edu/npr/library/misc/s2170.html
               • Government Performance and Results Act of 1993 (GPRA):
                 http://www.whitehouse.gov/omb/mgmt-gpra/gplaw2m
               • GPRA Modernization Act of 2010:
                 http://www.gpo.gov/fdsys/pkg/BILLS-111hr2142enr/pdf/BILLS-111hr2142enr.pdf
               • Identity Theft Act: http://www.ftc.gov/os/statutes/itada/itadact.htm
               • Improper Payments Information Act of 2002: http://www.whitehouse.gov/omb/financial_fia_improper/
               • Reports Consolidation Act of 2000:
                 http://www.gpo.gov/fdsys/pkg/BILLS-106s2712enr/pdf/BILLS-106s2712enr.pdf
               • Telemarketing Sales Rule: http://www.ftc.gov/bcp/rulemaking/tsr/index.shtml


             Md&A
               • Accountable Care Organizations (ACOs) overview: https://www.cms.gov/ACO
               • Affordable Care Act: http://www.gpo.gov/fdsys/pkg/PLAW-111publ148/pdf/PLAW-111publ148.pdf
               • American Customer Satisfaction Index (ACSI): http://www.theacsi.org
               • Children’s Online Privacy Protection Act (COPPA) Rule:
                 http://business.ftc.gov/privacy-and-security/children%E2%80%99s-online-privacy
               • Circular A-123, “Management’s Responsibility for Internal Control”:
                 http://www.whitehouse.gov/omb/circulars_a123_rev/
               • Commission’s Prohibition of Energy Market Manipulation Rule:
                 http://www.ftc.gov/os/2009/08/P082900mmr_finalrule.pdf




  150                        Federal Trade Commission | Performance and Accountability Report
  • Debt Collection Improvement Act of 1996: http://www.dol.gov/ocfo/media/regs/DCIA.pdf
  • Equal Credit Opportunity Act: http://www.ftc.gov/bcp/edu/pubs/consumer/credit/cre15.shtm
  • Federal Human Capital Survey: http://www.fedview.opm.gov
  • Federal Information Security Management Act (FISMA):
    http://csrc.nist.gov/drivers/documents/FISMA-final.pdf
  • FTC Guides for the Use of Environmental Marketing Claims:




                                                                                                         Appendices
    http://www.ftc.gov/bcp/edu/microsites/energy/about_guides.shtml
  • Gasoline and Diesel Price Monitoring Project: http://www.ftc.gov/ftc/oilgas/gas_price.htm
  • Government Accountability Office (GAO) Auditing Resources: http://www.gao.gov/aac.html
  • International Competition Network: http://www.internationalcompetitionnetwork.org
  • Managed Trusted Internet Protocol Service: http://www.gsa.gov/portal/content/104213
  • Mortgage Assistance Relief Services Rule:
    http://business.ftc.gov/documents/bus76-mortgage-assistance-relief-services-rule
  • Office of Inspector General (OIG): http://www.ftc.gov/oig/
  • Prompt Payment Act: http://www.fms.treas.gov/prompt/regulations.html
  • Trusted Internet Connection: http://www.dhs.gov/files/programs/gc_1268754123028.shtm
  • We Don’t Serve Teens: http://www.dontserveteens.gov


PERFORMANCE
  • Complaint Assistant: https://www.ftccomplaintassistant.gov
  • Hart-Scott-Rodino (HSR) Act: http://www.ftc.gov/bc/hsr
  • Home Mortgage Disclosure Act: http://www.fdic.gov/regulations/laws/rules/6500-3030.html
  • Human Capital Assessment and Accountability Framework:
    http://www.opm.gov/hcaaf_resource_center/2-1.asp
  • Net Cetera: Chatting with Kids about Being Online:
    http://onguardonline.gov/features/feature-0004-featured-net-cetera-toolkit
  • Undertaking Spam, Spyware, And Fraud Enforcement With Enforcers beyond Borders Act of 2006 (U.S.
    SAFE WEB Act): http://www.gpo.gov/fdsys/pkg/PLAW-109publ455/pdf/PLAW-109publ455.pdf


OTHER ACCOMPANYING INFORMATION
  • Improper Payments Elimination and Recovery Act (IPERA):
    http://www.whitehouse.gov/the-press-office/president-obama-sign-improper-payments-elimination-and-
    recovery-act




                                              fiscal year 2011                                           151
             ACKnowledgeMents
             The FTC gratefully acknowledges the work of James Baker, Chloe Collins, Steve Fisher, Ted Franklin,
             Valerie Green, Eileen Harrington, Karen Leydon, Nancy Lux, Jeff Nakrin, Mark Oemler, Mary Beth
             Richards, Jon Schroeder, and Lori Walsh-Van Wey of the Office of the Executive Director; Jeanine
             Balbach, Nathan Hawthorne, and Stefano Sciolli of the Bureau of Competition; Laura DeMartino,
             Gregory Fortsch, and Jonathan Soileau of the Bureau of Consumer Protection; Russell Damtoft of
             the Office of International Affairs; and Christopher Grengs of the Office of Policy Planning for
             contributing to the development of this report. Editorial and design work supported by AOC Solutions,
Appendices




             Inc., and Fathom Creative.




  152                           Federal Trade Commission | Performance and Accountability Report
fiscal year 2011
